<html>
<title> - CLIMATE CHANGE ON FEDERAL FORESTS</title>
<body><pre>[Senate Hearing 111-290]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-290
 
                   CLIMATE CHANGE ON FEDERAL FORESTS

=======================================================================


                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

 RECEIVE TESTIMONY ON MANAGING FEDERAL FORESTS IN RESPONSE TO CLIMATE 
     CHANGE, INCLUDING FOR NATURAL RESOURCE ADAPTATION AND CARBON 
                             SEQUESTRATION

                               __________

                           NOVEMBER 18, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
55-124                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, Arizona
ROBERT MENENDEZ, New Jersey          ROBERT F. BENNETT, Utah
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     3
Batten, Kit, Ph.D., Science Advisor, Office of the Deputy 
  Secretary, Department of the Interior..........................     6
Johnson, Hon. Tim, U.S. Senator From South Dakota................     4
Law, Beverly, Professor, Global Change Forest Science, Oregon 
  State University, and Ameriflux Network Science Chair, 
  Corvallis, OR..................................................    30
Oneil, Elaine, Ph.D., M.S., BSF, RPF, Research Scientist, School 
  of Forestry, College of Forest Resources, University of 
  Washington and Executive Director of Corrim (Consortium for 
  Research on Renewable Industrial Materials), Seattle, WA.......    35
Risch, Hon. Jim, U.S. Senator From Idaho.........................     5
Tidwell, Tom, Chief, Forest Service, Department of Agriculture...    12
Wood, Christopher A., Chief Operating Officer, Trout Unlimited, 
  Arlington, VA..................................................    43
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    55

                              Appendix II

Additional material submitted for the record.....................    77


                   CLIMATE CHANGE ON FEDERAL FORESTS

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2009

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order.
    Good afternoon to all, and welcome. The purpose of today's 
hearing in the Subcommittee on Public Lands and Forests is to 
explore how the relevant Federal agencies are managing Federal 
forests in response to climate change, including for natural 
resource adaptation and carbon sequestration.
    I know in my home State, we understand how important it is 
to manage forests with an eye to the future, to preparing for 
both the stresses that climate change will place on our 
forests, and for the opportunities they have to be part of the 
climate solution. These are certainly among the top concerns 
facing the Department of Agriculture and the Interior 
Department, and we look forward to hearing from them today.
    The country's forests already provide a wide array of 
benefits--clean water and air, fish and wildlife habitat, 
timber and recreation. But, perhaps most timely is their 
potential to contribute to tackling the issue of climate 
change.
    In particular, I see two significant opportunities for the 
Federal forests. First, they could provide renewable energy, 
biomass energy from the millions and millions of acres of land 
that are dangerously overstocked and ready to explode into the 
next inferno; and second, they can sequester carbon to help 
battle climate change. In my view, it is time to manage the 
nation's forests, to address climate change, and unlock their 
potential.
    Substituting renewable biomass from forests for fossil 
fuels will help reduce the emissions of greenhouse gases that 
fossil fuels would have created. In addition, thinning Federal 
forests and restoring their health will also help protect them 
from insects, disease, and unnatural forest fires which release 
still more carbon into the atmosphere. Healthy forests lock up 
carbon dioxides through sequestration and provide an 
opportunity to create carbon offsets. These offsets can be used 
to help minimize the cost of carbon reduction in other parts of 
the economy, and finally, provide a way to truly account for 
this economic benefit that Federal forests provide to our 
environment.
    There is no doubt that climate change is having a 
significant impact on Federal forests. In recent years, forests 
have suffered from wildfires and bark beetle outbreaks that not 
only clearly prove that climate is, in fact, changing, but also 
that our forests are surprisingly sensitive to that change. 
These findings will require forest management actions that help 
make them more resilient to the impact of climate change.
    In my part of the country, particularly in our dry forests, 
this means that forest restoration and thinning activities are 
urgently needed to save the very forests that have the 
potential to be part of the climate change solution.
    I am very much aware that these issues are not without 
controversy and uncertainty, and I know the nation's land 
managers are faced with a daunting challenge, and know that 
they are dedicated to building a healthier future for our 
forests. So, they're going to face some important questions in 
the days ahead. How can be forests be managed so that they can 
withstand the ongoing and expected impact of a warming climate? 
What are the best tools for making sure that fish and wildlife 
adapt to a changing climate? What is the best way to manage 
forests for carbon sequestration while working to reduce 
emissions? These are difficult questions to answer given the 
daunting complexities and uncertainties that are involved, but 
I have faith that our witnesses are up to this challenge.
    In a few minutes, we are going to hear from Dr. Kit Batten, 
a science advisor of the Department of the Interior, and Tom 
Tidwell, the chief of the Forest Service at the Department of 
Agriculture. We welcome both of you this afternoon and are 
anxious to hear your testimony.
    I'm going to recognize the ranking minority of the 
subcommittee for any statement, and Senator Johnson, as well.
    I want to tell my colleagues that this will be perhaps a 
hectic afternoon. I may have to step out and take several calls 
in connection with some of the discussions going forward with 
respect to healthcare. Both of my colleagues, I know, have a 
great interest in this, as well, so my hope is, is that we will 
be able to work together and keep this going. At the very 
worst, we would have to take a short recess, but I hope that 
that won't be the case.
    So, I'd like to recognize Senator Barrasso, the ranking 
member of the subcommittee, for his statement. Senator Johnson 
and I have been involved in these issues together since our 
days in the other body, and he's got a great interest in this, 
as well. So, let's begin with Senator Barrasso's opening 
statement.
    [The prepared statement of Senator Bingaman follows:]
 Prepared Statement of Hon. Jeff Bingaman, U.S. Senator From New Mexico
    Mr. Chairman, thank you for holding this hearing, which addresses 
an important topic--how to manage national forests in response to 
climate change. There is no doubt that our Federal lands play a unique 
and essential role in our response to climate change, and that role 
demands unique responsibilities of our land managers and special 
considerations for policy-makers.
    The science is clear that climate change already is having 
significant impacts on our forests, and land managers across the county 
are faced with the difficult challenge of managing them in light of 
these impacts.
    To help address these problems, I recently introduced legislation 
to facilitate natural resource adaptation across the Federal land 
management agencies, States, and tribes.
    I believe that coordination and communication among the various 
land managers will be vital to ensuring that our forests and other 
public lands become more resilient to climate change.
    In my opinion, it is clear that land managers will need to use a 
variety of tools to successfully manage our forests in light of a 
warming climate. Adaptation and carbon sequestration are two of those 
tools.
    Our Federal land managers already consider the protection of stored 
carbon and the sequestration of additional carbon as an important part 
of their mission-and I think that is appropriate. But I am very 
skeptical about managing-much less marketing-Federal lands with a 
singular objective of sequestering carbon.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I want 
to thank you for scheduling this hearing today.
    Forest adaptation and climate change, as well as carbon 
sequestration, are extremely important issues, especially given 
the increasing risk of catastrophic wildfires and the 
continent-wide incidences of bark beetles that are killing our 
forests.
    Mr. Chairman, while we like to focus on all of the good 
things that are happening in our forests--and there is a lot--
we cannot ignore some of the not-so-good things that are 
happening, such as forest fires or the 300,000 acres of forest 
killed by insect and disease in the Intermountain West. 
Research has shown that, as carbon dioxide levels increase in 
the atmospheres, plants actually grow better. They become more 
efficient carbon sinks, and they provide the soil and moisture 
conditions which benefit the trees. Research also tells us that 
about half the carbon dioxide sequestered by a tree is stored 
in its wood and in its needles, and the other half is stored in 
the soil that the tree grows in. When trees are harvested and 
converted into lumber for housing, then carbon within them is 
sequestered for decades, if not centuries. The soil-bound 
carbon dioxide is slowly released over time.
    When a tree dies in the forest, the tree almost immediately 
begins to decompose and release carbon right at that point. 
Perhaps even more devastating is when those stands of dead 
trees burn. Most of the carbon stored within the soil is 
volatized and released into the atmosphere.
    Now, I know we're going to hear, a little bit later, 
mention from Ms. Oneil in her testimony, but it bears 
repeating, that between 2002 and 2006 wildfires in the United 
States emitted the equivalent of between 4 to 6 percent of all 
manmade emissions of carbon dioxide for the country for those 
same years. Wildfires in California from 2001 to 2007 released 
277 million tons of carbon dioxide from both the fire and the 
decay of dead trees. This is the equivalent of the emissions 
from half of the registered automobiles in California for an 
entire 7 years.
    So, we all know the importance, and we all love our public 
lands. We all want them to maintain a resiliency that allows 
them to respond to changing environmental conditions. Forests 
are not as fragile as we humans sometimes believe them to be. 
They have survived dramatic climatic changes in the past, and 
they will continue to do so in the future. They have survived 
dramatic events like volcanoes, floods, and fires; they also 
likely will adapt to a changing climate, if and when that 
occurs.
    The real question is how best to manage the lands to 
produce the resource values that we need and that we desire 
while adapting to changes in our forests and in our climate. 
Mr. Chairman, I think it's important that any carbon 
sequestration plan for our Federal forests consider the 
following:
    How much carbon is released as a result of fires, insect, 
and disease, and ultimately, the decomposition of dead trees? 
What is the total energy cradle-to-grave carbon cost of the 
various management plans in each forest type?
    Allowing forests to grow for 300 hundred years may be a 
great idea on the west side of Oregon, but, as Senator Udall 
and I are experiencing, we can't expect lodgepole pines to 
survive 150 years in the Intermountain West. Logging some or 
all of this material might be wise, in terms of carbon and the 
future. Is there a management strategy to remove material that 
might burn or rot, and turn that material into products that 
will store carbon while improving the health of the forest?
    Finally, how do we account for those fire and insect events 
that occur in the wilderness and other protected areas?
    So, we have to be able to answer questions like these as we 
look at ways to reduce our carbon footprint.
    Mr. Chairman, thanks for the time of the committee, and I 
look forward to hearing from our witnesses.
    Senator Wyden. Thank you, Senator Barrasso.
    Senator Johnson.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. I am pleased that as the committee 
continues to examine a range of climate change issues, that the 
Public Lands and Forest Subcommittee is examining the effects 
of changes in our climate and public forestlands.
    The clear evidence suggests that the worldwide accelerated 
release of greenhouse gas emissions is resulting in observable 
changes to regional climates. For the forestlands in the West, 
including my State, the Black Hills, these changes in climate 
could produce dramatic effects on forest health. Even modest 
changes in temperatures that result in milder winters and 
hotter and drier summers can create the conditions for insect 
epidemics, leaving in their wake millions of dead standing 
trees and increasing the risk of catastrophic wildfires.
    In the Black Hills and in large areas covering Wyoming and 
Colorado, hundreds of thousands of acres of lodgepole and 
ponderosa pine are infected by a mountain pine beetle epidemic. 
Although these epidemics historically come and go, the severity 
and depth of the current infestation is causing uncertainty and 
concern that permanent changes in temperature and moisture will 
further strain the forest health of the Intermountain West.
    In the near term, public land managers must develop 
strategies for combating insect infestations and forest land 
thinning projects to reduce the threat of catastrophic 
wildfire. While these acute issues must be tackled immediately, 
I hope that today's hearing produces a better understanding of 
how our public forestlands can be managed in a manner that 
adapts to climate changes while meeting the important regional 
and national purposes. Specifically, I am looking for insights 
and answers to how individual forest management plans 
incorporate climate change impacts into strategies for 
effective forest health stewardship, timber sale management, as 
well as recreation and public enjoyment.
    Again, thank you, Chairman Wyden and Ranking Member 
Barrasso, for holding this important hearing, and I look 
forward to hearing from the panel.
    Senator Wyden. Thank you, Senator Johnson. We look forward 
very much to working with you. I remember our efforts and 
discussions on timber payments and the counties, and it will be 
great to team up with you.
    We're also very glad to have Senator Risch on this 
subcommittee, as well. He has a great interest in these issues 
and, I think, is going to be a very good partner in these 
efforts, on the basis of our discussions.
    So, Senator Risch, welcome, and any statement you'd like to 
make.

      STATEMENT OF HON. JIM RISCH, U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you so much, Senator Wyden, for 
holding this important hearing.
    This is a subject that's particularly important to Idaho 
and to the Intermountain West. As you travel across the State 
of Idaho today, the landscape that's been described, 
particularly in the lodgepole pine habitats, is very troubling.
    When I was in forestry school, I visited a number of these 
places, and it's saddening--it's very saddening to go back, at 
the present time, and see what's happened to the condition of 
those. A lot of them are just waiting for a match to strike, 
and it's going to be very catastrophic, particularly in the 
central parts of Idaho, where we have large stands of lodgepole 
pine, similar to the stands that are in the Yellowstone Park. A 
fire there will be just as catastrophic as it was in the 
Yellowstone ecosystem.
    We all know that we're going through these cycles of drying 
conditions and wet conditions. Last year in Idaho, we had a 
particularly wet winter, followed by a wet spring, and things 
were actually pretty good in the ecosystem. But, for some years 
prior to that, we had drought conditions, and those drought 
conditions, of course, weaken the tree. The tree is not able to 
pitch out the attacks from the pine beetles. As a result of 
that, your get massive stands of these standing matches, if you 
would, ready to burn.
    So, it's important that we have this hearing, and I'm very 
interested to hear what the witnesses have to say. With that, 
Congress hopefully will be able to create some unique ways of 
addressing the situation.
    Thank you, again, Mr. Chairman.
    Senator Wyden. Thank you, Senator Risch.
    All right, let's welcome Ms. Kit Batten and Mr. Tom 
Tidwell. We will make your prepared statements part of their 
record--part of the record in its entirety. I know there is 
always almost a compulsion to kind of read statements, and if 
you could take a few minutes and summarize your principal 
views, we'll make your prepared statements a part of the record 
in their entirety.
    Dr. Batten, welcome.

STATEMENT OF KIT BATTEN, PH.D., SCIENCE ADVISOR, OFFICE OF THE 
          DEPUTY SECRETARY, DEPARTMENT OF THE INTERIOR

    Ms. Batten. Thank you so much, Mr. Chairman, members of the 
subcommittee. Thank you for the opportunity to appear before 
you today to discuss the impacts of climate change on the 
ecosystems managed at the Department of the Interior, including 
forests and woodlands. I am Dr. Kit Batten, science advisor to 
the Deputy Secretary of the Interior.
    My written testimony today highlights the impacts of 
climate change on these lands, and describes how sustainable 
public land management can help forests and other ecosystems 
adapt to and mitigate climate change. I would like to summarize 
the main points for you, and I ask that my complete statement, 
as you just said, be entered into the record.
    Senator Wyden. It will be done, without----
    Ms. Batten. Thank----
    Senator Wyden [continuing]. Objection.
    Ms. Batten [continuing]. You. Thank you.
    In the Department of the Interior, the U.S. Fish and 
Wildlife Service, the National Park Service, the Bureau of Land 
Management, the Bureau of Indian Affairs all oversee the 
management of forestland in the refuges, parks, public, and 
tribal lands under their jurisdictions.
    A recent report by the U.S. Climate Change Science Program 
and the Subcommittee on Global Change Research predicts that 
forestlands will respond in different ways to changes in 
temperature, precipitation, and other factors related to 
climate change. With warmer temperatures, tree species may 
respond by migrating both northward and to higher altitudes. 
Thus, species with restricted ranges may be most vulnerable, 
while species with broader climate tolerances may be able to 
adapt more easily. Species composition of forests may also 
change dramatically. Climate change may favor drought-resistant 
species, such as juniper is some areas, which are expected to 
migrate into higher-elevation forests, and could compete with 
other forest types for moisture.
    Southwest woodlands are at a high risk of conversion to 
desert shrub and grassland. Wildlife and plant communities may 
migrate as temperature, habitat, and water resources change. 
Climate change may result in an increased establishment of 
invasive species, such as tamarisk, that not only pose a risk 
of displacing desirable native plant species, but can also 
consume water in already dry areas, leading to increased 
competition for this important resource.
    Finally, forest seed production could be impacted due to 
its cyclical nature and response to temperature and 
precipitation. Seedling establishment, survival, growth, and 
vigor are all critically dependent on available soil moisture, 
and would be reduced during periods of increased drought.
    Insects, pathogens, invasive species, drought, and 
increased wildfire activity are all risks for forests and 
woodlands as a result of climate change. In fact, the 
Department's land and wildlife managers are already confronting 
many of these impacts.
    In the interior forests of the Rocky Mountain States, a 
combination of warmer winters over the past decade, drought 
stress, and a prevalence of overmature, overstocked, even-aged, 
single-species forests have created a perfect condition for 
proliferation of bark beetles and increased vulnerability for 
fire.
    Approximately 800,000 acres of BLM-managed forestlands in 
Colorado, Wyoming, Montana, and Idaho are suffering from 
mountain pine beetle attack, and are at risk of widespread 
mortality. Similar effects are seen in Rocky Mountain, 
Yellowstone, and other western national parks.
    Pinyon pine forests have experienced widespread both 
mortality in Colorado, Utah, New Mexico, and Arizona.
    Climate change adaptation strategies can enhance the 
ability of our ecosystems, such as forests and woodlands, to 
adapt to or withstand current and projected climate change 
impacts. Departmental bureaus are working with each other and 
our external partners to adapt our forest and woodland 
management programs to anticipate and adapt to the effects of 
climate change and mitigate the potential impacts across our 
lands.
    Key strategies in the Department include reducing 
stressors, encouraging diversity, such as through fire 
management and control of invasive plants, forests pests, and 
pathogens. To assure that our adaptation strategies are 
grounded in sound science, Secretary Salazar has created a new 
climate change strategy for the Department of the Interior 
through Secretarial Order Number 3289, which he signed on 
September 14 of this year, and it's entitled, ``Addressing the 
Impacts of Climate Change on America's Water, Land, and Other 
Natural and Cultural Resources.'' This order establishes a new 
departmentwide strategy to address climate change, with an 
emphasis on climate change science, adaptation, and mitigation, 
and it recognizes the value of relying on partnerships with 
other agencies, States, and adjacent landowners, to respond to 
climate change.
    Forestlands also play an important role in climate change 
mitigation by sequestering carbon dioxide from the atmosphere 
through photosynthesis and storing this carbon in tree--in the 
trees biomass, soils, and wood products. The use of biomass, 
such as waste material from timber harvests, as a substitute 
for fossil fuels, which emit more greenhouse gas emissions for 
generating power, is expected to increase as bioenergy 
facilities come online.
    The Department is actively engaged with partners who are 
interested in acquisition and restoration projects resulting in 
carbon sequestration. For example, more than 22 million trees 
and 40,000 acres of restored habitat have been added to the 
national wildlife refuge system, and such partnerships have 
resulted in the restoration of more than 80,000 acres of native 
habitats, benefiting fish, wildlife, and migratory bird 
populations in bottomland hardwood forests in the Southeast.
    In the Sacramento Delta of California, the USGS and its 
partners are developing a process to farm carbon by restoring 
wetland vegetation and rehydrating and restoring organic peat 
soils. This not only sequesters carbon, but provides wildlife 
habitat, and actually increases the soil elevation in restored 
areas, decreasing the stress across delta levees. I actually 
have a short factsheet on that, that I'd also like to submit 
for the record.
    Senator Wyden. Without objection, it's ordered.
    Ms. Batten. Thank you.
    The Fish and Wildlife Service is also exploring new habitat 
restoration techniques that could enhance carbon sequestration 
in the Florida Everglades and across the expansive coast and 
wetlands of the Carolinas.
    Finally, the Department, through the U.S. Geological 
Survey, is developing a methodology to measure and assess 
biological carbon sequestration and greenhouse gas fluxes, and 
will use this methodology to conduct a national assessment of 
ecosystem carbon storage and greenhouse gas fluxes. This 
methodology will be released in 2010.
    Restoring the health and maintaining the resiliency of our 
nation's public lands, including forests and woodlands, is 
crucial to ameliorating and adapting to the effects of climate 
change. Much has been learned as this effort has evolved. Most 
importantly, the Department has recognized that landscape-scale 
problems require landscape-scale responses. The impacts of 
climate change do not distinguish between lands managed by 
different Federal agencies.
    The development of successful science-based adaptation and 
mitigation strategies is critical to the health of these 
resources and to the human communities and fish and wildlife 
that are dependent on them.
    Again, thank you for the opportunity to testify today. I am 
happy to answer any questions that you may have.
    [The prepared statement of Ms. Batten follows:]
Prepared Statement of Kit Batten, Science Advisor, Office of the Deputy 
                 Secretary, Department of the Interior
                              introduction
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the impacts of 
climate change on the ecosystems managed by the Department of the 
Interior, including forests and woodlands, wetlands, and many others. I 
am Dr. Kit Batten, Science Advisor to the Deputy Secretary of the 
Interior. My testimony today highlights the impacts of climate change 
on these lands and describes how sustainable public land management can 
help forests and other ecosystems adapt to and mitigate climate change.
    The Department manages over 500 million acres of land--one-fifth of 
the nation's land mass--and these lands include many types of 
ecosystems, from coastal estuaries to riparian corridors along our 
nation's rivers to prairie wetlands to alpine forests. The U.S. Fish 
and Wildlife Service, the National Park Service, the Bureau of Land 
Management, and the Bureau of Indian Affairs all oversee the management 
of forest land in the refuges, parks, public and tribal lands under 
their jurisdictions. Forests and other lands and waters managed by the 
Department's bureaus provide critical ecosystem services, such as 
wildlife habitat for a variety of species, clean air and water, 
biodiversity, pollinator services, cultural heritage resources, 
recreational opportunities, forest products, and mineral and energy 
resources.
              potential climate change impacts to forests
    Perhaps no resource management issue is as complex and challenging 
as climate change. Climate change affects biota, water, ecosystems, 
cultures, and economies. The Fourth Assessment Report of the 
Intergovernmental Panel on Climate Change (IPCC) notes that climate 
change is expected to affect precipitation patterns, vegetation types 
and distribution, wildlife habitat and behavior, wildfire frequency and 
risk, sea levels, and the spread of pests and diseases. These, in turn, 
will affect a broad range of human activities.
    With specific regard to forest and woodland plant species, a recent 
report by the U. S. Climate Change Science Program and the Subcommittee 
on Global Change Research predicts that these lands will respond in 
different ways to changes in temperature, precipitation, and other 
factors related to climate change.\1\ With warmer temperatures, tree 
species may respond by migrating both northward and to higher 
altitudes. Species with restricted ranges may be most vulnerable, while 
species with broader climate tolerances may be able to adapt more 
easily. Alpine forests are at risk of loss because there will be no 
place for them to migrate. However, forests in the Pacific Northwest, 
west of the Cascades, may benefit by increased growth if both 
temperature and precipitation increase as forecasted in some climate 
change models. Interior Northwest forests may suffer as warmer winters 
decrease the retention of snowpack.
---------------------------------------------------------------------------
    \1\ Climate Change Science Program, The effects of climate change 
on agriculture, land resources, water resources, and biodiversity in 
the United States, Backlund, et al. (2008).
---------------------------------------------------------------------------
    Species composition of forests also may change dramatically. 
Climate change may favor drought-resistant species such as juniper in 
some areas. Juniper woodlands are expected to migrate into higher 
elevation forests and could compete with other forest types for 
moisture.
    In addition, changes in biodiversity are possible with changes in 
species mix and habitat. Southwest woodlands are at high risk of 
conversion to desert shrub and grassland. Wildlife and plant 
communities may migrate as temperature, habitat, and water resources 
change. Climate change may result in increased establishment of 
invasive species such as tamarisk that not only pose a risk of 
displacing native plant species but can also consume water in already 
dry areas, leading to increased competition for this limited resource.
    Finally, forest seed production could be impacted due to its 
cyclical nature and response to temperature and precipitation. Seedling 
establishment, survival, growth, and vigor are all critically dependent 
on available soil moisture, and would be reduced during periods of 
increased drought. Insects, pathogens, invasive species, drought, and 
increased wildfire activity are all risks for forests and woodlands as 
a result of climate change.
                       current landscape changes
    In fact, the Department's land and wildlife managers are already 
confronting the impacts of climate change on the lands they manage. 
Reduced snowpack combined with earlier melting and runoff--particularly 
in the Northwest and Mountain-West--is leading to decreased recharge of 
groundwater systems, increasing stress on public water systems and 
altering river flows, temperature, depth, and other characteristics of 
spawning environments for fish.\2\ Our Arctic parks, refuges, and 
public lands are seeing some of the earliest impacts of climate 
change--for example, melting sea ice threatens marine mammals as well 
as coastal communities, and contributes to a warming feedback loop--
melting ice reduces albedo, which only leads to greater melting of sea 
ice. Thawing permafrost not only destabilizes buildings, roads, and 
facilities and disrupts the structural basis of large regions of 
interior lands, but also leads to even greater amounts of greenhouse 
gas emissions into the atmosphere, such as carbon dioxide and methane, 
which only reinforce the warming cycle.
---------------------------------------------------------------------------
    \2\ Stonestrom, D.A. and J.R. Harrill, Ground-water recharge in the 
arid and semiarid southwestern United States-climatic and geologic 
framework. U.S. Geological Survey Professional Paper, 1703-A: 27 
(2007); IPCC Fourth Assessment Working Group II: Impacts, Adaptation 
and Vulnerability (2007); Barnett, T. P., and D. W. Pierce (2008), When 
will Lake Mead go dry?, Water Resour. Res., 44, (2008).
---------------------------------------------------------------------------
    Vegetation in some places has converted to more drought-hardy 
species\3\ and, in some instances, species numbers have been reduced or 
lost.\4\ Our scientists are also noting changes in abundance and 
distribution of species, including changes in migration patterns; the 
expansion of pests and invasive species; increased vulnerability to 
wildfire and erosion; and overall changes in carrying capacity and the 
ability of ecosystems to support different species populations.\5\ Many 
of the iconic wildlife species that the Department manages from the 
Arctic to the Everglades will see their habitat and ranges affected by 
global climate change.
---------------------------------------------------------------------------
    \3\ Backlund, Peter, et.al. (2008).
    \4\ IPCC Fourth Assessment WG II (2007).
    \5\ IPCC Fourth Assessment WG II (2007); Parmesan (2006) Ecological 
and Evolutionary Responses to Recent Climate Change, Annu. Rev. Ecolo. 
Evol. Syst. 37: 637-69.
---------------------------------------------------------------------------
    In the interior forests of the Rocky Mountain States, a combination 
of warmer winters over the past decade, drought stress, and a 
prevalence of over-mature, over-stocked, even-aged single species 
forests have created perfect conditions for a proliferation of bark 
beetles. The stressed condition of the forests makes them more 
susceptible to fatal insect attack.\6\ Approximately 800,000 acres of 
BLM-managed forestlands in Colorado, Wyoming, Montana, and Idaho are 
suffering from mountain pine beetle attack and are at risk of 
widespread mortality. The effects of bark beetle infestation can also 
be seen in forests in Rocky Mountain, Yellowstone, and other western 
national parks. Similarly, pinyon pine forests have experienced 
widespread mortality from bark beetle attack in Colorado, Utah, New 
Mexico, and Arizona. As noted in the previous paragraph, forestlands 
suffering from these stresses--especially in combination with drought--
are also more susceptible to wildfire, increasing the threat of 
catastrophic fire in the wildland-urban interface areas across the 
West.
---------------------------------------------------------------------------
    \6\ Bentz, B., J. Logan, J. MacMahon, C. Allen, et al. 2009. Bark 
beetle outbreaks in Western North America: Causes and consequences. 
Chicago, IL: University of Utah Press. 42 pp. Also Logan J.A.; Powell 
J.A. 2001. Ghost Forests, Global Warming, and the Mountain Pine Beetle 
(Coleoptera: Scolytidea). American Entomologist. 160-172; Kurz, W.A. et 
al. Mountain Pine Beetle and Forest Carbon Feedback to Climate Change; 
Campbell, Elizabeth M. 2007. Climate change, mountain pine beetle, and 
the decline of whitebark pine, a keystone species of high-elevation 
ecosystems in British Columbia, Canada. Ecological Society of America 
meeting, August 2007, San Jose, CA.
---------------------------------------------------------------------------
                  adaptation and mitigation strategies
    Climate change adaptation strategies can enhance the ability of 
ecosystems, such as forests and woodlands, to withstand, or adapt to, 
current and projected climate change impacts. For example, a healthy 
forest--a species-diverse, multi-aged forest, with proper stocking 
densities--is resilient in response to environmental stresses, better 
able to resist insect attacks and diseases, and less vulnerable to 
catastrophic wildfire. Restoring forest health on our public lands 
through active management is one way to promote adaptation to climate 
change.
    The Department of the Interior is on the front lines of protecting 
our country's water, land, marine, fish, wildlife, tribal, and cultural 
heritage resources from the effects of climate change we are 
witnessing--from the Arctic to the Everglades. The realities of climate 
change will require the Department to change how we manage the 
resources we oversee. To assure that our climate change adaptation 
strategies are grounded in sound science, Secretary Salazar has created 
a new climate change strategy for the Department through Secretarial 
Order #3289 (September 14, 2009): ``Addressing the Impacts of Climate 
Change on America's Water, Land and Other Natural and Cultural 
Resources.'' This Order establishes a new Department-wide strategy to 
address climate change, with an emphasis on climate change science, 
adaptation, and mitigation.
    This Order also recognizes that the Department must rely on 
important partnerships to respond to climate change, including the 
White House Council on Environmental Quality, the White House Office of 
Energy and Climate Change, the White House Office of Science and 
Technology Policy, the National Science and Technology Council, the 
U.S. Global Change Research Program, the Department of Agriculture, the 
Department of Commerce, the Department of Defense, the Environmental 
Protection Agency, the National Aeronautics and Space Administration, 
Tribal governments, State and local governments, universities, non-
governmental organizations, and private landowners.
    Specifically, the Order establishes the following:

  <bullet> DOI Climate Change Response Council: Composed of the 
        Secretary (Chair), Deputy Secretary (Vice-Chair), Counselor to 
        the Secretary (Vice-Chair), Assistant Secretaries, Bureau 
        Directors and the Solicitor, the Council will help coordinate 
        activities within and among the Department's agencies and 
        bureaus to develop and implement an integrated strategy for 
        responding to climate change impacts involving the resources 
        managed by the Department.
  <bullet> Regional Climate Change Response Centers: Eight Regional 
        Climate Change Response Centers will deliver climate change 
        impact science, modeling, and forecasting to DOI natural and 
        cultural resource managers within a region; synthesize, 
        integrate, and communicate climate change impact data gathered 
        by the Department and external partners; develop management-
        relevant adaptation tools that the Department of the Interior's 
        resource managers and its partners can use when managing 
        resources in the face of a changing climate; and help to 
        educate the public about climate change impacts within the 
        region.
  <bullet> Landscape Conservation Cooperatives: Interior bureaus and 
        agencies, guided by the Climate Response Council, are working 
        to stimulate the development of a network of collaborative 
        ``Landscape Conservation Cooperatives.'' These cooperatives 
        will work interactively with the relevant DOI Regional Climate 
        Change Response Centers and help coordinate landscape-scale 
        adaptation efforts with federal, Tribal, state, and local 
        governments, and private landowner partners.
  <bullet> DOI Carbon Storage Project: DOI is working to develop 
        measurement and verification methodologies and carry out 
        assessments of carbon storage in geologic formations 
        (geological carbon sequestration) and in plants and soils 
        (biological sequestration) in a manner consistent with the 
        Department's responsibility to provide comprehensive, long-term 
        stewardship of its land, water, marine, fish and wildlife, and 
        cultural heritage resources.
  <bullet> DOI Carbon Footprint Project: DOI is developing a unified 
        greenhouse gas emission reduction program, including setting a 
        baseline and reduction goal for the Department's greenhouse gas 
        emissions and energy use.

    As an example of what this will look like on the ground, the BLM is 
conducting a series of eco-regional assessments to improve our 
understanding of the existing condition of BLM-managed landscapes, 
identify potential impacts from climate change, and develop and 
implement strategies and conduct on-the-ground restoration projects on 
the public lands to help native plant (including forest) and animal 
communities adapt to climate change. These assessments will work with 
and contribute data to the Regional Climate Change Response Centers and 
be used in conjunction with climate change models to aid BLM and other 
managers within Landscape Conservation Cooperatives in developing 
regional adaptation strategies that promote sustainable land 
stewardship across the landscape.
    Strategies to protect forest ecosystems managed by DOI focus 
primarily on increasing the resilience and the natural capacity of 
these forests to adapt to new conditions. Key strategies are to reduce 
stressors and encourage diversity, such as through fire management and 
control of invasive plants, forest pests, and pathogens. Successful 
adaptation efforts must involve cooperation and collaboration with 
adjacent lands and partners.
    The same sustainable management activities used on our public lands 
to restore forest health and help forests adapt to climate change 
impacts can also contribute to minimizing GHG emissions. Forestlands 
play an important role in climate change mitigation by sequestering 
carbon dioxide from the atmosphere through photosynthesis and then 
storing this carbon in tree biomass, soils, and wood products. Forests 
can also provide biomass for energy production, which can supplant the 
use of fossil fuels that emit greater amounts of GHG. The use of 
biomass (e.g., waste material from timber harvest) as a substitute for 
fossil fuels for generating power is expected to increase as bioenergy 
facilities come on-line.
                    biological carbon sequestration
    Forests, range lands, wetlands, and other landscapes play a vital 
role in the carbon cycle. These natural systems take in and store 
carbon dioxide in plants and soils. Secretarial Order 3289 established 
the DOI Carbon Storage Project through which the Department is 
developing methodologies for both geological and biological carbon 
storage, and is working with states, Tribes, localities, private 
landowners, and other stakeholders to execute on-the-ground restoration 
projects that sequester carbon, consistent with our existing 
stewardship responsibilities.
    The Department is actively engaged with partners, including the 
Trust for Public Land and the Conservation Fund; energy and other 
industrial companies, and the Carbon Fund, who are interested in 
acquisition and restoration projects resulting in carbon sequestration. 
Our partners secure lands and sponsor habitat restoration through 
carbon sequestration value in the form of credits, as calculated 
through methods developed by Environmental Synergy, Inc. and the 
Conservation Fund. These partnerships have so far added 40,000 acres of 
restored habitat to the National Wildlife Refuge System and restored 
more than 80,000 acres of native habitats benefiting, fish, wildlife, 
and migratory bird populations in bottomland hardwood forests. More 
than 22 million trees have been planted through this partnership.
    In the Sacramento Delta of California, USGS and partners are 
developing a process to ``farm carbon'' by restoring wetland vegetation 
and re-hydrating and restoring organic peat soils. Carbon farming works 
through the sequestration of carbon in native plants such as tules and 
cattails, which in turn decompose very slowly and create new peat soil. 
This effort is not only sequestering carbon, but is also providing 
wildlife habitat and increasing the elevation of the soil surface in 
restored areas, decreasing the stress across Delta levees. Additional 
scientific work is necessary to learn how to maximize growth rates and 
minimize decomposition rates, verify greenhouse gas benefits over 
several years, and minimize any potential adverse environmental 
impacts, such as methane and nitrous oxide emissions.
    In addition, the Fish and Wildlife Service is exploring new habitat 
restoration techniques that could encourage carbon sequestration in the 
Florida Everglades and across the expansive pocosin wetlands of the 
Carolinas. A project at Pocosin Lakes National Wildlife refuge involves 
verifying carbon sequestration benefits of the pocosin hydrology 
restoration work that began in the 1900s.
    In accordance with responsibilities mandated in the Energy 
Independence and Security Act of 2007, the Department (through the U.S. 
Geological Survey) is developing a methodology to measure and assess 
biological carbon sequestration and greenhouse gas fluxes, and will use 
this methodology to conduct a national assessment of ecosystem carbon 
storage and greenhouse gas fluxes. This methodology will be released in 
2010.
    Scientists, using geospatial data, remote sensing applications, and 
ecosystem modeling, have developed research and working models to 
describe storage and fluxes of carbon in relationship to climate change 
and land use for large-scale landscapes. These efforts will be expanded 
into a national framework that is adaptive, incorporating new 
information about carbon cycling and sequestration as it becomes 
available. Best management practices for carbon sequestration in saline 
and fresh-water wetlands, soil and sediments, permafrost areas, 
hardwood and coniferous forests, grasslands and rangelands are needed 
for use by public, Tribal, and private land managers.
                       opportunities & challenges
    The Department is working to increase its ability to monitor, 
assess, forecast, and respond to landscape changes over time, 
implementing programs to address climate change on a broad scale. 
Restoring the health and maintaining the resiliency of our nation's 
public lands (including forest and woodland ecosystems) is crucial to 
ameliorating and adapting to the effects of climate change. Much has 
been learned as this effort has evolved. Most importantly, the 
Department has recognized that landscape-scale problems require 
landscape-scale responses. The impacts of climate change do not 
distinguish between lands managed by different federal agencies.
    The various bureaus at the Department of the Interior are working 
with each other and external partners to adapt our forest and woodland 
management programs to anticipate and adapt to the effects of climate 
change and mitigate the potential impacts across all lands. As 
mentioned earlier, coordination is one of the keys to our success. 
Secretarial Order #3289 establishes a new Departmental strategy to 
promote Department-wide coordination as well as coordination with 
outside partners on climate change science and resource management 
strategies for understanding and responding to climate change impacts.
                               conclusion
    Climate change is impacting all of our ecosystems, including our 
forests and woodlands. The development of successful science-based 
adaptation and mitigation strategies is critical to the health of these 
resources and the human communities, and fish and wildlife that are 
dependent on them.
    Again, thank you for the opportunity to testify today. I am happy 
to answer any questions that you might have.

    Senator Wyden. Doctor, thank you. Very helpful.
    Mr. Tidwell, welcome.

STATEMENT OF TOM TIDWELL, CHIEF, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Tidwell. Thank you. Mr. Chairman, members of the 
subcommittee, I want to thank you for inviting me here today to 
discuss how we need to be managing the national forests and 
grasslands in response to climate change.
    Mr. Chairman, I want to thank you for your opening remarks. 
I appreciate your understanding of these issues, and I can tell 
you that I share those concerns.
    You know, climate change is altering our landscapes, 
altering the national forests and the grasslands. That change 
will likely accelerate in the future.
    Climate change will also have a variety of effects across 
different parts of the country. But, what will--what's probably 
more problematic is that the level of disturbances--these level 
of disturbances are going to increase, and their frequency will 
increase. When I talk about ``disturbances,'' I'm talking about 
wildfire, about floods, insect and disease outbreaks. Our 
response to these changes is going to be increase our--increase 
our focus on restoration.
    The goal of the Forest Service is to restore the forest and 
grassland health so that we have healthy, functioning 
ecosystems, so they can withstand the stressors from climate 
change and they can continue to deliver all of the ecosystem 
services, all of the benefits that we need and want from our 
national forests, but especially water. With the increase in 
disturbances, watershed management is going to only increase in 
its importance, and it's essential that, as we go about 
designing our restoration work, that we focus on the benefits 
to watershed health.
    Now, we cannot do this alone. You know, these changes are 
occurring on a landscape scale, and we must work together with 
our partners across all jurisdictions to restore healthy, 
functioning ecosystems. We need to work on all the landscapes 
that we share.
    Secretary Vilsack has helped in this regard by giving us 
direction that we need to take a more all-lands approach. Now, 
this will require additional collaboration, but it's essential 
that we work with our Federal--the other Federal agencies, the 
States, the local communities, tribal, and private landowners 
to be able to take on the restoration that needs to occur at a 
landscape level.
    Last year, the Forest Service developed a strategic 
framework for responding to climate change to help us set 
priorities. This framework has seven goals: science and 
management, adaptation, mitigation, policy, sustainable 
operations, education, and alliances. Now, these goals will not 
be realized immediately, but we already have made a good start.
    Now, before I close, I'd want to just say a few words about 
science, adaptation, and mitigation. Forest Service researchers 
have been in the forefront of climate change science. Our 
challenge now is to transfer that knowledge to the land 
managers so we can make a difference on the ground. We now have 
developed tools that actually help our land managers and help 
the public to understand the carbon consequences of various 
project designs.
    On the national forest system, we're now designing projects 
to help us--systems adapt to climate change. Our restoration 
efforts can make these systems more resilient, more resistant 
to the climate changes that we are seeing. For example, with an 
overgrown stand of ponderosa pine, we can make it more 
resistant to climate-induced drought and wildfire. We can also 
introduce more diversity into the species mix, for that will 
help these systems adapt. We also need to look at expanding 
restoration of wetlands, of flood plains, to reduce the effects 
of floods, but also to prolong seasonal water flows. Now, 
mitigation is another part of that strategy.
    Now, carbon likely will not be the primary management 
objective for the national forests, but it will be one of the 
ecosystem services, one of the benefits that we will manage for 
and we will factor into our decisions, and we can tailor our 
restoration treatments to increase carbon storage over the long 
term.
    Now, net carbon uptake by our terrestrial systems in the 
United States, coupled with wood products and landfills, 
currently offsets about 12 percent of our nation's greenhouse 
gas emissions. Now, our goal is to hold that steady, and 
hopefully be able to increase that.
    Now, whether we're talking about the life cycle or the 
effects of climate, we need to understand that, even with the 
level of science that we have today, there is much that we need 
to learn. Now, we're going to be--it's going to be necessary 
for us to be flexible and adaptive in our management. You know, 
the value and the importance of the national forests are just 
going to increase, and especially provide us the opportunities 
to help address the effects of climate change.
    This concludes my opening remarks. Thank you again for the 
opportunity, and I look forward to answering your questions.
    [The prepared statement of Mr. Tidwell follows:]
       Prepared Statement of Tom Tidwell, Chief, Forest Service, 
                       Department of Agriculture
    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me today to discuss the important role National Forests and 
Grasslands play in addressing climate change. As you may know 
observations show that climate change is already altering our Nation's 
forests in significant ways and those alterations are very likely to 
accelerate in the future, in some cases dramatically\1\. These 
alterations present significant challenges to sustainable management of 
these forests. Decisions being made today by policymakers and resource 
managers will have implications through the next century.
---------------------------------------------------------------------------
    \1\ CCSP. May 2008. Synthesis and Assessment Product 4.3 (SAP 4.3): 
The Effects of Climate Change on Agriculture, Land Resources, Water 
Resources, and Biodiversity in the United States, P. Backlund, A. 
Janetos, and D. Schimel, lead authors. A report by the U.S. Climate 
Change Science Program (CCSP). Abstract.
---------------------------------------------------------------------------
    Secretary Vilsack is asking the Forest Service and our sister 
agency, the Natural Resources Conservation Service (NRCS), to adopt an 
``all-lands approach'' in our restoration efforts. Our approach takes 
actions across large landscapes so that our actions will make a 
substantive difference. It also, will include close collaboration on 
our part with Federal, State, local, tribal, and private landowners, 
land managers, and other stakeholders.
                  climate change--managing uncertainty
    In the uncertain environment of climate change, risk management 
will become critical. This is managing ecosystems for resiliency to 
prepare for uncertain future outcomes. I have spoken many times in the 
past about our desire to restore the health of the nation's forests. 
When we use the term restoration, we do not mean returning a stand or 
forest to a previous condition but rather bringing back some of its 
previously lost ecosystem functions or returning its ability to 
withstand otherwise mild disturbance events. Our approach is to make 
forests and grasslands more resilient to disturbances under a range of 
future conditions.
    To help the land management professionals deal with this uncertain 
environment, the Forest Service developed a Strategic Framework for 
Responding to Climate Change to guide our actions in addressing climate 
change. The Framework envisions a future where ecosystem services are 
sustained and forests and grasslands are adapting successfully to a 
changing climate and our management actions are contributing to 
mitigating impacts of climate change. The Strategic Framework 
identifies seven key goals:

  <bullet> Science--Advance our understanding of climate change and its 
        impacts and develop effective ways to improve science delivery 
        to managers.
  <bullet> Adaptation--Enhance the capacity of forests and grasslands 
        to adjust to the impacts of climate change.
  <bullet> Mitigation--Promote the management of forests and grasslands 
        to reduce the build-up of heat-trapping gases in the 
        atmosphere.
  <bullet> Policy--Integrate climate change considerations as 
        appropriate into Forest Service policies, program guidance, and 
        communications.
  <bullet> Sustainable Operations--Reduce the environmental footprint 
        of our operations and facilities.
  <bullet> Education--Advance awareness and understanding of climate 
        change implications among Forest Service employees and the 
        public.
  <bullet> Alliances--Establish, enhance, and retain strong alliances 
        and partnerships.

    These goals have helped us organize our thinking about climate. 
Forest Service goal implementation teams are recommending key actions 
that the Agency can take for the short-term and to position itself for 
the long-term. I recognize these goals will not be realized 
immediately, but we have already done much. The Science, Adaptation, 
and Mitigation goals are most germane to today's topic, so I will focus 
my testimony there.
                        current state of science
    Having science that advances our understanding of the 
environmental, economic, and social implications of how climate change 
affects forests and grasslands in the future is essential for managers 
and policy officials to make informed decisions. The Forest Service 
already has wide breadth of experience with managing and responding to 
weather extremes and natural catastrophes. The scientific community has 
generated an even greater abundance of knowledge and produced an 
extensive literature on the subject. These two bodies of knowledge, 
that of managers' and of scientists', is being transformed into best 
management practices, land management tools, and information. In 
addition, we are communicating through various means to citizens the 
effect of climate change and its impacts on ecosystems so they will be 
better prepared to participate in decisions and actions affecting their 
National Forests and Grasslands.
    The Science & Management goal will be forwarded by Forest Service 
Research & Development. As you may be aware, the Forest Service has 
amassed over two decades of focused climate change research, three 
decades of air pollution research, and a century of experience in 
scientific assessments and research that provides a firm scientific 
foundation for addressing the challenges of managing these ecosystems 
relative to climate change.
    I need to stress again, however, that we are a long way from 
knowing all we need to know about the impacts of climate change on 
forests and grasslands. In some areas of study we have significant 
science gaps that need to be addressed. Climate models lack the ability 
to provide projections at the detailed scale that is more useful to 
land managers and local and regional planners. To address this gap, our 
scientists are working with the Department of Commerce's National 
Oceanic and Atmospheric Administration and USGS to improve these 
models. Our scientists are also looking for better ways of forecasting 
how terrestrial ecosystems will change in response to a changing 
climate and how the changes will affect animals and plants that depend 
on these ecosystems. The Strategic Framework recognizes these gaps and 
I want to assure you that the Forest Service is working with USDA and 
other Federal agencies and partners to address these and other issues.
                  adaptation and carbon sequestration
    I want to now switch my attention to how we are beginning to adapt 
our National Forests and Grasslands to a changing climate. During my 
many years with the Forest Service, I have come to realize that 
effectively accomplishing our mission will require us as land managers 
to anticipate and adapt to the profound environmental stresses of 
climate change. These systems must be capable of delivering the 
ecosystem goods and services that this country needs, such as pure, 
clean water; habitat for wildlife and fish; opportunities for outdoor 
recreation; wood products; and energy. These systems can create local 
economic opportunities to support local communities. I want to assure 
you that we at the Forest Service are committed to success in this 
enterprise.
    Many of the same management techniques used to restore forest 
health can be used to help forests adapt to climate change impacts. 
Forest Service land management professionals know they will need to be 
vigilant, strategic and flexible in using new information to 
accommodate changing conditions because the scope of climate change and 
its impacts on ecosystems are difficult to predict. In addition, our 
management decision processes will need to include ways of dealing with 
risks and uncertainties introduced or made worse by climate change. In 
some cases, failing to take management actions will result in 
significant disruptions to ecosystems, so we must maintain as many 
options as possible, both now and in the future, for handling 
unexpected events and conditions.\2\
---------------------------------------------------------------------------
    \2\ CCSP. 2008: Preliminary review of adaptation options for 
climate-sensitive ecosystems and resources. A Report by the U.S. 
Climate Change Science Program and the Subcommittee on Global Change 
Research. [Julius, S.H., J.M. West (eds.), J.S. Baron, L.A. Joyce, P. 
Kareiva, B.D. Keller, M.A. Palmer, C.H. Peterson, and J.M. Scott 
(Authors)]. U.S. Environmental Protection Agency, Washington, DC, USA, 
873 pp. http://www.climatescience.gov/Library/sap/sap4-4/final-report/
#finalreport
      Scott, D. and C. Lemieux. 2005. Climate change and protected area 
policy and planning in Canada. The Forestry Chronicle 81(5):696-703.
---------------------------------------------------------------------------
    In addition, we are designing a better science-based adaptive 
management approach to, promote learning through doing, monitoring, and 
modifying. This approach involves actively making decisions and 
monitoring the results of those decisions to improve our understanding 
about the complex systems we manage. Some management actions may need 
to be expanded, such as reforestation with a more diverse species mix 
that may be better adapted to future climate projections.
    Our land managers are also learning from their close working 
relations with our scientists. The West Wide Climate Initiative (WWCI), 
a partnership among scientists and managers at the three western Forest 
Service Research Stations and National Forests, is developing decision-
support tools to help managers address climate change and adaptation in 
national forests and national park units representing major regions of 
the West. These case studies are on the Olympic National Forest and 
Olympic National Park, the Tahoe National Forest, the Inyo National 
Forest and Devils Postpile National Monument, and Shoshone National 
Forest. With these pilot projects the Forest Service is analyzing 
projections of future vegetation and developing specific adaptation 
strategies to promote resilience of national forest resources to 
climate change.
    Another management responsibility is mitigating the effects of 
climate change. As we all know, to significantly reduce our greenhouse 
gas emissions, the United States will need to implement a variety of 
mitigation strategies. These strategies include storing more carbon in 
forests and wood products implementing greenhouse gas capture and 
storage from point sources, and reducing fossil fuel use through 
multiple options. For instance, biomass from restoration and hazardous 
fuels reduction projects can be used for energy production.
    However, the issue is complex and requires both science and 
thoughtful land management policy. However, the potential of some of 
our forests to store additional carbon may be limited because of 
management designation, accessibility, and/or stand characteristics. In 
many areas our forests contain overly-dense stands that are under 
stress and have become more susceptible to wildfire, insects, and 
disease\3\. Management actions, designed to restore these forests and 
grasslands and protect communities, such as thinning or allowing fire 
to resume its natural role as a cleansing and regenerative force, can 
improve the ability of these ecosystems to adapt to the continually 
increasing stress of changing climate and may have the increased 
benefit of sequestering more carbon over the long-run through increased 
net growth.\4\
---------------------------------------------------------------------------
    \3\ Fettig, Christopher J.; Klepzig, Kier D.; Billings, Ronald F.; 
Munson, A. Steven; Nebeker, T. Evan; Negron, Jose F.; Nowak, John T. 
2007. The effectiveness of vegetation management practices for 
prevention and control of bark beetle infestations in coniferous 
forests of the western and southern United States. Forest Ecology and 
Management, Vol. 238: 24-53.
      Graham, Russell T.; McCaffrey, Sarah; Jain, Theresa B. 2004. 
Science basis for changing forest structure to modify wildfire behavior 
and severity. Gen. Tech. Rep. RMRS-GTR-120. Fort Collins, CO: U.S. 
Department of Agriculture, Forest Service, Rocky Mountain Research 
Station. 43 p.
    \4\ CCSP. May 2008. Synthesis and Assessment Product 4.3 (SAP 4.3): 
The Effects of Climate Change on Agriculture, Land Resources, Water 
Resources, and Biodiversity in the United States, P. Backlund, A. 
Janetos, and D. Schimel, lead authors. A report by the U.S. Climate 
Change Science Program (CCSP).
---------------------------------------------------------------------------
    While healthy functioning forests may serve as a means to sequester 
carbon, under current practices, many of our western forests are at 
risk of turning from a carbon sink to a carbon source. Projections 
indicate that while these forests continue to sequester more carbon in 
the short-term, in 30 to 50 years\5\, disturbances such as fire and 
insects and disease could dramatically change the role of forests, 
thereby emitting more carbon than currently sequestering. Monitoring 
both climate change effects and the outcomes of management actions are 
key to adapting to a changing climate.
---------------------------------------------------------------------------
    \5\ Westerling, A. L., H. G. Hidalgo, D.R. Cayan, D. R., and T.W. 
Swetnam, 2006,. ``Warming and earlier spring increase western US forest 
wildfire activity'', Science 313(5789): 940-943.
      Haynes, R.W., et al. 2007. The 2005 RPA timber assessment update. 
Gen. Tech. Rep. PNW-GTR-699. Portland, OR: U.S. Department of 
Agriculture, Forest Service, Pacific Northwest Research Station. 212p.
      Smith, J.E.; Heath, L.S.; Nichols, M.C.. 2007. US Forest Carbon 
Calculation Tool: Forestland Carbon Stocks and Net Annual Stock Change. 
USDA, Forest Service, Northern Research Station, Gen. Tech. Report NRS-
13.
      Smith, J.E.; L.S. Heath, 2004. Carbon stocks and projections on 
public forestlands in the United States, 1952-2040. Environmental 
Management 33(4): 433-442.
      U.S. Environmental Protection Agency. 2009. Inventory or U.S. 
Greenhouse Gas Emissions and Sinks: 1990-2007. EPA 430-R-09-004.
---------------------------------------------------------------------------
                    working with private landowners
    Although there is much we can do to sequester carbon on federal 
lands, it is also crucial for us to recognize the role that private 
forest land in the United States can and must play in the Nation's 
mitigation options for greenhouse gas emissions. People are often 
surprised to learn that the majority of forest land in the United 
States--about 56%--is owned privately\6\. An important contribution we 
can make to increase carbon sequestration in and decrease emissions 
from U.S. forests is by working with the owners of these 423 million 
privately-owned forested acres.
---------------------------------------------------------------------------
    \6\ USDA. May, 2008. Forest Ownership Patterns and Family Forest 
Highlights from the National Woodland Owner Survey. U.S. Forest 
Service. Northern Research Station. NRS-INF-06-08.
---------------------------------------------------------------------------
    Privately-owned forests can be converted into subdivisions, other 
developed uses, or agriculture--all land uses that sequester 
substantially less carbon per acre than forest trees and soil\7\. Even 
though the private forest landowners of the United States are making 
significant contributions to cleaner air, cleaner water, and carbon 
sequestration simply by maintaining their land in a forested state, 
they often make decisions to convert their forest land.
---------------------------------------------------------------------------
    \7\ Joyce, Linda A.; Birdsey, Richard 2000. The impact of climate 
change on America's forests. Gen. Tech. Rep. RMRS-GTR-59. Fort Collins, 
CO: U.S. Department of Agriculture, Forest Service, Rocky Mountain 
Research Station. 133 p.. http://www.treesearch.fs.fed.us/pubs/4567
---------------------------------------------------------------------------
    Forest Stewardship, Forest Legacy, and the Community Forest and 
Open Space Program are voluntary landowner assistance programs that 
recognize how important it is that private forestland stays forested 
and continues to provide these benefits. Landowners across the U.S. can 
receive assistance with forest management and a written forest plan 
through the Forest Stewardship Program. Today, about 22 million acres 
of private forest lands are already managed under a current forest 
stewardship plan and there continues to be enormous demand for the 
program. The Forest Legacy Program recognizes the public benefits 
provided by private lands; conservation easements on vulnerable forest 
lands guarantee that they will not be subdivided or developed, and that 
they will be able to store carbon in their trees and soils. To date, 
the Forest Legacy program has protected over 1.8 million acres of 
vulnerable private forest lands from development.
                               conclusion
    Secretary Vilsack is asking the Forest Service and our sister 
agency, the Natural Resources Conservation Service (NRCS), to adopt an 
all-lands approach working with willing land owners across boundaries 
when addressing restoration. The Forest Service's Strategic Framework 
provides a guide to addressing climate change and the challenges at 
spatial and temporal scales unimaginable in the past. Coming to grips 
with climate change will require landscape-scale conservation, working 
together across borders and boundaries, and focusing on a common 
restoration vision for the greater good. The future of America's lands 
and waters, and the future of generations who will rely on them, depend 
on nothing less.
    Thank you for the opportunity to discuss these issues with the 
Subcommittee. I would be happy to answer any questions you may have.

    Senator Wyden. Thank you both very much. I've got some 
questions for you, and I know colleagues do, as well.
    You all, of course, have been intimately involved in these 
issues, and you represent our government in two agencies that 
are central to this debate about climate change. I think this 
is the first time, in this Congress, we've looked at Federal 
lands as it relates to the whole debate about climate change. 
Let me see if I can ask some questions to get your position on 
the record on some of the key questions.
    First, we'll just go to you, Dr. Batten and Mr. Tidwell. 
What is your position on including Federal lands in a cap-and-
trade offset program?
    Ms. Batten. We think that--the Department of the Interior 
thinks that there are tremendous opportunities for the 
incorporation of offsets into a cap-and-trade program; and, in 
fact, just as you just said earlier, Mr. Chairman, that they 
can be cost-reducing measures that can be incorporated into a 
cap-and-trade program. We're willing to work with you and 
provide as much information as we can, in terms of the amount 
of carbon that our ecosystems currently store and can store 
with best management practices, and we--as this--as legislation 
is being developed here in the Senate, that includes offsets. 
We're happy to provide as much information as we can during 
that process.
    Senator Wyden. I may have a second round, again, because--
the fact that today is so busy--to talk about the some of the 
science and policy questions in that, but I'm glad to hear that 
you all would favor Federal lands being part of a cap-and-trade 
offset program.
    Mr. Tidwell, your position on that?
    Mr. Tidwell. This is a very important topic that we need to 
spend, you know, time carefully considering. No doubt, this is 
one way to bring considerable investment, you know, to the 
nation's forests. There is also, you know, some concerns and 
some questions. You know, and some of those are, like, with the 
Federal Government setting up the rules and the regulations, 
should we also, you know participate? There is the question 
about accountability. There's also questions about, you know, 
how would public lands--how would that affect the market for 
private lands? Then, there's also the--you know, the question--
and I pointed it out earlier--about how essential it is that--
you know, carbon will be just one of the benefits that we 
manage for.
    I think these are, you know, some of the questions that we 
need to address. We look forward to working with the Senate, 
you know, to find our way through this. It has tremendous 
potential. There's no question--there's just no question that, 
in--you know, investing in the resiliency of our national 
forests and grasslands are going to have positive-benefit 
effects. Carbon is part of that overall benefit.
    Senator Wyden. So, you're not quite where Dr. Batten is 
today; you didn't answer ``yes,'' but you did say you thought 
that there was considerable potential. Is that the word you 
used?
    Mr. Tidwell. Yes.
    Senator Wyden. OK. Chief, one other question for you, and 
then we'll have one other for you, Dr. Batten. You all have 
done a fair amount of work with ecosystem services and carbon 
sequestration. My understanding is that the Department has 
established an office for ecosystem services marketing to 
explore opportunities, to advance payments, to look at a 
variety of issues. Can you tell me the current thinking you 
have with respect to ecosystem service markets for Federal land 
and how carbon sequestration could be factored into that? I 
mean, what we'd really like to know is whether it could be a 
source of revenue for the Federal Government.
    Mr. Tidwell. That's one of the things that this new agency 
that we've set up is working on, to help address those 
questions. One of the things that that staff is working on is 
to develop methods for quantification of greenhouse gas 
emissions and offsets. They're also looking at ecosystem 
services around water quality, around biodiversity, and it's 
also with wetlands.
    One of the advantages of this group, it's going to help the 
USDA to have a very--take a consistent approach to answering 
these questions, because this agency will be looking across all 
of USDA, but it's essential that we--I feel great that we have 
this staff that's in place now. Sally Collins, who used to be 
our associate chief that I worked with for years, I'm very 
confident to have her leadership in this arena on this agency 
to help us find these answers, to help us kind of work our way 
through this.
    Senator Wyden. I'll have some additional questions. I think 
we will have to have a second round, at least, to get at a 
couple of other matters.
    But, let me recognize ranking minority member, Senator 
Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Dr. Batten, if I could--as you know, I've been concerned 
about Secretarial Order Number 3289. It relates to climate 
change. Secretary Salazar wrote a reply to me and to the 
Western Caucus on October 30. The Senate and House Western 
Caucus, you know, represents just about every Western State. In 
our letter to the secretary, we expressed concerns, because 
this Order 3289 will inject climate change into all Department 
of the Interior decisions and activities--it actually said 
``activities.'' So, it could potentially put into question past 
and future management agreements related to oil and gas 
development, renewable energy, recreational use of the land, 
grazing, hunting on public and private property, and wildlife 
protection. I mean, it is a broad, broad area that the 
Department covers. We expressed some concerns that the order 
was signed by the Secretary before Congress, which was 
currently considering different climate change legislation 
before Congress could pass any kind of a bill. So, the 
Secretary responded that his order relies on existing legal 
authority to implement these activities.
    So, the question is, Just because the Secretary has the 
legal authority to do something, does--you know, does it mean 
he has to do that, he should do it? Or should the Department be 
taking its direction on something as big as injecting climate 
change, quote, ``into all land management decisions'' from the 
people who are elected to represent folks around the country?
    Ms. Batten. Thank you for the question. If I may just very 
quickly clarify a statement that I made earlier, the 
administration has no official position on the use of public 
lands in the offset program; however, we stand ready to provide 
as much knowledge that we have, in terms of the science that's 
available and best management practices. We stand ready to work 
with you in the development of this legislation.
    To answer your question, sir, I understand the concerns 
that you just presented, and I want to comment on a number of 
them.
    Secretary Salazar is faced, as the Secretary of the 
Department of the Interior, with managing 20 percent of our 
nation's terrestrial lands, 35,000 miles of coastline, 1.7 
billion acres of the Outer Continental Shelf, and millions of 
acres of national monuments, parks, and refuges. So, as a 
result, all of those land management decisions, resource 
management decisions--we need to be considering climate change 
as the driving force in making decisions about how best to 
protect those resources and those lands for our communities and 
for fish and wildlife, and in order to continue to be able to 
provide the water, land, marine, cultural, and fish and 
wildlife and other resources that we have been tasked to 
oversee thus far.
    So, in so doing, recognizing that climate change is such a 
challenge for all managers, both public and private across the 
United States at this time, we are including the consideration 
of climate change in making decisions about how to manage our 
resources, moving forward.
    In terms of existing agreements that we have, we look 
forward to continuing our relationships with our Federal 
partners, our State and local partners, and additional private 
land partners, in terms of making--forging agreements, making 
sure that we're taking in the inputs, in terms of designing 
strategies that--for adaptive management of our landscapes. 
But, this is not a change from the past; this is a continuation 
of the type of interactions that we've had in the past with the 
American citizens and other Federal and State agencies.
    Senator Barrasso. When you said that this climate change 
will be ``the driving force''--I mean, people are concerned 
about agreements that are already in place and what, 
retroactively, is going to happen.
    Ms. Batten. Climate change is certainly a driving force, in 
terms of land and natural resource management. So, is land-use 
change and other forces. As we move forward, with the continued 
balanced energy strategy that the Secretary is committed to, in 
terms of oil, coal, and gas development, as well as renewable 
energy development, we will consider climate change as we're 
developing these resources and providing transmission to 
connect these resources to the populations that need them, and 
doing so in an environmentally sustainable way.
    Senator Barrasso. So, what's going to be the impact on 
agreements that have already been----
    Ms. Batten. There is nothing in this secretarial order that 
addresses any existing agreements. This is about unifying all 
of the bureaus' work on climate change science, on adaptation 
strategies and mitigation strategies, so that we can design a 
unified way to move forward in order to best protect and 
continue to provide the services that our bureau and our 
Department is committed to do.
    Senator Barrasso. OK.
    Mr. Chairman, perhaps in a second round I'll have a few 
more questions.
    Senator Wyden. Thank you. Very good.
    Senator Johnson.
    Senator Johnson. Chief Tidwell, if climate change means a 
warmer, drier climate with a higher risk of catastrophic forest 
fires and pine beetle epidemics, what specific management 
strategy is the Forest Service considering to increase the 
resiliency of the national forests to catastrophic 
disturbances?
    Mr. Tidwell. Thank you, Senator.
    Yes, our information, our science, indicates that, with 
these warmer and drier seasons that we're having, we're seeing 
a direct effect on fire, and that we are experiencing, you 
know, larger fires, more intense fires than we have in the 
past.
    Some of the things that we are looking at doing, and have 
been doing, is to recognize that. Where we can, to get in and 
do some strategic thinning to reduce the stand density is one 
way to help mitigate some of the effects of these large fires. 
It's essential, you know, to be able to place these treatments 
on the landscape where they'll be effective. We primarily look 
at around our communities and key watersheds, but there's also 
opportunities to look at places where we can break up the fuel 
loading across watersheds.
    That's probably one of our best opportunities that we have 
to get in and do some thinning. Then, often follow that with 
prescribed burning to just reduce the overall fuel loading so 
that when we do get the fires, we don't see probably as large 
as fires, and we definitely will not see the level of 
intensity.
    Then, the other benefit is that, when wildfires do burn 
into these treated areas, the fire behavior lessens, and our 
suppression actions are much more effective to be able to get 
in and to control those fires.
    Senator Johnson. Would you discuss the value of diversity 
of age classes; for example, having representative proportions 
of all age classes, not just old or mature trees, especially in 
forests like the Black Hills National Forest, where we've seen 
examples of catastrophic fires and beetle epidemics? Would you 
agree that forest diversity is a key component of forest 
management, similar to planning a stock portfolio?
    Mr. Tidwell. Yes. You know, species diversity and also age 
diversity are two other things that we want to look at to 
increase that, especially in the--you know, some of the areas 
in the Intermountain West with lodgepole pine, where we have 
the hundreds of thousands of acres of, basically, even-aged 
pine. One of the things we want to work with in the future is 
to be able to break that up so we have more age diversity, and 
then, where we have the opportunity, to also increase the 
species diversity so that when we do get these large-scale 
events, we won't have that continuous fuel loading across, you 
know, the hundreds of thousands of acres that we do have in 
some places now.
    Senator Johnson. How do you envision individual forest 
plans developing specific strategies and approaches in response 
to climate change? How would you account for differences 
between Black Hills ponderosa pine forests, New England maple 
forests, and West Coast Douglas-fir forests? What is your 
timeline to incorporate climate change into the forest plans?
    Mr. Tidwell. We've issued direction to our forests and 
grasslands, that they need to factor in, you know, the current 
science that we have about climate change into their plans and 
also into their project designs. Where we have the opportunity 
to be doing forest plan revisions, we'll be able to factor that 
in--you know, into that plan.
    But, even today, that--when we're designing projects, it's 
essential that our managers are factoring in the latest 
science, and also the changing climate that we're seeing. For 
instance, in the Pacific Northwest, on the Olympic National 
Forest, folks have been noticing how we're getting much more 
winter runoff, in that our infrastructure, when it comes to 
culverts and bridges, is no longer large enough to be able to 
handle those winter flows. We recognize that, and are in--and 
need to get in there and restore some of those drainages. But, 
one of the things is to increase the culvert size. So, just to 
be able to deal with these winter stream flows that are 
different than what we've seen in the past.
    You know, in other areas that--we have to look at to really 
factor in how--what--a change in climate, and to make sure that 
we're not creating some expectations that are not available 
anymore, you know, with our ecosystems and with the changing 
climate. One of the things we have to factor in, Do we need to, 
you know, consider different species from what we've--maybe 
have considered in the past? We need to look at our thinning 
standards, that there may be some places we actually need to be 
thinning to at a much higher level to make sure that we can 
maintain the vigor and the resiliency in the stands. But, each 
of these situations are going to be unique. As I mentioned in 
my opening remarks, you know, climate change is going to have a 
variety of effects across the country. Depending where you're 
at and the type of ecosystems you're dealing with, we'll have 
to factor in that science to help us, you know, make the right 
decisions, not only with the plans, but with our project 
design.
    Senator Johnson. My time is expired.
    Senator Barrasso [presiding]. Thank you.
    Senator Wyden had to step out for a few moments, and asked 
that I call on Senator Risch.
    Senator Risch. Tom, you used a statistic, right at the end 
of your talk, or your statement, and it went over the top of my 
head. What--the offset statistic that you used--what was that?
    Mr. Tidwell. That with the terrestrial ecosystems, plus the 
wood products and landfills, that together they intake 12 
percent of the greenhouse gas emissions in this country each 
year.
    Senator Risch. Now, is that Forest Service property, or is 
that all property, or--what is that?
    Mr. Tidwell. That's all.
    Senator Risch. All property. What--any idea what percentage 
the Federal share would be of that?
    Mr. Tidwell. You know, Senator, I don't have that figure 
today. I can get back to you with that.
    Senator Risch. Where did this figure come from? Who came up 
with this?
    Mr. Tidwell. You know, I don't have the source in my 
testimony, but I can get that source to you.
    Senator Risch. I assume it's one you deem accurate, or you 
wouldn't----
    Mr. Tidwell. Yes.
    Senator Risch [continuing]. Quoting it. OK.
    This is a question for both of you. You know, when I took 
silviculture, years ago, we gave lipservice only to the carbon 
containment of forests. Now, we look at it differently today, 
obviously, because there's obviously more benefit there than 
what was recognized years ago. But, the thing that strikes me 
is that a forest will sequester carbon for 100 years and then--
over recent years in Idaho, we've had catastrophic fires, and 
they're all released at one time. How does that work? What is 
the balance of that? Can you help enlighten me on that, this 
taking of it in and then releasing it all? Obviously, if a 
forest goes through a natural cycle without burning, it'll tie 
the carbon up for some time. That is, it turns into soil and 
it--at least for quite a period of time, it'll be held. But, if 
it burns, obviously letting it all out at once seems to me 
something that is substantially--that is very detrimental, and 
you question whether or not there's really an offset there, as 
far as sequestering over a period of time and releasing it all 
at once.
    Have there been studies done on this or--help enlighten me 
on that. Tom, do you want to go first?
    Mr. Tidwell. Yes, Senator. You know, the carbon cycle is 
complex. You know, the things that you raised, the questions 
that you raised, are the things that we have to factor, you 
know, into our decisions. There's no question about the amount 
of carbon that's released with catastrophic wildfires. There's 
been numerous studies on that to be able to, you know, measure 
that.
    You know, at the same time that--you know, trees store a 
lot of carbon, and generally, you know, larger trees, you know, 
store more carbon. They don't--their sequestration rates drop, 
but the large trees--you know, generally, they store more 
carbon.
    So, it's part of looking at the cycle, but then also 
looking at what's sustainable. So, you know, our efforts are 
going to be focused on what we can do to, you know, increase 
the resiliency of our forest stands, and so that there is 
potentially less, you know, catastrophic fire, and, when we do 
have large fires, maybe able to reduce some of the intensity. 
We'll be able to do that, you know, through thinning and also, 
you know, through prescribed fire at different times of the 
year, when we could have a less intense burn occur.
    But, a lot of this--our actions are going to be driven by 
just the need to sustain these forests, for all the benefits. 
Carbon is just one of those.
    Senator Risch. Thank you.
    Doctor.
    Ms. Batten. I think this is an excellent question. I think 
that one of the things we need to do is stop thinking about 
forests as a static system. Unfortunately, a lot of our 
forestry management in the past has led to this place of being 
where we are right now with being at risk for catastrophic 
wildfires in a way that, if we had allowed the natural cycle of 
some fire in some of these fire-generated systems, or fire--
systems that are healthy when they have occasional fires go 
through them with much less intensity than these catastrophic 
wildfires--it's not an either/or situation; it's not as if you 
plant a forest or a forest naturally grows, and then there's 
carbon sequestered, and then it all goes away in a catastrophic 
wildfire. It doesn't need to be that way. It can be managed, as 
I'm sure my colleague here is working to do, in the Forest--the 
Forest Service manage. If you manage these forests in a way 
that allows for some fire--controlled burns, et cetera--it 
doesn't need to have this dramatic release of all the carbon, 
because, you're right, that's one of the main concerns with 
out-of-control wildfires.
    Senator Risch. Thank you.
    Senator Barrasso. Mr. Chairman, Senator Wyden had to step 
out. I don't know if you'd like to go into a series of 
questions and----
    The Chairman. If you had questions, go ahead.
    Senator Barrasso. We've completed the first round, and 
then----
    The Chairman. OK.
    Senator Barrasso [continuing]. We were going to go into a 
second round after----
    The Chairman. I apologize to the witnesses for not being 
here to hear their testimony, but I just wanted to be here for 
a little bit of the hearing, at least, to indicate my 
recognition about the seriousness of this issue. I know we've 
all seen it in our States out west, and I certainly have seen 
it in New Mexico.
    We recently put a bill in to facilitate the natural 
resource adaptation across the Federal land management agencies 
and States and tribes so that there would be better 
coordination and communication among the various land managers 
as to the policies that are being followed to deal with the 
problem. I think--I assume that's been a subject of some of the 
discussion here. If it hasn't been, I hope we can get more 
attention to that.
    I think that there's a lot we need to know about the 
science, as well, about--in trying to adapt to the changes that 
we're seeing. I think what I'll do is just hold off, maybe ask 
a question or two of the next panel.
    Senator Wyden [presiding]. All right. Apologies again. It's 
almost like healthcare has sucked all the oxygen out of the 
room.
    Senator Barrasso. Then there won't be a fire.
    Senator Wyden. Yes. Senator Barrasso reminds us, ``Then 
there won't be a fire.''
    [Laughter.]
    Senator Risch. Oh, there's going to be fire, all right, Mr. 
Chairman.
    [Laughter.]
    Senator Wyden. This topic has never been for the 
fainthearted, there is no question about that.
    Let's move to a couple of other areas, particularly 
biomass. Let me start with you, Dr. Batten.
    This is an area where, you know, we, in rural Oregon, have 
been very exasperated about Federal policy, because we just 
think that there are millions and millions of acres essentially 
untreated. We could get merchantable timber to the mills, 
opportunity to have a very promising source of green energy, 
and there's great frustration about Federal policy. Of course, 
biomass has the potential to provide a low-carbon, you know, 
alternative to fossil fuels, and, as I say, a vehicle for 
treating millions and millions of acres of forestland that need 
restoration and thinning. But, the fact is, you know, Federal 
law still puts up barriers to receiving full renewable fuels 
credit for biomass. In fact, there are a host of barriers with 
respect to using biomass on Federal lands. I'm very much 
committed to fixing this. I think, for purposes of starting, 
you know, questions here, what are your agencies doing now to 
further biomass development?
    Start with you, Dr. Batten.
    Ms. Batten. Secretary Salazar, as you know, is committed to 
a balanced energy strategy, and that includes looking into 
opportunities for biomass, whether it's biomass cofiring or use 
of biomass for renewable fuel generation. I--we are, in our 
assessment of carbon fluxes and looking at how carbon is stored 
across the United States, and in public lands in particular, 
we're looking at the carbon balance across the board and 
looking at both inputs and outputs, in terms of how we could be 
using biomass, moving forward. So, I would like to offer our 
assistance, as a department, both in terms of the science that 
we're doing on the carbon cycle and in terms of best management 
practices that could lead to the sustainable harvest of biomass 
and its use for renewable energy purposes.
    Senator Wyden. What would you cite today as the most 
significant thing the agency is going to promote biomass 
development?
    Ms. Batten. The--we are working on--in our service 
contracts, in enhancing the availability of biomass, where it's 
ecologically appropriate.
    Senator Wyden. OK.
    Mr. Tidwell, same question. Two questions to you. What's 
your agency doing now to further biomass while we wait for some 
legislation to change the barriers? Tell me, if you would, what 
you consider the most significant action that the agency is 
taking to promote biomass development.
    Mr. Tidwell. We have been promoting utilization of biomass 
as part of our restoration work. I like to look at it that, 
when we're doing this restoration work, often there's material 
that's smaller than sawlog, it's a lot of residual material 
that needs to be removed when we're doing our restoration work. 
Currently we have the options, in a lot of places in the 
country, to, one, pay somebody to pile it and then burn it, or 
to find a way that it's economically feasible for someone to 
haul it, you know, to a facility so they can make use of it. 
So, we've been encouraging that utilization in some places 
where, in the past, when we had more favorable markets, we 
would require the removal of that material instead of burning 
it. But, in the current markets, there's less of an opportunity 
to, you know, be able to do that.
    So, we've been encouraging that. We also have been up 
utilizing our biomass grant program to help, you know, develop 
additional infrastructure. Often these have been relatively 
small facilities, but we've been very successful in schools and 
in a couple of small hospitals and other administrative 
facilities and that--you know, as the technology increases with 
these facilities, folks are seeing more and more use of that 
type of a facility to make use of that material.
    Your last question was----
    Senator Wyden. What do you consider the most significant 
action you've taken to date to promote biomass development?
    Mr. Tidwell. Yes, I would think with--working with our 
grants to develop additional infrastructure so that there's use 
of this; also, the work that our forest products lab has been 
doing to, you know, help look into other--new technologies that 
make the use of this material more efficient. Those are 
probably the two things that I would say are probably the most 
significant right now.
    Senator Wyden. I'll hold the record open. Could the two of 
you get to us, say, within the next 2 weeks, a list--a specific 
list of what your two agencies are doing to promote biomass 
development?
    Ms. Batten, that acceptable?
    Ms. Batten. Absolutely.
    Senator Wyden. Mr. Tidwell.
    Mr. Tidwell. Yes.
    Ms. Batten. May I offer two more----
    Senator Wyden. Sure.
    Ms. Batten  [continuing]. Bits of information that the BLM 
has been working on, and offer my colleagues from BLM for some 
additional detail, if you're interested?
    BLM, in 2009, offered 100,000 tons of biomass for 
cogeneration. In 2010, plus under--using the ARRA funds, this 
will include over 250,000 tons of biomass offered for these 
purposes. So, we will include those two projects in the list 
that we submit to you.
    Senator Wyden. Good, thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman
    Mr. Tidwell, thank you for being here and sharing your 
thoughts.
    I wanted to visit a little bit about--well, the President 
recently signed the executive order that all management will be 
undertaken with climate change in mind. I'm just curious if you 
could spend a little bit of time giving the committee a couple 
of examples of maybe some of the specific changes that your 
agency is going to be making to respond to that executive 
order.
    Mr. Tidwell. Thank you for the question.
    You know, I mentioned one, our strategic framework that we 
put out last year to help us set our priorities. I also will be 
sending out direction to our regions and research stations to 
have the regions and the stations work together to develop an 
action plan around that strategic framework, to actually lay 
out specific actions that those regions are going to be 
implementing, you know, through planning or through, you know, 
project design. You know, we have, you know, projects 
throughout the country in places where we are already 
addressing, you know, some of the changes. You know, one of 
them is there in the greater Yellowstone area. We're very 
concerned about what's happening to white bark pine, and the 
infestation of the pine beetles in that white bark pine is 
something that we haven't had to deal with in the past. It--in 
the past, where the white bark pine is, it's usually high 
enough and cold enough that we haven't had to deal with that. 
So, we're spending a--you know, some time to look into that and 
have our researchers to actually help us to develop some 
different options about how to--what should we do with that. 
You know, is there an opportunity to get in there and do some 
thinning, and should we do some additional planting? Or just 
what do we need to do? So, that's one example.
    Senator Barrasso. Dr. Batten, along the same lines--it's 
interesting, because you're the science advisor to the Deputy 
Secretary, and, you know, my background in orthopedics, it's 
always a matter of what's sound science, what's junk science. I 
know you have to face that, as well, as you're dealing with the 
climate change. Along the lines of what Mr. Tidwell was talking 
about, you know, how to handle the situation with the trees and 
the forests.
    You know, all forest science that I'm aware of would 
recommend that the lodgepole pines should have been harvested 
over the last 50 years to avoid some of the situations that 
we're in now, that we are--that our forests are suffering. So, 
how do you--tell me a little bit about sound science, junk 
science, and how you make some decisions, because there have 
been some concerns from the Department, before you arrived, 
that--where perhaps it was junk science instead of sound 
science.
    Ms. Batten. As an ecologist--that's my background--I stand, 
in my role at the Department of the Interior, to make sure that 
sound science is supporting policymaking at the Department. 
This follows both the Secretary--Secretary Salazar's and 
President Obama's commitment to science-based policymaking. A 
number of our bureaus conduct peer-reviewed, excellent science 
that is contributing to our policymaking all along. In fact, 
the new secretarial order that we discussed earlier is designed 
to ensure that the best available science is being translated 
into adaptive management strategies for our land and natural 
resource managers so that they can be responding and then 
monitoring the effect of their actions over time to truly 
adaptively manage. All of this grounded in sound science.
    Senator Barrasso. So, if you look at forest science and 
lodgepole pines that we should have been harvesting over the 
last 50 years to avoid the current situation, so that would 
have required some significant timber harvesting, which Federal 
land management agencies have resisted over the last several 
decades. So, you know, given that science, but seeing no action 
from the Department of the Interior's standpoint, you know, 
what do we advocate now?
    Ms. Batten. Science is an evolving field. As scientists, we 
learn more as we continue to explore how natural systems 
interrelate to one another in the field of ecology. What we do 
is, we use the best available information that we have at the 
time to make decisions. As we learn more about the 
vulnerability of single-stand forests and older forests and 
their susceptibility to infestation, wildfires, then we need to 
react as we learn more about that and incorporate that 
information into these management strategies.
    So, science is--again, it's not a static field, it's an 
evolving field, over time. We're always learning more things. 
That's what so exciting about science. That's why it's so 
important to incorporate this type of evolving knowledge, over 
time, into policymaking.
    Senator Barrasso. So, what does the science tell you now to 
do with those forests?
    Ms. Batten. With those forests? As Mr. Tidwell is talking 
about earlier, we are in the midst of planning for the fire 
season upcoming, and we're doing that in cooperation with the 
Forest Service and with USDA. We recognize the severe 
consequences that may arise as a result of the dry and dead 
timber that we are currently having in our forests. So, again, 
it's an evolving process. We're looking at thinning, we're 
looking at a number of different alternatives to address this 
issue.
    Senator Barrasso. One final question, Mr. Chairman, if I 
could; it's a yes-or-no answer.
    Can you assure me, based on what you earlier said about 
climate change as the driving force--can you assure me that no 
existing land management agreement for energy development, 
recreational use--talking about existing land management 
agreement--will be changed because of the Secretary's climate-
change order, which you say makes climate change the driving 
force in land management decisions?
    Ms. Batten. There is nothing in the secretarial order that 
discusses anything to do with altering any existing agreements 
or arrangements between the Department of the Interior and any 
of our partners as a result of the secretarial order.
    Senator Barrasso. So, the answer is ``yes,'' there is 
nothing----
    Ms. Batten. There is nothing----
    Senator Barrasso. You can assure me.
    Ms. Batten [continuing]. In that secretarial----
    Senator Barrasso. You can assure me.
    Ms. Batten [continuing]. Order that says anything about 
these existing agreements.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Barrasso.
    Senator Bingaman.
    The Chairman. I did think of a question I wanted to ask 
Chief Tidwell.
    The Congress passed, and the President signed, the 
Landscape--the Forest Landscape Restoration Act earlier this 
year. How do you see that Act and that authority as relating to 
your planning to deal with this climate change problem? Is it 
providing tools to you that you didn't otherwise have? Or how 
do you see that?
    Mr. Tidwell. Senator, thank you for the question. Also, 
thank you for the work to get that legislation passed, because 
we do feel that it'll be very beneficial. There's a couple of 
key parts of it.
    One of them is the requirement for collaboration so that we 
bring people together and reach agreement about the kind of 
restoration that needs to occur, and also the size.
    One of our challenges is that--as I had mentioned earlier 
in my remarks, is that these issues, the change that we're 
seeing, it's across large landscapes and that we have to find 
ways so we can look at our restoration across larger 
landscapes. So, that legislation and that authority now will 
give us the opportunity to really look at much larger 
landscapes, bring people together, reach agreement on the level 
of restoration, the type of restoration that occurs. It's been 
my experience that, when we take that task, we're able to build 
that support, and we're able to implement the projects.
    The Chairman. Thank you very much.
    Senator Wyden. Senator Risch.
    Senator Risch. Briefly. Tom, I hadn't heard that, about the 
pine beetles in the white bark pine. Is that only at the lower 
part of its range, or does it go all the way through?
    Mr. Tidwell. It's--at least out there in Wyoming and 
Montana, really around the greater Yellowstone area is where we 
were seeing the effects. We were seeing it, you know, to the 
very top of the range. You know, that's definitely unique for 
us. It's one of the things we just haven't had to really worry 
about in the past, about that level of infestation. We're also 
seeing a very high level of mortality in the white bark pine.
    Senator Risch. They're a delicate species.
    Mr. Tidwell. I'm not sure it had to evolve, you know, 
dealing with mountain pine beetle.
    Senator Risch. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague.
    We've got a couple of things you're going to make available 
to us for the record, particularly your contributions in 
biomass. We're going to be talking about this subject often, 
because certainly the--the question of climate change, 
forestry, and biomass, this is right at the intersection of 
policy for this country that can help us create more good-
paying jobs, green good-paying, you know, jobs, and help us to 
deal with this pressing question of climate change. We're 
committed to getting this right. We're going to be talking to 
both of your agencies often.
    Is there anything either of you would like to add before we 
excuse you?
    [No response.]
    Senator Wyden. You're not required to add.
    Mr. Tidwell. Just, once again, I want to thank you, not 
only for taking the time for today's hearing, but also your 
interest in this issue, and really appreciate that and 
appreciate your leadership. Thank you.
    Senator Wyden. Dr. Batten
    Ms. Batten. I also want to thank you for this opportunity. 
It's been a real pleasure talking about these very important 
issues with the subcommittee.
    I just wanted to also say that I really appreciate the 
links that you're making between mitigation, taking greenhouse 
gases out of the atmosphere, adaptation, helping our natural 
systems adapt to the impacts of climate change, and job 
creation, all in one fell swoop. We can do all of this at once, 
and it really is key to the success of our new economy and 
moving forward and combating climate change.
    Senator Wyden. For the part of the world that Senator Risch 
and I represent, I can tell you, citizens are counting on 
getting it done with that kind of focus. So, we'll be working 
with you often. We'll excuse you, at this time.
    Our next panel, Beverly Law, Ph.D., from Oregon State; 
Elaine Oneil, Ph.D., from the University of Washington; Chris 
Wood, with Trout Unlimited. If you all will come forward.
    Welcome, to all of you. We're going to make your prepared 
statements a part of the record; if you could summarize your 
principal views, that would be good.
    Why don't we begin with you, Dr. Law.

   STATEMENT OF BEVERLY LAW, PROFESSOR, GLOBAL CHANGE FOREST 
SCIENCE, OREGON STATE UNIVERSITY, AND AMERIFLUX NETWORK SCIENCE 
                      CHAIR, CORVALLIS, OR

    Ms. Law. OK. Chairman Wyden----
    Senator Wyden. From Oregon State.
    Ms. Law. From Oregon State University, yes.
    Chairman Wyden and members of the subcommittee, thank you 
for inviting me here today. I'll focus my talk on forest carbon 
sequestration and adaption to climate.
    So, first some basics on what we consider to be carbon 
sequestration. Forests take up carbon dioxide by 
photosynthesis, and then carbon goes into soils in the 
vegetation, and both are considered carbon sequestration. But, 
carbon is also released from forests by natural processes, 
restoration and slow decomposition so that, on balance, a 
forest may be a source or a sink or neutral to the atmosphere, 
depending on climate, land-use change, and things like 
wildfire.
    So, when an old forest is harvested, much of the carbon 
that it contains is released back to the atmosphere as carbon 
dioxide, and it takes, on average, about 15 years for a forest 
to become a net-zero emitter of carbon dioxide. So, I'm talking 
about the land base and how the land base acts.
    Now, in terms of carbon storage, in Oregon and California 
it takes about 180 years to over 600 years to attain the same 
biomass carbon that was on an old forest before it was cut, so 
it's a long time to get to that level of carbon storage.
    Many of the mature and old forests are on Federal lands, 
and carbon stores are usually higher on public lands, primarily 
because of the younger forests on private lands. To manage 
Federal lands in the public interest of sequestration, we 
should strive to preserve the mature and old forests to avoid 
losses of carbon due to harvest. To avoid losses of carbon on 
public lands due to fire, fuel reductions may be necessary in 
dry regions, where an uncharacteristic amount of fuels have 
built up. In moist forests, however, like in the Northwest or 
the West, the Cascades, fires were historically infrequent, and 
they may be best used for the high sequestration capacity.
    Most of the live and deadwood is not consumed in wildfires, 
contrary to common belief, in high-severity fires. We've done 
measurements before and after fires to determine that. Most of 
the live and deadwood--I was going to say, fuel reduction can 
be effective in reducing fire severity, however it comes at the 
cost of reducing carbon sequestration. So, they're tradeoffs.
    Balancing a demand for maximizing carbon storage with a 
desire to reduce fire severity will require treatments to be 
applied strategically rather than indiscriminately across 
landscapes.
    Now, the IPCC climate projection for North American shows 
increased precipitation at high latitudes, like up in Alaska, 
and a sharp decrease across the Southwest. Drought-affected 
areas will likely increase in extent. There's also likely to be 
an increased risk of extinction if warming continues at the 
rate that it continuing.
    Changes in seed and in plants include rain shifts in 
latitude and elevation and threatened systems include those 
with barriers to migration, like mountaintops, simply going 
right off the top of the mountains.
    To facilitate forest response to climate change, measures 
can be taken to conserve species and genetic diversity and 
ensure forest landscape connectivity for migration of plants 
and animals to a climate where they can survive and thrive.
    Federal lands are uniquely valuable for providing the 
connectivity and refugia, and they can work with neighbors to 
expand these areas. New policies are needed for Federal forests 
to focus on ecological function; conserving old forests and old 
trees, where they exist; and possibly even expand preserve 
areas.
    To inform policy decisions, ecosystem function should be 
assessed at long-term observationsites to quantify baseline 
conditions and track changes in response to climate. The Forest 
Inventory Program, FIA, could be modified to address carbon 
sequestration. The AmeriFlux Network has 30 sites on Federal 
lands, and they are--can be used to inform--to provide 
information on responses to both climate and disturbance; 
that's what they're designed to do. The two can provide 
programs--can be combined with a decision support system to 
produce assessments for policy decisions and strategic 
management actions.
    So, in summary, forests can play a limited yet important 
role in carbon sequestration for mitigating climate change. In 
evaluating carbon policies, it's important to fully account for 
the carbon involved, including the carbon transport. To manage 
Federal lands in response to climate change for carbon 
sequestration and adaptation, we can increase or maintain 
carbon sequestration by replanting forests and avoiding forest 
carbon losses. We can facilitate response to climate change by 
sustaining genetic and species diversity through forest 
preservation and enhancing landscape connectivity for dispersal 
of plant and animal species. Then, Federal lands are uniquely 
valuable for sequestration and facilitating adaptation to 
climate. The overarching goal should be to sustain forest 
ecosystem function, and we need adaptive management.
    [The prepared statement of Ms. Law follows:]
  Prepared Statement of Beverly Law, Professor, Global Change Forest 
 Science, Oregon State University and Ameriflux Network Science Chair, 
                             Corvallis, OR
    Mr. Chairman and members of the Committee, thank you for inviting 
me today to discuss managing federal forests in response to climate 
change for natural resource adaptation and carbon sequestration. I am a 
Professor of Global Change Forest Science at Oregon State University, 
and Science Chair of the AmeriFlux network of observation sites that 
study the effects of climate and disturbance on ecosystems across the 
U.S. I am also a co-author of the U.S. Climate Change Research 
Program's Synthesis and Assessment Product 2.2, which addressed the 
``North American Carbon Budget and Implications for the Global Carbon 
Cycle.'' I will focus my remarks on current knowledge on forest carbon 
sequestration and adaptation.
                          carbon sequestration
    Forests take up carbon dioxide by photosynthesis and store it in 
biomass and soils, which are both forms of carbon sequestration. Some 
of the carbon rapidly returns to the atmosphere from respiration by 
live plants and soil microbes or more slowly through the decomposition 
of dead material. Fire and harvesting activities also result in carbon 
emissions to the atmosphere. On balance, forests may be a positive, 
negative, or neutral contributor of carbon to the atmosphere, depending 
on variation in climate, land use, wildfires, and harvest activities.
    When a mature forest is harvested, much of the carbon that it 
contains is released back to the atmosphere as carbon dioxide. The 
disturbance involved in harvesting a forest creates conditions that 
speed up decomposition; it takes, on average 15 years for a new forest 
to become a zero net emitter of carbon dioxide (Luyssaert et al. 2008). 
Harvesting wood increases carbon stores in wood products, but it also 
decreases live and dead stores in the forest. Thus, it is important to 
consider changes in all carbon stores (Law et al. 2004).
    Today, carbon is accumulating in U.S. forests, offsetting about 16% 
of the nation's fossil fuel emissions (CCSP 2007). Without forests, 
atmospheric CO<INF>2</INF> levels would be rising even faster. Over 
this century, net carbon uptake by terrestrial ecosystems at the global 
scale is likely to peak before mid-century and then weaken or even 
reverse, thus amplifying losses associated with predicted climate 
change (IPCC 2007b). Part of the reason is increasing loss of soil 
carbon with increasing temperature and disturbances. Disturbances that 
release even a small percentage of the soil carbon content could have a 
large effect on atmospheric CO<INF>2</INF> levels, particularly if the 
soils contain high concentrations of organic matter, like those in high 
latitude ecosystems (Schuur et al. 2009).
    To manage federal lands in the public interest of carbon 
sequestration, we should strive to preserve mature and old forests to 
avoid losses of carbon associated with harvest. Many of the mature and 
old forests are on public lands, so they are uniquely positioned to act 
as carbon reserves. For example, in the Pacific Northwest, biomass 
carbon is usually higher on public lands, primarily because of the 
younger forests on private lands (Hudiburg et al. 2009). Activities 
that can contribute to increasing carbon sequestration include: 
planting forests in areas previously harvested (reforestation), and on 
lands suitable for growing forests (afforestation). Such forests can be 
expected to accumulate carbon for many decades.
       carbon sequestration vs thinning to reduce fire potential
    Variation in climate, and surface fuel supply and continuity are 
factors that contribute to increased fire potential. Recent studies 
(Campbell et al. 2007&2009, Hudiburg et al. 2009, Donato et al. 2009, 
Mitchell et al. 2009) suggest that efforts to reduce fuels in many 
types of forests will be counterproductive to sequestering carbon to 
help offset climate change. Fuel reductions may be necessary in dry 
regions where uncharacteristic amounts of fuel have accumulated. In 
moist forests, however, fires were historically infrequent. Findings:

  <bullet> Most of the forest biomass (live and dead wood) is not 
        consumed by wildfires, even in high severity fires
  <bullet> Some fuel reduction techniques, especially those that remove 
        half or more of the larger trees, could lead to an increase in 
        fire severity because of additions of logging debris
  <bullet> Fuel reduction can be effective in reducing fire severity, 
        however, fuel reduction results in decreased long-term carbon 
        storage

    Balancing a public interest in maximizing landscape carbon storage 
with a desire to reduce wildfire severity will likely require thinning 
treatments to be applied strategically rather than indiscriminately 
treating all forest stands across the landscape.
    One suggested method of compensating for losses in carbon storage 
due to thinning to reduce fire hazard is to use carbon harvested in 
fuel reduction treatments as biofuels. Timing is an important factor to 
consider, for example, how long it took to grow the trees, how quickly 
the biomass will be used, and how long it will take to replace the 
removed carbon. Other considerations are fuel efficiency and carbon 
cost of removal, so there needs to be full carbon accounting. A recent 
study indicated that using the thinned trees for biofuels will not be 
an effective strategy over the next 100 years (Mitchell et al. 2009), 
and 50-100 years is probably the relevant timeframe of forest carbon 
policy. The analysis on forests with high biomass production and 
storage capacity showed it would take 170 years for biomass production 
to offset carbon emitted from fossil fuels, and over 300 years for 
ethanol production. This assumed all of the possible energy in these 
fuels would be utilized, which isn't likely to be the case.
               climate change projections and adaptation
    The IPCC (Field et al. 2007) climate projection for North America 
is characterized by a variety of different patterns of precipitation, 
with increasing precipitation at high latitudes and a sharp decrease in 
precipitation across the Southwest. Drought-affected areas will likely 
increase in extent. Warming in western mountains of the U.S. is 
projected to cause decreased snowpack, more winter flooding and reduced 
summer flows.
    The IPCC (2007b) also states that (1) about 20-30% of known plant 
and animal species are likely to be at increased risk of extinction if 
increases in global average temperature exceed 1.5-2.5C; (2) types of 
changes seen in plants include range shifts (latitude, elevation) and 
changes in growing season length, and threatened systems include those 
with physical barriers to migration (e.g. montane ecosystems); (3) non-
climate stresses can increase vulnerability to climate change by 
reducing resilience and adaptive capacity; and (4) unmitigated climate 
change would, in the long term, be likely to exceed the capacity of 
natural and managed systems to adapt (IPCC 2007c).
    To facilitate forest response to climate change, measures can be 
taken to conserve plant and animal species and genetic diversity, and 
ensure forest landscape connectivity for migration of species to 
climate in which they can survive and thrive (e.g. corridors, roadless 
areas). Genetic diversity allows selection for traits that may be more 
suited to a new climate. There will be winners and losers in a new 
climate, and species diversity improves the odds of formation of 
sustainable ecosystems. Federal lands have many of the mature and old 
forests that can serve as sources of genetic and species diversity 
needed for dispersal.
    In semi-arid to arid regions like the Southwest U.S., prolonged 
drought pushes species to the limits of survival, and this is often 
followed by mortality from insects and diseases. If climate becomes 
more severe in these regions, the idea of sustaining a particular plant 
association in a particular location could be futile because a tipping 
point may be reached where climate is outside the historical range for 
survival of some species within a forest type. If prolonged drought 
impacts dry forests, thinning may be effective to alleviate drought 
stress in the remaining trees, but if there is no water available 
within the rooting depth, mortality will occur even if the forests are 
thinned (independent of density). Thinning could be counterproductive 
to adaptation goals if removed trees or seedlings damaged from harvest 
activities are those best suited to survive and thrive in a new 
climate.
                              new policies
    New policies are needed for federal forests to focus on sustaining 
ecological function. Policies should accommodate the variation that 
exists in forest ecosystems in terms of their diversity and disturbance 
histories. For example, in the Pacific Northwest, there are distinct 
differences between moist forests and dry forests that require 
different policies and adaptation approaches (Johnson & Franklin 2009). 
The moist forests have evolved with very infrequent high severity 
disturbance regimes (e.g. wind, fire) where mosaics of stand 
replacement have occurred. Old-growth moist forests have had little 
human impact and management treatments are generally not needed to 
maintain them in the foreseeable future. Younger forests that exist in 
this moist region could be manipulated to increase ecological 
diversity. The dry forests have evolved with more frequent low and 
mixed severity wildfire as the primary disturbance regime, and the 
structure and function of old forests has been altered by ingrowth of 
less drought-and fire tolerant species.
    Historically, these forests had relatively low densities and with 
scattered older trees of highly drought-and fire-resistant species. In 
dry forests, focus should be on sustaining the old trees, modifying 
fuel loads, and reducing trees that crowd the older trees and make them 
susceptible to mortality from fire, insects and disease. Such careful 
applications are needed to maintain ecological function of forests.
    Long-term observation networks and a decision support framework 
will be required to assess the vulnerability of forests to climate 
change, and to refine management of forests for carbon sequestration. 
Critical elements of decision support for regional to local actions 
include integrated long-term observations, an accessible data and 
information system populated in a timely manner, forest process studies 
to improve regional prediction, and regional climate modeling 
appropriate for societal decisions. This would allow management for 
goals of carbon sequestration and ensuring species and genetic 
diversity for a future climate. The existing Forest Service Forest 
Inventory & Analysis program (FIA) has observation sites where 
measurements could be modified for producing carbon budgets of soil and 
vegetation and for detecting shifts in productivity and species. The 
AmeriFlux network that examines responses to climate and disturbance 
has 30 sites on federal lands and can be used to detect 
vulnerabilities and improve model predictions of forest response. For 
example, over 10-15 years, sites in the network have seen increases in 
growing season length and the effects on the carbon balance of the 
ecosystems. The two observation systems can be combined with a decision 
support system that is needed to produce assessments for aiding policy 
and management decisions.
                      concerns about carbon policy
    It is important for carbon credits to prove a concept called 
additionality, whereby additional carbon is stored due to new actions, 
going beyond business-as-usual. The concept of `additionality' 
addresses the question of whether the project would have happened 
anyway, even in the absence of revenue from carbon credits. In the case 
of federal lands, it seems it would be difficult to be considered for 
additionality because they are mandated to be managed for the public 
interest of carbon sequestration (the project would have happened 
anyway). Federal lands should be managed for the public interest of 
carbon sequestration, not revenue from carbon credits. If federal lands 
are managed for revenue from carbon credits, it will likely impact 
ecosystem functioning and other ecosystem services.
    A potential unintended consequence of carbon policy would be a 
reduction in carbon sequestration prior to implementation of the policy 
so that revenue could be obtained for new actions to increase carbon 
storage.
    If credit is given for choosing not to cut existing forests, 
monitoring and audits of carbon sequestration will be necessary to 
determine status of carbon uptake, insurance will be necessary to 
protect past carbon sequestration from destruction by fire or 
windstorms, and penalty payments will be necessary if the forest is 
eventually cut. Such efforts will be costly to administer, diminishing 
the value of the rather modest carbon credits expected from forestry 
(Schlesinger 2006).
    The IPCC (2007) suggests net carbon uptake by the land is going to 
decrease in the future. The risk with ecosystem impacts and feedbacks 
to climate is that once climate reaches a certain point, the problem 
will become more difficult to address because of less capacity of 
forests to store carbon. Forests have an important but limited 
potential to offset climate change. The critical issue is that we need 
to slow GHG emissions growth rapidly to quickly enter into a period of 
decreased emissions.
                                summary
    As climate change accelerates, the capacity of forests to store 
carbon will decline, and unmitigated climate change could exceed the 
capacity of natural and managed systems to adapt. Forests can play an 
important but limited role in carbon sequestration for mitigating 
climate change. In evaluating carbon sequestration policy and 
management options, it is important to fully account for the carbon 
involved. To manage federal forests in response to climate change for 
carbon sequestration and adaptation, we can (1) increase or maintain 
carbon sequestration by avoiding forest removal, replanting forests, 
and restoring ecosystem function; and (2) facilitate response to 
climate change by sustaining genetic and species diversity through 
forest preservation (e.g. for seed sources), enhancing landscape 
connectivity for migration/dispersal of plant and animal species, and 
by aiding dispersal to favorable climates. To avoid carbon losses due 
to drought or fire, it may be necessary to thin some dry forests that 
have accumulated uncharacteristic amounts of fuels. Thinning could be 
counterproductive to adaptation goals if removed trees are those best 
suited to survive and thrive in a new climate. Federal lands have an 
important role to play in both carbon sequestration and ecosystem 
adaptation to climate change. The overarching goal should be to sustain 
forest ecosystem function.
    To inform policy decisions, ecosystem function should be assessed 
at long-term observation sites to quantify baseline conditions in 
ecosystem function and carbon sequestration, and to track changes in 
response to climate. The existing FIA and AmeriFlux observation sites 
on federal lands could serve this need. Critical elements of decision 
support for regional to local actions include integrated long-term 
observations, an accessible data and information system, process 
studies to improve regional prediction, regional climate modeling, and 
integration of research to produce assessments for aiding policy and 
management decisions.

    Senator Wyden. Dr. Law, thank you. Oregon State is renowned 
for its forestry school, and you have accounted well for them 
today. I knew it was--there was a reason why we campaigned to 
have you make the long trek back. I was especially glad that 
you also brought into your comments the focus on the older 
forests, because that's an important part of this debate, and 
we're going to make sure that's not going to get short shrift, 
either. So, thank you very much for a very good presentation.
    Dr. Oneil, also from the Pacific Northwest, we thank you 
for making the trip, as well. Welcome, and please proceed with 
your remarks.

  STATEMENT OF ELAINE ONEIL, PH.D., M.S., BSF, RPF, RESEARCH 
  SCIENTIST, SCHOOL OF FORESTRY, COLLEGE OF FOREST RESOURCES, 
   UNIVERSITY OF WASHINGTON AND EXECUTIVE DIRECTOR OF CORRIM 
 (CONSORTIUM FOR RESEARCH ON RENEWABLE INDUSTRIAL MATERIALS), 
                          SEATTLE, WA

    Ms. Oneil. Thank you, Senator Wyden. Thank you for inviting 
me to provide my testimony.
    Let's start by looking at some climate change impacts that 
are now occurring on our national forests. They've all been 
discussed here today.
    I provided some corroborating documents, and in them are 11 
pictures in this folder that highlight two specific impacts on 
national forests that I want to talk about. We're talking about 
areas in the Intermountain region from eastern Washington to 
the Black Hills, from the Canadian border to New Mexico.
    Across the land--the West, what we're seeing is landscapes 
with almost complete tree mortality, whether from mountain pine 
beetle or from stand-replacing fires. That means fires where 
old trees--or mostly all trees are killed.
    Now, under climate change scenarios, these impacts are 
expected to only get worse; in some cases, a doubling of the 
area burn per year, and in some regions the loss of the entire 
mature pine forest.
    So, what does this means in terms of climate change 
adaptation and carbon storage? Obviously when trees are dead, 
they're no longer sequestering carbon. They're releasing it; 
some slowly, through decay, or rapidly, through wildfire.
    Under normal circumstances, the forest would regenerate, 
the carbon would be taken up again, and the carbon neutrality 
of the forest would be assured. Currently, we're seeing 
something quite different in western forests. In the Fremont-
Winema in Oregon, there's a 300,000-acre dead zone that used to 
have lodgepole pine on it, and which is now slowly releasing 
carbon. What's happening in that forest is that, even though 
lodgepole typically regenerates after there's some sort of a 
disturbance, they're not getting the regeneration there, 
usually because they're having--they have difficulty 
regenerating in that forest anyhow, because of the extreme 
climatic conditions. Similarly, in some areas of Washington 
State, we're expected to lose one or two pine species, with no 
equivalent species to take their place, because of ongoing 
changes to summer drought.
    Once these forests die and dry out, they become especially 
good candidates for uncontrollable fire and its attendant 
greenhouse gas emissions. On page 6 of the document, it shows 
that a NOAA satellite image of the 2006 tripod complex fire on 
the Okanogan-Wenatchee National Forest in Washington. That 
forest used to contain 100 permanent sample plots within the 
fire perimeter. In the years prior to that--I had done some 
analysis--60 out of 100 of those plots had severe mountain pine 
beetle infestations in the prior 4 years. That exacerbated the 
ability to control the fire, and it also led to some of the 
more damaging impacts in that particular region.
    You know, definitely because we had that big fire, we 
managed to control--or, slow down the bark beetle epidemic; we 
knocked out a lot of the bugs. But, the carbon emissions 
profile from that one fire was estimated to be equivalent to a 
million sport utility vehicles running on Washington's roads 
for a single year.
    Senator Wyden. What? Say that again? One million sport 
utility vehicles?
    Ms. Oneil. Running on Washington's roads for a year. That 
one fire. That's the estimate. Now, that doesn't say that every 
single tree was completed toasted.
    Senator Wyden. Right.
    Ms. Oneil. That's just looking at about 15 percent of the 
aboveground biomass being lost. It did not account for any 
losses in soil carbon.
    So, we can have--in situations like this, where you have a 
pretty severe wildfire, you can have difficulty--the same 
difficulty with regeneration that they're seeing on their 
Fremont-Winema. Work done in California has found that upward 
of 85 percent of the area does not regenerate after these 
catastrophic wildfires. As the pictures show for the--Arizona's 
Rodeo-Chediski, in areas of complete mortality the soil was 
essentially cooked, and there's no seed source left. So, the 
question that we have to look at is--we once had forest there; 
we don't have them now--Will they be able to regenerate? Will 
we have this carbon-neutral situation, where we have extreme 
wildfire?
    So, those are the impacts. What can we do about it? 
Building resilience into these forests by thinning them to 
some--down to some level where the trees can look after 
themselves is important. We need to get realistic about 
increasing forest resilience through targeted treatments that 
are driven by underlying ecological carrying capacity, not by a 
premandated, negotiated definition of tree size or density or 
spacing. The top-down will not work in a situation where we 
have this much complexity across our landscape.
    If we thin, we can reduce fire impacts. If you look at 
slides 11 and 12, you'll see the contrast between the fire 
impacts from the Rodeo-Chediski on national forests versus 
adjacent tribal lands. That will increase tree vigor, it'll 
improve forest health. You're still going to maintain some 
carbon storage on these remaining trees, and maintaining a seed 
source, as well.
    We can't just thin the forests and leave the material 
there; we have to find a way to remove it, because if you just 
cut it and leave it, you're not actually reducing fire risk, 
you're increasing it. You, in some instances, can make insect 
outbreaks worse. In order to remove it, we need to make it 
financially viable to address these biomass removals.
    Now, policies to address carbon storage would ideally 
include some local collaborative efforts, decisionmaking, and 
augmenting it by applying the kinds of research that we've done 
and that have been done in multiple ecosystems on climate 
change, on carbon storage, and on best options for biomass 
recovery and uses, and using lifecycle inventories to actually 
measure real inputs and outputs from the system that are based 
on known uses, processes, and recovery potentials. What that 
means is that you have to tie the kinds of removal and the kind 
of biomass use to the available feedstock, and that's something 
that we're looking at now in some of our research.
    I think anything less than this is going to result in--more 
in ongoing massive carbon debt. In these particular forests, as 
they die, they decay, they burn, and release carbon at a rate 
that probably exceeds current uptake in these lands, if it has 
not already done so.
    Each forest has a unique carrying capacity. With 50 years 
of fire suppression, coupled with hotter and drier summers, 
warmer winters, the hallmarks, really, of predicted future 
change--I think we're already seeing it--we are at a threshold 
where carrying capacity is exceeded, the results of these 
massive bark beetle outbreaks and the attendant fire. We really 
already have the tools. We don't have to invent additional 
tools to--for biomass removal, considering that current harvest 
removal is also--or biomass--and we have plenty of rules to 
address those removals.
    We seem to be caught up with arguing about definitions of 
biomass and old growth, while the old forests around us are 
killed, while these forests around us are killed by bark 
beetles, and then they burn, adding additional carbon to our 
atmosphere.
    I'll just give you a few numbers here, in the time 
remaining. In 2007, there was 6.8 million acres of mortality in 
the entire U.S. Sixty-one percent of that was from mountain 
pine beetle, so that's 4.1 million acres. Those are Federal 
statistics from the U.S. Forest Service. They also say that 
there's a total of 22 million acres at risk to bark beetle 
mortality, but in a single year, we lost 20 percent of it. 
That's a lot of carbon sequestration potential loss. That's a 
lot of potential carbon emissions.
    In addition, there are about 28 million acres that could 
use some help in reducing fire risk. Those--there may be some 
overlap between the 22 and the 28 million; those were two 
different studies. So, you see that, in effect, what we have 
here is a situation where we're at a tipping point, and we can 
address the situation through some fairly aggressive management 
that looks at site-specific outcomes, or we can address it--we 
can address it at some--with some dedicated resources to look 
at these problems in a site-specific way, or we can continue to 
do research on how we could look at storage in a different way.
    I talked way faster than I thought I would, so I could ad 
lib here or I could open it up for questions.
    [The prepared statement of Ms. Oneil follows:]
  Prepared Statement of Elaine Oneil Ph.D., M.S., BSF, RPF, Research 
Scientist, School of Forestry, College of Forest Resources, University 
of Washington and Executive Director of CORRIM (Consortium For Research 
            on Renewable Industrial Materials), Seattle, WA
    I am a research scientist at the University of Washington with a 
specialization in forest health and climate change. I am also the 
Executive Director of CORRIM, the Consortium for Research on Renewable 
Industrial Materials. CORRIM is a consortium that was created in 1996 
between fifteen universities to conduct research on the environmental 
performance of every stage of forest products manufacture from cradle 
(planting the tree seed) to grave (landfill of solid wood products at 
the end of their first use). The research conducted by CORRIM uses life 
cycle inventory (LCI) and life cycle analysis (LCA) techniques which 
take into consideration the energy balance and carbon emissions 
inherent in the growth, procurement, manufacture, and eventual use of 
wood products.
    Effective policy for integrating forest ecology, climate, forest 
management options, and the potential use of products derived from 
management must account for interactions both inside and outside the 
forest boundaries. My goal is to provide you with an understanding of 
how these interactions can be used to develop optimal strategies for 
natural resource adaptation and carbon sequestration on national forest 
lands in the face of climate change. My particular emphasis will be on 
the forests of the western USA.
    The factors central to determining optimal carbon management under 
climate change are:

          1. Each forest site has a carrying capacity which dictates 
        the maximum amount of fiber, wood, or carbon that can be stored 
        in that forest. Carrying capacity is determined by site 
        quality, climate, and to a lesser degree the current species 
        mix.
          2. Once forests reach their site's carrying capacity there is 
        enormous stress on the living trees which manifests itself in 
        insect outbreaks and disease, culminating in the death of some 
        or all of the trees on site. The mountain pine beetle (MPB) 
        epidemic in western North America epitomizes how existing 
        stressors (forests at or above site carrying capacity) interact 
        with subtle shifts in climate to create unprecedented mortality 
        on our National Forest Lands. The spruce bark beetle epidemic 
        in Alaska is another example of the same impact in a different 
        ecosystem. Climate change is impacting our western forests now. 
        It is not a future possibility or probability.
          3. Wildfire ignition is random, but the consequences of 
        wildfires are driven by climate, and prevailing weather and 
        forest conditions. Forests that have reached maximum carrying 
        capacity, and which contain large amounts of dead trees, 
        produce conditions for wildfires that are uncontrollable, with 
        devastating consequences to the forest, the adjacent 
        communities, and the budgets of land management agencies.
          4. Wildfires generate enormous releases of carbon dioxide and 
        other greenhouse gases. From 2002-2006 wildfires across the 
        entire US, including Alaska, released the equivalent of 4-6% of 
        the US anthropogenic emissions for that same period. The 
        average yearly emissions from the California wildfires alone 
        were equivalent to the emissions of 7 million cars/year for 
        each year from 2001-2007. Extreme fire conditions can render 
        sites infertile or incapable of regenerating future forests, 
        which effectively leads to deforestation.
          5. If we apply the precautionary principle, the most risk 
        adverse option we have at the present time is to thin forests 
        that are at risk to reduce wildfire impacts, reduce insect 
        mortality, and build health and resilience against extreme 
        climate conditions that these forests are expected to face in 
        the near future. The cut material can be used as biofuel 
        feedstocks to support energy independence goals and meet 
        renewable fuel and electricity standards. Even greater carbon 
        benefits are possible if the cut wood is used in green building 
        construction. Using life cycle analysis we can identify optimal 
        carbon sequestration and storage options that include forests 
        as part of the broader matrix of national carbon accounts; 
        failure to account for the carbon interactions beyond the 
        forest can lead to counterproductive policies.
          6. Grassroots initiatives aimed at addressing forest health, 
        wildfires, insect outbreaks, and sustainability on federal 
        lands have begun. The goals of removing excess fuels and dead 
        trees for use in bioenergy projects, while generating 
        economically viable and sustainable jobs in rural communities 
        and maintaining sustainable ecosystems are laudable. Policies 
        are needed that integrate the knowledge and trust built by 
        local initiatives, support national renewable energy goals, and 
        recognize the inherent ecological carrying capacity of the land 
        and how it might alter under changing climatic conditions.

    Each forest site has a carrying capacity which dictates the maximum 
amount of fiber, wood, or carbon that can be stored in the forest. 
Carrying capacity is determined by site quality, climate, and to a 
lesser degree the current species mix.
    Tree growth, competition, and death are governed by known ``laws'' 
that have withstood the rigors of scientific investigation for the past 
66 years. For example, we have the -3/2 power law (Reineke 1933) which 
identifies how trees compete, when competition will begin, and when 
mortality will occur as trees grow, age, and fill the site. Using that 
law we can characterize each forest site's carrying capacity, or 
maximum site occupancy, which is largely a function of soil quality and 
climate in addition to some interaction with species physiology. Once 
forests mature, without major disturbances like wind, fire, or insect 
outbreaks, they fully occupy the site and competition between trees 
begins. As the forest gets older, eventually growth and mortality reach 
equilibrium as the trees respond to the resource limits inherent in 
their site. In effect when a forest stand is mature, it occupies the 
site at or near maximum carrying capacity. Carrying capacity has 
historically been measured in tree volume which can easily be converted 
to biomass and to carbon equivalents. Thus we can estimate the carbon 
carrying capacity of any forest by understanding the limits of any 
particular regions soils and climate.
    Once forests reach their site's carrying capacity there is enormous 
stress on the living trees which manifests itself in insect outbreaks 
and disease, culminating in the death of some or all of the trees on 
site. The mountain pine beetle (MPB) epidemic in western North America 
epitomizes how existing stressors (forests at or above site carrying 
capacity) interact with subtle shifts in climate to create 
unprecedented mortality on our National Forest Lands. The spruce bark 
beetle epidemic in Alaska is another example of the same impact in a 
different ecosystem. Climate change is impacting our western forests 
now. It is not a future possibility or probability.
    So what happens when forests are old, the site is fully occupied--
at or near carrying capacity--and the climate changes? When we get less 
precipitation, the soils dry out sooner. These dry soils combined with 
the hotter and drier summers we have experienced for most of the past 
nine years in the Inland West have effectively reduced carrying 
capacity. This generates enormous stress on the trees and you get a 
pulse of mortality. The mortality agent that is causing the greatest 
impact is the mountain pine beetle (MPB)--a native insect that kills 
all pine species found in the western US. The MPB prefers to attack old 
and stressed trees, and our National Forests are full of old trees. 
When summers are sufficiently hot and dry enough for these old trees to 
become stressed, it is a precursor to a population build-up of MPB 
which eventually manifests as an epidemic outbreak. Since 2000, we have 
experienced a massive West-wide epidemic that has affected a large 
percentage of the native pines in Washington, Oregon, Idaho, Montana, 
Wyoming, Colorado, Utah, New Mexico, Arizona, and California and as far 
east as South Dakota. A relative of the mountain pine beetle, the 
spruce beetle, has wrought similar impacts on spruce forests in Alaska. 
There are pictures in your packet that show the extent of mortality 
from MPB epidemics across several states where the dead and dying trees 
are releasing rather than sequestering carbon. Recent research has 
identified the tipping point that lead to these mountain pine beetle 
and spruce beetle outbreaks as a shift in climate (Carroll et al 2003, 
Oneil 2006, Berg et al 2006) but that shift in climate acts in concert 
with current stand conditions to create the outbreaks that are 
devastating our forests at the present time. In short, climate change 
impacts in our western forests are a very serious current reality not a 
future probability.
    In the mid-1990's I was a field forester dealing with MPB and 
spruce bark beetle (SBB) outbreaks on a regular basis. We did not know 
it was a climate impact until much later when research scientists, 
including myself, began to analyze the data and realize that the 
predictors for these huge mortality events were not necessarily found 
in the beetle/tree dynamics as had been studied for the prior 30 years, 
but in the climate. Only in hindsight were we able to see how subtle 
shifts in average temperature and precipitation masked critical 
thresholds in winter temperatures in northern latitudes, and extreme 
summer moisture deficits in more southerly latitudes that tipped the 
balance in favor of the insect over the trees that were its host. 
Crossing those threshold values for temperature has led to massive MPB 
outbreaks in the Inland West at a scale unprecedented in our 
experience.
    Wildfire ignition is random, but the consequences of wildfires are 
driven by climate, and prevailing weather and forest conditions. 
Forests that have reached maximum carrying capacity, and which contain 
large amounts of dead trees, produce conditions for wildfires that are 
uncontrollable, with devastating consequences to the forest, the 
adjacent communities, and the budgets of land management agencies.
    One consequence of large mortality events associated with MPB 
outbreaks are devastating and unnatural wildfires that are next to 
impossible to control. While lightening ignites wildfires more or less 
randomly, the likelihood of those ignitions producing large 
uncontrollable fires that kill most or all trees in their path is 
highly correlated with the underlying forest condition. High levels of 
prior mortality from MPB were found to increase the likelihood of stand 
replacing fires during the 1988 Yellowstone wildfire event (Lynch et 
al. 2006); a result that is also supported by anecdotal evidence from 
the 2006 Tripod Complex fire that burned over 350,000 acres of National 
Forests in Washington State's East Cascades within a fire perimeter of 
approximately 400,000 acres. The fire perimeter for the Tripod Complex 
had approximately 100 forest inventory and analysis (FIA) plots that 
comprise the national forest census of which 70% had substantial MPB 
impact in the prior 5 years (Oneil unpublished data). This fire was 
estimated to emit 2.1 million tons of carbon dioxide into the 
atmosphere or the equivalent to the emissions of 1 million Sport 
Utility Vehicles (SUV's) for 1 year (Mason 2006).
    High levels of insect attack are not the only precursor to the 
largely uncontrollable wildfire events of recent years. Dense forests 
with multi-layered canopies, large amounts of dead wood, and thick 
understory vegetation make fire control difficult or impossible under 
all but the most benign weather conditions. The federal forests of the 
Inland West are dominated by forests with extensive mortality from MPB 
and SBB and/or have these dense forest canopies as a result of 50 years 
of fire suppression making them highly susceptible to uncontrollable 
wildfires.
    Wildfires generate enormous releases of carbon dioxide and other 
greenhouse gases. From 2002-2006 wildfires across the entire US, 
including Alaska, released the equivalent of 4-6% of the US 
anthropogenic emissions for that same period. The average yearly 
emissions from the California wildfires alone were equivalent to the 
emissions of 7 million cars/year for each year from 2001-2007. Extreme 
fire conditions can render sites infertile or incapable of regenerating 
future forests, which effectively leads to deforestation.
    The carbon released to the atmosphere from increasingly large, 
uncontrollable wildfire events exceeds our efforts to mitigate 
emissions. Widenmeyer and Neff (2007) found that the average 
CO<INF>2</INF> emissions from wildfire from 2002-2006 were 213 Tg/yr 
for the lower 48 states with an additional 80 Tg CO<INF>2</INF>/yr 
emitted from Alaska's wildfires which is the equivalent to 4-6% of 
anthropogenic emissions for those years. In Alaska there are double the 
CO<INF>2</INF> emissions from wildfires than there are from human 
fossil fuel emissions; in Idaho the CO<INF>2</INF> emissions from 
wildfires are 93% of those from fossil fuels; and in Montana wildfire 
emissions are 43% of the emissions from human fossil fuel use based on 
2002-2006 fire occurrence.
    Analysis of California wildfires from 2001-2007 calculates that 277 
million tons of CO<INF>2</INF> were released by fires and the ultimate 
decay of the dead trees (Bonnicksen 2009). This is equivalent to the 
emissions from 7 million cars each year over those 7 years or about 
half of the registered cars in the state. The figures highlight how the 
cost of wildfires are much more than just the direct cost of fighting 
fires, the impacts on communities, human health, and loss of 
infrastructure. There is an immediate CO<INF>2</INF> emissions cost to 
wildfire with subsequent CO<INF>2</INF> emissions from decay that are 
larger than the fire emissions. Of the 882,759 acres of land where all 
trees were killed during the California wildfires, an estimate of 86% 
of the land affected (762,000 acres) will not be reforested with any 
substantial tree cover within the next century because of regeneration 
failures (Bonnicksen 2009). This means that the CO<INF>2</INF> 
emissions from fires are compounded by the loss of CO<INF>2</INF> 
sequestration capacity from regenerating forests. The burnt forests are 
not being replanted and there is little chance for re-establishment of 
sufficient future forests to offset these emissions without substantial 
investment in replanting, stand tending, and management. In short, 
wildfire in these harsh dry environments is creating deforestation just 
when we most need that tree growth to offset carbon emissions from 
other sources. As with the MPB climate thresholds that have only been 
identified within the past decade, there may well be a threshold value 
that we have not identified yet wherein large areas of current forest 
become shrub land with much diminished capacity for carbon 
sequestration because of regeneration difficulties.
    As a consequence of successful fire prevention for the 50 years 
prior to 2000, national census data (FIA) indicate that at present we 
are storing about double the carbon per acre on federal lands than on 
actively managed private forests in the Inland West (Oneil et al in 
review). But we are also burning more acres of federal land than non-
federal land. For example 89% of the acres burned in Washington State 
since 1995 have been on federal lands which make up 53% of total 
forested acreage. These comparisons are for eastern Washington where 
over 90% of our wildfires occur.
    We know that growing trees is the best carbon mitigation tool we 
have to transfer atmospheric carbon into sequestered carbon that 
reduces greenhouse gas concentrations. Trees are the most efficient 
plants for carbon capture with low demand for water and nutrients 
relative to the carbon uptake they perform. They also actively 
sequester enormous amounts of carbon relative to other kinds of crops 
because of the large amount of above ground biomass. Pacala et al. 
(2001) estimated that 20-40% of all terrestrial carbon sequestration in 
the United States occurred in western forests. Because of the 
significant role of trees in forest carbon sequestration, broad scale 
tree mortality can turn the forest from a net carbon sink to a net 
carbon source. Increases in wildfire frequency and intensity that 
release stored forest carbon could result in western forests becoming a 
source of carbon rather than a sink (Westerling et al. 2006). In 
British Columbia, Canada, which is experiencing perhaps the largest 
mortality event from MPB in all of western North America, the forests 
are now net carbon sources because of the level of mortality (Kurz et 
al. 2008). While we think the western US forests are still acting as 
net carbon sinks, the cumulative impacts of MPB outbreaks and wildfires 
on the carbon budget are substantial and growing every single year.
    If we apply the precautionary principle, the most risk adverse 
option we have at the present time is to thin at risk forests to reduce 
wildfire impacts, reduce insect mortality, and build health and 
resilience against extreme climate conditions that these forests are 
expected to face in the near future. The cut material can be used as 
biofuel feedstocks to support energy independence goals and meet 
renewable fuel and electricity standards. Even greater carbon benefits 
are possible if the cut wood is used in green building construction. 
Using life cycle analysis we can identify optimal carbon sequestration 
and storage options that include forests as part of the broader matrix 
of national carbon accounts; failure to account for the carbon 
interactions beyond the forest can lead to counterproductive policies.
    Fire impacts can be substantially reduced by thinning treatments 
that restore densities more like those observed before fire suppression 
was introduced. Multiple studies have shown that thinning reduces fire 
severity, sufficient for firefighters to gain control and maintain 
forest structure, tree seed source, and other values (e.g. Agee and 
Skinner 2005, Moghaddas 2006, Skinner et al. 2004). After the 2002 fire 
year, which in hindsight was relatively mild, Dr. Jerry Franklin 
(ecologist) and Dr. Jim Agee (fire scientist) from the University of 
Washington offered their perspective on the need for a rationale 
national forest policy that incorporated ecology, fire science, known 
benefits of treatment and social benefits. Their perspective is that 
``Letting nature take its course in the current landscape is certain to 
result in losses of native biodiversity and ecosystem functions and 
other social benefits. . .'' (Franklin and Agee 2003).
    Coupled with the impacts of current wildfire extent and severity is 
the very real risk of dramatically increased wildfire extent in the 
near future as a result of further summer warming and drought. Climate 
impact studies across the west have identified that future climate will 
likely double wildfire extent in most areas (McKenzie et al 2004, 
Littell et al 2009) with some areas experiencing a tripling of the 
current acres burned which will interact with current forest conditions 
to increase CO<INF>2</INF> emissions from wildfire in the near future. 
The projected climate impacts, including hotter drier summers, earlier 
snowmelt with subsequent reduced summer moisture (Westerling et al. 
2006), and increasing summer moisture deficits which portend 
substantial changes in regeneration success at the current forest 
margins (Littell et al 2009).
    Managing federal forests to address the need for increased carbon 
sequestration and storage, reduced carbon emissions, and adaptation 
requires an integrated approach that considers the inherent carrying 
capacity of the land, the fire regime for a specific region and forest 
type, and societal benefits at local, regional, and national scales. 
Reducing forest carbon inventories to bring them in line with new 
estimates of carrying capacity is necessary to increase resilience in 
the surviving trees, and reduce risks of further mortality from the MPB 
and other insects. If designed with multiple goals in mind, thinning 
treatments can also provide better options for wildfire control, 
restore forest structure, maintain critical habitat, and adjust for the 
overstocking that has occurred because of 50 years of fire suppression. 
Optimal thinning strategies will vary by region, forest type, and fire 
and insect risk. In ecology, one size does not fit all: the kinds of 
treatments needed in the dry interior west to address climate change 
and carbon storage are quite different than what is needed at high 
elevations or in coastal forests. Using local expertise coupled with 
grass roots input from concerned citizens can ensure that the 
activities are sustainable over the long term. The result can be at 
least a triple win scenario with improved habitat, reduced carbon 
emissions and avoided future wildfire fighting costs.
    Paying for these management interventions to reduce fire severity 
and risk, and to reduce forest densities so as to reduce stress on 
remaining trees, is a challenge during our current budgetary crisis. 
There is a huge opportunity to use the material that must be removed 
from Inland West federal forests to allow them to adapt to climate 
change. That excess material is a carbon dense renewable feedstock that 
can be used for meeting energy independence goals under EISA (2007), 
the renewable fuels standard (RFS) and/or the renewable electricity 
standard (RES).
    Thinning forests can offset carbon emissions from fossil sources if 
used for energy production either by producing liquid transportation 
fuels or electricity generation. Based on life cycle analysis conducted 
to ISO 14044 standards, CORRIM has found that an even better choice 
from a carbon perspective is to produce products that store carbon and 
substitute for fossil energy intensive products made of steel or 
concrete (Perez-Garcia 2005, Milota et al 2005). For example, a ton of 
wood in engineered wood floor joists displaces 7 tonnes of 
CO<INF>2</INF> emissions when substituted for a steel floor joist. This 
is approximately 7 times more beneficial from a carbon accounting 
perspective than burning the wood for energy. CORRIM is currently 
conducting additional life cycle analysis of woody biomass for an array 
of bio-fuels, processing technologies, and material inputs to determine 
the optimal uses of these renewable fuel feedstocks from a carbon 
perspective.
    As climate change and carbon sequestration are global issues, 
accounting for only the carbon interactions in the forest without 
consideration for the wildfire impacts, the ultimate use of potential 
forest products that can be removed to reduce fire and insect impacts, 
and current and future societal needs for energy and building products 
is like a bank measuring only debits without consideration for credits. 
Losing the carbon that trees sequester to insect epidemics and wildfire 
under the guise of naturalness or the precautionary principle, not only 
emits carbon, particulates, and other greenhouse gases to the 
atmosphere, it is a lost opportunity to store that forest carbon in 
buildings where the risks of wildfires are largely absent. It is also 
occurring at a time and on a scale where the increasing rate of 
CO<INF>2</INF> emissions portends a threshold, or tipping point, that 
may exacerbate current disturbance trends and subsequent opportunities 
for management, sequestration, and fire control. In essence, forest 
thinning operations that reduce fire severity and risk are the most 
risk adverse option we have at our disposal at this time.
    Grassroots initiatives aimed at addressing forest health, wildfire, 
insect outbreaks, and sustainability on federal lands have begun. The 
goals of removing excess fuels and dead trees for use in bioenergy 
projects while generating economically viable and sustainable jobs in 
rural communities and maintaining sustainable ecosystems are laudable. 
Policies are needed that integrate the knowledge and trust built by 
local initiatives, support national renewable energy goals, and 
recognize the inherent ecological carrying capacity of the land and how 
it might alter under changing climatic conditions.
    As a forester, there is nothing worse than losing your stands to 
insect attack or fire and in the process losing all the values 
cherished by your local rural community. If the nearby federal forests, 
under the guise of naturalness, are not managed, except to suppress 
fires when they threaten structures, private and other public 
landowners have no control in preventing the insect invasions and 
wildfires that start on federal lands but then spread to nearby private 
and state lands with equally costly and devastating impacts. The degree 
of interest in the topic of federal land management to reduce these 
impacts and risks along with the potential to provide resources for 
bioenergy initiatives is substantial. Recently a large constituency 
spent three days discussing the issues around biomass utilization in 
their communities and their region at the Plum Creek Conference on 
Forests and Energy at the University of Montana. As a speaker at that 
conference I was thrilled to see the level of interest, integrity, 
care, and sincere appreciation for the complexity of the task ahead. No 
one wants to see another `timber war' or extractive industry with 
little thought to long term sustainability of the federal lands in 
their region. But neither do they want to see their backyard go up in 
flames as the forests around them succumb to MPB and then burn as they 
were during the conference in September. This fire was particularly 
notable as it burned vigorously despite record breaking rainfall during 
the prior month.
    Many members of the audience at that conference were already 
working diligently with local USFS managers to devise plans that would 
produce not only sustainable forests, but sustainable livelihoods for 
local people. In the process they are building trust, crafting 
community, and with the appropriate top down policies that recognize 
the need to manage these forests and make a living, they will also be 
able to provide renewable energy that will help to meet the energy 
needs and greenhouse gas reduction goals outlined in federal policy.
                                summary
    We have experienced a decade of unprecedented mortality in our 
western forests, and much of that mortality is concentrated on federal 
lands. Broad scale mortality means that forests are emitting carbon 
rather than sequestering it, thus exacerbating our current greenhouse 
gas emissions profile. The current rate of mortality is unsustainable 
and may well lead to a tipping point wherein additional uncontrolled 
damage can be expected. It is doubtful that any one scientist or group 
of scientists has any idea where that tipping point is and what 
reaching it might cause. With policies and management approaches that 
pull us back from that brink by reducing risk and building resilience 
we can ensure that these forests remain a part of our heritage and 
serve a vital role as carbon sinks into the future.

    Senator Wyden. We will have some questions----
    Senator Risch. Mr. Chairman, I have to go to an Ethics 
Committee meeting----
    Senator Wyden. Would you like----
    Senator Risch [continuing]. Because we have a vote at 4 
o'clock. I have a question for Dr. Law and Dr. Oneil. I'm going 
to state it, but they can answer it after Mr. Wood's testimony, 
and I'll get it from the record.
    But, they both touched on the question of the balance of 
uptake versus production of carbon, and I was wondering if they 
agreed with Chief Tidwell's assessment, or his statement, of 
the fact that the lands were--we were in a 12-percent-positive 
situation, as far as taking up carbon that is produced. I'd 
like your comments on that, or any other statistical 
information you can give me in that regard.
    Senator Wyden. Why don't we--if Mr. Wood doesn't have any 
objection, why don't--Senator, I think it's a very important 
question. Dr. Law, Dr. Oneil, what--if you could, can you give 
a response to the Senate now, and perhaps furnish anything 
extra in writing?
    Dr. Law.
    Senator Risch. Mr. Chairman, I really apologize, but I've 
got to----
    Senator Wyden. Oh.
    Senator Risch [continuing]. Vote right at 4 o'clock.
    Senator Wyden. Oh, I see.
    Senator Risch. So, I'm going to have to run.
    Senator Wyden. OK. We'll get it in writing.
    Senator Risch. I apologize for that, and I'll pick up Mr. 
Wood's statement out of the record. I would just note, for the 
record, that Mr. Wood is here, purporting to be a 
conservationist, but I know for a fact that he's been 
attempting to make the elk extinct in my State, one animal at a 
time, for a number of years.
    [Laughter.]
    Senator Risch. So, in any event, thank you, Mr. Chairman, 
and I will pick this up out of the record.
    Senator Wyden. Thank----
    Senator Risch. Thank you very much.
    Senator Wyden. Thank you, Senator.
    Senator Risch. Thank you. I apologize, Chris; I've got to 
run.
    Senator Wyden. Mr. Wood.

  STATEMENT OF CHRISTOPHER A. WOOD, CHIEF OPERATING OFFICER, 
                 TROUT UNLIMITED, ARLINGTON, VA

    Mr. Wood. Thank you, Chairman Wyden. Good to see you, 
Senator Risch.
    I appreciate the opportunity to provide Trout Unlimited's 
views on managing public forests in response to climate change.
    Public lands are crucial sources of drinking water for more 
than 60 million Americans. They provide vital habitat for fish 
and wildlife, and a host of other social and economic benefits. 
These lands can play a key role in preparing natural resources 
and human communities for the impacts of climate change.
    Others here today, and my written testimony, cover how 
climate change is likely to impact our national forests, with 
an emphasis on coldwater fisheries, which is our bias at Trout 
Unlimited. I'd like to spend my time describing a policy 
framework within which these problems can be solved if we act 
quickly.
    A healthy watershed performs three basic functions. It 
catches, stores, and releases water over time. Healthy 
watersheds are better equipped to withstand the predicted 
effects of climate change--the more intense fires, the 
prolonged drought, the more intense floods that we're 
anticipating. The problem is that many of our lands and waters 
are already under stress. Climate change adaptation may be most 
simply defined as repairing the damage and helping the land to 
recover its natural resiliency.
    Former Forest Service employee Alda Leopold once described 
the oldest challenge in human history as to live on a piece of 
land without spoiling it. Leopold's challenge became a 
motivation for the wilderness movement and a host of other 
environmental activity over the past 25 years. The effects of 
climate change challenge traditional methods of land 
protection, as fires, floods, and droughts won't stop at 
wilderness borders.
    The Forest Service and the BLM should develop integrated 
landscape-level strategies to protect, reconnect, and restore 
resilient watersheds for the benefit of human communities and 
natural resources.
    First, we must protect the highest quality lands and 
waters. In a warming climate, national forests, particularly 
roadless areas, are thermal refuges. Protecting these lands 
protects fish and wildlife, maintains groundwater recharge, and 
reduces the costs of filtering and treating water for 
communities downstream.
    Second, we must reconnect landscapes. Because it is not 
enough to manage protected lands as museum pieces, we must 
reconnect them, both upstream and downstream. Protecting 
instream flows in important wildlife corridors and allowing 
rivers to access their flood plains will recharge aquifers, 
minimize the potential for downstream flooding, and improve 
soil productivity for farmers and ranchers.
    Third, we must engage communities in restoration. Restoring 
the ability of watersheds to withstand the effects of climate 
change is essential. Thinning bug-killed forests near 
communities, for example, has been mentioned, can generate 
biomass and protect communities from fire, while also securing 
high-paying family wage jobs.
    This model of protecting, reconnecting, and restoring 
landscape and watershed health should be used to guide 
development of the Forest Service's proposed planning rules. It 
should provide the rationale for protection of roadless areas. 
It should drive the thoughtful siting of transmission lines for 
renewable energy, and reform of outdated oil and gas 
regulations. It should influence implementation of farm-bill 
conservation programs on privately owned forests.
    I'd like to close with an example of how this approach can 
work. In 2009, thanks to your leadership, Mr. Chairman, 15,000 
acres of the headwaters of the Elk River in southwestern 
Oregon, with some of the finest salmon and steelhead runs in 
the Lower 48, was designated as wilderness. However, more than 
a mile of outstanding habitat in Blackberry Creek, a tributary 
to the Elk, is blocked by an impassable culvert. Inadequate 
funding has prevented the Forest Service from replacing that 
culvert. Plugged culverts are a ticking timebomb across the 
national forest system right now. They must be repaired.
    Funding this type of work is vital. Dedicating 5 percent of 
the total allowance values of revenues under climate change 
legislation to the type of natural resource adaptation work I 
just described is essential. The actions described above are 
not inexpensive, but they also create jobs and have a very high 
likelihood of success. The time to act is now. Public forests 
are national treasures that are irreplaceable in our lifetime.
    Thank you for the opportunity to be here.
    [The prepared statement of Mr. Wood follows:]
  Prepared Statement of Christopher A. Wood, Chief Operating Officer, 
                     Trout Unlimited, Arlington, VA
    Chairman Wyden and members of the Subcommittee, I appreciate the 
opportunity to appear before you today to provide my views as Chief 
Operating Officer for Trout Unlimited (TU) on managing public lands in 
response to climate change. Prior to working for TU, I served as the 
senior policy and communications advisor to the Chief of the US Forest 
Service, and on the fish and wildlife and ecosystem management staffs 
for the Bureau of Land Management.
    Public lands are crucial sources of drinking water for well more 
than 60 million Americans. They provide habitat for fish and wildlife 
species of substantial economic, ecological, and spiritual value. 
Public lands also provide wood fiber, energy resources, and other 
commodities that help to fuel our nation. These lands can also play a 
key role in preparing natural resources and human communities for the 
impacts of climate change. I appreciate your concern in addressing this 
issue in a timely manner.
    Trout Unlimited is dedicated to the protection and restoration of 
our nation's trout and salmon resources and the watersheds that sustain 
them. TU has more than 140,000 members in 400 chapters across the 
United States. Our members generally are trout and salmon anglers who 
give back to the waters they love by contributing substantial amounts 
of their personal time and resources to fisheries habitat protection 
and restoration. The average TU chapter, for example, donates 1,300 
hours of volunteer time on an annual basis.
    In my testimony today, I would like to focus on three major points.
    First, I will briefly describe how climate change is likely to 
impact our National Forests and public lands. These impacts already are 
being felt across the country and will become more pronounced and 
severe in coming years.
    Second, I will describe how these impacts are likely to affect 
natural resources and the people and nearby communities that use these 
resources. It is important to recognize that a broad spectrum of user 
groups will be impacted and that the risks are not just restricted to 
fish, wildlife, rivers, and forests.
    Third, I will describe a policy framework within which these 
problems can be solved--if we act quickly, and in concert. I will 
provide specific examples of what needs to be done and how to do it. If 
we fail to act, costs will be considerable and our National Forests and 
other public lands will be irreparably harmed.
     impacts of climate change on national forests and public lands
    The effects of a changing climate are already being felt on public 
lands in the form of intense wildfires, drought, proliferation of 
invasive species, and earlier spring runoff. As climate change 
continues, it is likely to alter weather patterns and storm events 
across the United States dramatically with significant negative 
consequences for National Forests and other public lands. A general 
warming pattern will result in increased evaporation rates and drying 
of forest and grassland vegetation. These effects will increase 
wildfire intensity and frequency, especially at mid-elevations. In 
turn, as we are now seeing throughout the Rocky Mountain West, these 
changes will spark surges in forest pest species and invasive weeds, 
triggering a cascade of further alterations in natural ecosystems.
    River flows and hydrologic regimes also will be altered, with 
consequences not only to fisheries but also to water supplies in 
general. More winter precipitation will fall in the form of rain than 
snow, especially at lower and mid-elevations. This will reduce snowpack 
and increase the probability of rain-on-snow events, likely resulting 
in increased winter flooding. With more rain during winter and reduced 
snowpack, peak stream flows will occur earlier in the spring and low or 
base flows during summer and autumn will be reduced. Stream flows will 
be less consistent from year to year.
    Overall, storm intensities will be greater. Floods, drought, and 
wildfires are all likely to increase. The increased variability and 
longer duration of wet cycles and dry cycles will cause considerable 
additional stress to natural ecosystems.
    In all cases, impacts of climate change on federal lands must be 
viewed within the existing management context and conditions of natural 
systems. Watersheds, riparian systems, and streams that are in better 
condition will be more resistant to disturbance and more likely to 
rebound quickly. On the other hand, habitats that are degraded and 
fragmented will be less able to adapt to climate change risks.
 natural resources, user groups, and communities will be substantially 
                                impacted
    Trout Unlimited and our members are especially concerned about the 
impacts of climate change on coldwater fishes and the habitats that 
support them. We also are concerned about impacts to the recreational 
pursuits, such as fishing, hunting, camping, and nature watching, for 
which our public lands are well known. However, we also realize that 
the impacts from climate change will be felt far more broadly.
    The affects of climate change on federal lands is likely to 
negatively impact many natural resources, user groups, and communities, 
creating problems for:

  <bullet> Drinking water supplies--both quantity and quality
  <bullet> Fisheries
  <bullet> Wildlife
  <bullet> Overall biological diversity
  <bullet> Outdoor recreational opportunities
  <bullet> Livestock grazing, timber harvest, and other resource 
        extraction
  <bullet> Agriculture
  <bullet> The safety and economic well-being of nearby communities

    In short, a very broad range of species, people, and communities 
will be under increasing risk unless we take immediate proactive 
management actions to prepare. The costs of failing to adequately plan 
and prepare will be high, and will be measured in substantial economic 
costs to fight large wildfires, deal with multi-year droughts, and 
repair damage from broad scale floods, and possibly in increased injury 
and loss of life.
    While it is critically important that we reduce carbon emissions in 
order to stave off the worst future affects of climate change, we must 
also realize that climate-driven disturbances will be felt on our 
national forests and public lands for decades to come. It equally is 
important to realize that we can moderate the impacts of these changes 
and reduce stress on our natural resources and adjacent human 
communities.
                      responding to climate change
    Federal climate change legislation that takes five percent of the 
total allowance value from a cap and trade program and dedicates it for 
climate change adaptation work is vital.
    It is, however, well within the existing mandates of agencies such 
as the Forest Service and the BLM to develop climate change adaptation 
strategies to protect, reconnect, and restore resilient landscapes for 
the benefit of human communities and natural resources. The statutory 
authority to protect watersheds, flows, and water resources is well 
spelled out in the Organic Act of 1897, the Multiple Use Sustained 
Yield Act, the National Forest Management Act, the Federal Lands Policy 
and Management Act, and other federal land statutes. In fact, one could 
argue that not making the recovery of healthier, more productive, and 
more resilient landscapes a central focus of federal land management 
would place federal agencies in violation of their organic or governing 
federal statutes.
    Federal land management agencies should not wait for the passage of 
climate change legislation to implement strategies to recover the 
resilience of lands and waters. Here's what the Forest Service, and 
other federal land managers, can do to lead on climate change 
adaptation (see graphic below).*
---------------------------------------------------------------------------
    * Graphic has been retained in subcommittee files.
---------------------------------------------------------------------------
    First, protect the highest quality lands and waters. In a warming 
climate, national forests, and particularly roadless areas, are thermal 
refuges. Protecting these lands protects fish and wildlife, maintains 
groundwater recharge, removes carbon dioxide from our atmosphere, and 
also reduces the costs of filtering and treating water for downstream 
communities. Private ranch-lands also harbor important big game 
habitats, many of which are threatened by development. The departments 
of Agriculture and Interior should work with landowners and provide 
incentives to those who help conserve highvalue lands.
    Second, reconnect landscapes. If fish and wildlife habitats are 
fragmented, the species they support they won't survive floods, fire 
and drought predicted to increase with climate change. Identifying and 
protecting important wildlife corridors on public lands and allowing 
rivers to access floodplains are not only good for fish and wildlife; 
it's good for human communities. A healthy landscape will recharge and 
replenish underground aquifers that supply municipal drinking water, 
minimize the potential for downstream flooding, filter pollutants and 
improve soil productivity for farmers and ranchers.
    Third, engage communities in restoration. Recovering the ability of 
our lands to withstand the effects of climate change is essential. 
Reconnecting people, children and communities to the landscapes that 
provide their food, energy resources, and recreation opportunities is 
important to our nation's well being. Restoration activities such as 
tree planting, trail maintenance, and river clean-ups improve 
ecological resiliency and bind us to the lands and waters that sustain 
us.
    This model of protecting, reconnecting, and restoring landscape 
health should be applied through the Forest Service's proposed new 
planning rules. They should, for example, 1) protect the highest 
quality habitats and highest quality sources of water; 2) ensure that 
land management activities do not impede wildlife migration corridors, 
degrade streamside areas, and disrupt natural processes; and 3) 
emphasize the restoration of degraded landscapes where restoration 
activities will yield the highest return.
    Protecting, reconnecting, and restoring landscapes describe the 
biological imperative of climate change adaptation. The social 
imperative is to sustain these efforts over time. The greatest threat 
to National Forests and other public lands may lie in public ignorance 
of their extraordinary values and a generation of children more 
connected to video games and computers than they are to the lands and 
waters that sustain them. Investing in youth education and getting kids 
out of doors is vital to building tomorrow's constituency for 
conservation.
    Watersheds that are in better condition are more able to withstand 
disturbances, or if disturbed, are more resilient to damage from the 
disturbances. Areas that may be especially important to protect include 
roadless areas, and other unroaded lands, habitat currently acting as 
native population strongholds, and areas of watersheds that produce 
high quality supplies of cold water.
    The economic benefits to our communities of a Forest Service and 
other federal agency agenda that stresses climate change adaptation 
cannot be overstated. Benefits include high-wage jobs in rural areas 
that most need them. Reducing hazardous fuels within our forests will 
also reduce the cost of fire fighting and make communities safer. Cut 
trees and brush also could be utilized as biomass, offsetting demand 
for oil and gas.
    Coordination is important. The White House should issue guidance to 
provide the federal agencies with a policy framework that defines how 
protecting, reconnecting, and restoring landscapes will be coordinated 
with state and federal agencies and interested private partners. Such 
an integrated and landscape scale approach to conservation will ensure 
that fish and wildlife resources and human communities can cope with a 
changing climate. Connecting public land efforts with associated 
private lands will also be essential. For example, incentives should be 
given to private landowners participating in Farm Bill conservation 
programs with projects that protect, reconnect, or restore watershed 
health and function.
    Below are specific areas that the Forest Service and other federal 
agencies should emphasize in managing for healthier, more resilient 
lands and waters.

          Water resources and water quantity.--To help protect water 
        supplies and maintain stream flows, the Forest Service and BLM 
        should emphasize the restoration of high elevation wet meadows, 
        wetlands, riparian areas, and floodplains. These habitats act 
        as natural hydrologic sponges that slow water discharge and 
        recharge groundwater aquifers, which in turn increases dry-
        season stream flows. The proper function of these habitats will 
        be increasingly important as snowpacks diminish.
          Water quality.--To protect water quality, agencies should 
        designate adequately sized streamside--riparian--buffer zones 
        and adopt management standards that emphasize aquatic system 
        protection. These riparian zones should be large enough not 
        only to provide shade to streams, but also to buffer from 
        upslope erosion and allow fallen trees to enter the stream 
        channel providing the complex stream habitat critical to 
        aquatic species. As stated earlier, protecting water quality in 
        headwater streams such as roadless areas serves to diminish 
        downstream drinking water filtration and treatment costs. 
        Agencies also should protect landslide prone areas. Inadequate 
        protection of these areas will increase siltation and erosion, 
        which will degrade stream systems, water supplies, and 
        fisheries.
          Flooding.--To help guard against flood damage, agencies 
        should reconnect rivers to their floodplains. That is, rivers 
        should not be confined into narrow channels but rather allowed 
        access to broader floodplains. We also should seek to restore 
        floodplains and streamside vegetation. These measures transfer 
        flood energies into well-vegetated floodplain zones while 
        dissipating flows and protecting soils from erosion. In 
        addition, federal agencies should improve culverts and other 
        stream/road crossings, and decommission poorly maintained or 
        poorly designed roads. Inadequately sized or designed culverts 
        and poorly maintained road/stream crossings act like time bombs 
        that will plug up then blow out during intense storms causing 
        massive landslides and debris flows. Severe flooding has 
        substantial consequences not only to fisheries and wildlife, 
        but also to downstream communities and recreation 
        opportunities.
          Invasive species.--Weedy and invasive species are more likely 
        to flourish in degraded habitats and to be favored during 
        highly fluctuating environmental conditions. Some invasive 
        species will spread more quickly during warming trends and will 
        cause greater harm and be more expensive to control if left 
        untreated. To better manage invasive species, we should become 
        more aggressive in programs to detect new species invasions and 
        in programs to control established exotic species--both 
        terrestrial invasive weeds and aquatic non-native species.
          Biodiversity.--To prevent the loss of plant and animal 
        diversity, lands and waters should be managed to provide 
        adequate habitat to support native species. Agencies should 
        manage to protect genetic diversity, including weak stocks and 
        peripheral populations. High levels of genetic, life history, 
        and ecological diversity will be necessary for species to adapt 
        to rapid environmental change.
          Wildfire.--Wildfires are increasing in western forests 
        because of reduced snowpack and earlier vegetative drying 
        during summer. To deal with more frequent and intense 
        wildfires, agencies should selectively thin forests, primarily 
        in wildland-urban interface zones and plantations. To prepare 
        aquatic systems, we also should improve road networks and 
        stream crossings, restore up-and downstream connectivity, and 
        recover degraded riparian areas. Finally, we should adopt 
        strong post-fire logging standards that protect soils and 
        stream systems while providing for adequate recruitment of 
        large wood to streams. These actions will result in less 
        wildfire damage and decreased erosion and stream sedimentation. 
        Riparian habitats, old growth and mature forests, and unroaded 
        areas should be protected as well because these are the most 
        fire resistant habitats.

    The Elk River watershed along the Oregon coast offers an example of 
how protection of intact habitat and reconnection of migration routes 
can help improve the resiliency of a watershed in the face of climate 
change. In 2009, thanks to your leadership, Mr. Chairman, the 15,000 
acre Copper-Salmon area in the Elk River headwaters was designated as 
wilderness. This will help maintain water quality and intact spawning 
habitat for one of the healthiest salmon, trout and steelhead rivers in 
the lower 48.
    Intact headwaters help moderate streamflow, maintain water quality, 
and keep water temperatures cool, which is particularly important to 
coldwater species such as trout and salmon. Downstream of the Copper-
Salmon area, trout and salmon access to Elk River tributaries is 
limited by impassible culverts. One such culvert is on Blackberry 
Creek. It restricts access to more than a mile of upstream spawning and 
rearing habitat for steelhead and Chinook and coho salmon. Furthermore, 
the headwaters of Blackberry Creek, like most streams, are cooler in 
the summer than the downstream reaches. The ability of trout and salmon 
to access these cooler upstream waters can be of critical importance 
during the summer. To date, the Forest Service has not been able to 
replace the Blackberry Creek culvert due to inadequate funding. Similar 
barriers to fish passage exist across the National Forest system and 
must be addressed in order to improve the resilience of coldwater fish 
populations in the face of climate change.
    Implementing the actions needed to enable fish, wildlife and human 
communities to adapt to changes in climate will require a substantial 
and reliable stream of funding. Dedicating a portion of allowance 
revenue under climate change legislation to natural resources 
adaptation can provide funding for the type of work described above. It 
is our hope that five percent of the total allowance value will be 
dedicated to natural resources adaptation through climate legislation. 
Furthermore, funding must be dedicated and not subject to annual 
appropriations in order to enable long-term planning. Both S. 1733 and 
S. 1933 include dedicated funding.
                               conclusion
    The actions described herein have a considerable price, but they 
also have broad benefits not only to maintaining biological diversity, 
but to sustaining the ecological services critical to meeting the needs 
of recreationists, ranchers, and other user groups, and to ensuring the 
well-being of nearby communities. The actions described are very low 
risk steps that have a very high likelihood of substantial benefit to 
multiple parties. Many create jobs as well.
    In the end it is important that we ask ourselves: What is the cost 
of inaction? What will it cost to repair damage to our National Forests 
and public lands? What will it cost in private property loss and public 
safety? It is less costly and more beneficial to address these concerns 
in the near-term than it would be to wait until increased climate 
change driven disasters befall our lands and nearby communities. The 
time to act is now. Our National Forests, National Grasslands, and BLM 
public lands are national treasures that are irreplaceable in our 
lifetimes.

    Senator Wyden. Thank you, Mr. Wood. That was very helpful.
    All 3 of you gave excellent testimony.
    Let me start with the topic of thinning. The committee has 
had a lot of hearings on the role of thinning for fuels 
reduction and ecological restoration, so we have talked at 
considerable length about where and when thinning makes sense 
from the standpoint of reducing wildfire, dealing with 
ecosystem protection. But, I think it would be helpful to get 
on the record what you think about thinning as it relates to 
carbon sequestration. This is an area that we haven't spent a 
lot of time on. Why don't we just kind of go down the row, ask 
each one of you when you think thinning makes sense, from a 
carbon sequestration standpoint, and also, as part of the 
question, your idea of how big a role carbon sequestration can 
play as part of the solution.
    Begin with you, Dr. Law.
    Ms. Law. OK. Thinning--the fuels that carry fire are the 
fuels that are--there's the continuity in the amount on the 
ground and it's the fuel ladders that get the fires up into the 
crowns. So, it has to be strategic within an area. Dry areas 
are more prone to wildfire. They were, historically burned 
infrequently--well, frequently, maybe every 12 to 20 or 30 
years, and they had less fuel buildup.
    When you're talking about carbon sequestration, it's--that 
kind of removal, if you don't know really know where the fires 
might occur, you're going to be removing more wood than will 
actually burn, because you're trying to guess where that's 
going to occur. So, you're definitely removing wood. If it goes 
up to merchantable wood, that's definitely reducing carbon 
sequestration.
    So, it would be--when I talked about being strategic, it 
behooves us to be very strategic on knowing what areas are 
going to go up in smoke.
    Again, the--what burns is primarily the small materials. 
We've found, on several fires that we've worked on, less than 1 
to 5 percent of the bold mass is actually burned, is charred, 
and that char is long-term carbon sequestration.
    Senator Wyden. How big a role? How big a role can carbon 
sequestration, in your view, play as part of a solution to the 
climate change challenge?
    Ms. Law. I think it's one of the many tools out there that 
makes sense to use. We're talking about, in the short term, 
while we change to different energy sources and carbon--less 
carbon-based energy. So, while we have carbon sequestration in 
the places that are doing a good job of storing carbon, it 
makes sense to keep that up.
    This is, again, a short-term bridge until we get things in 
place to change our fossil fuel emissions, the amount of carbon 
that's going into the atmosphere.
    The number that was asked about earlier--the U.S. Carbon-
Cycle Science Program wrote a report on the state of the carbon 
cycle for North America, and I was a coauthor on that report. 
Our estimates were around 16 percent for the total land-based 
sink as being about 16 percent of the equivalent of fossil fuel 
emissions for the country.
    Senator Wyden. You were one of the authors, so you stand 
beside that, 16----
    Ms. Law. That's the best we can do right now.
    Senator Wyden. That's a significant role.
    Ms. Law. Yes.
    Senator Wyden. OK.
    Dr. Oneil, same question. What do you think about when you 
believe thinning will make sense, from a carbon sequestration 
standpoint, and your, kind of, ballpark estimate of how big a 
role carbon sequestration can play in climate change solutions.
    Ms. Oneil. My perception of this is a little bit more 
expansive that Dr. Law's, in that I think, on these dry 
forests, we should--we could actually be expanding our thinning 
between four to five times what we're currently doing on 
national forests.
    I recently worked on a project for one of my--one of the 
organizations I work for, Coram, and we looked at the Inland 
West--portions of the Inland West, where we still had active 
harvesting operations going on, and we had active mills going 
on in that region. So, we looked at how much the current 
harvest--of the current harvest came from public lands and how 
much came from private lands under a base case. Then, we also 
looked at how much could potentially come off of national 
forestlands if we thinned the forests that were considered--
historically, would have considered low-and moderate-severity 
fire regime. That just means the forests that would have 
typically burned every 10 to 15 years, or perhaps burned in a 
mosaic in a--maybe, a 30-year--over every 30 years. So, these 
are the forests that are currently at the highest risk of being 
burned in some kind of a wildfire. So, we looked at that and 
said, on these forests, given the amount of area and the 
current amount of volume, based on FIA data--so, national 
census data--we could increase the removals from four to five 
times what we're currently doing now.
    Now, those estimates were based on essentially thinning 
from below to a target density, which was--which is currently 
accepted in most national forest plans. So, that's a fairly 
substantial increase in the amount of volume we could be--that 
could be removed.
    Then, when we think about carbon sequestration potential 
and carbon storage potential, you have to look at your 
landscape, in terms of, Where is your high risk for storage? I 
mean, all forests will sequester the forests in the west side. 
Wet forests, they sequester a lot more than the dry forests. 
They also can store it a lot longer, because they don't have to 
deal with these kinds of disturbance events.
    So, in terms of broadening the perspective or--broadening 
the boundary conditions, as it were, our work suggests that if 
you remove these products and turn them into long-lived wood 
products, augmenting the manufacturing emissions with carbon-
neutral biofuel, you can actually do almost as good or better 
than if you leave that stuff in the forest, where it has a high 
risk of burning.
    Senator Wyden. All right. Anything else, in terms of the 
potential ballpark question, that we ought to know?
    Ms. Oneil. The potential ball--I don't have a number, as 
Dr. Law did, but one of the things that--one of the numbers 
that is tossed around is that we have 20 billion board feet of 
growth in the national forests, and about 8 billion board feet 
of mortality, and 2 billion board feet of removals in a 
particular year. So, that means that, on average, if we're--if 
our growth is twice--or, basically half of it is lost to 
mortality and removals, that would suggest that it looks like a 
carbon--it's still a carbon sink, we're still doing a good job 
there. But, those numbers, if you look at specific regions--
like, we looked at Washington State--eastern Washington--as 
part of a 2007 timber supply analysis, and the FIA numbers 
there said that, well, half of the material in national 
forestlands--half of the growth was offset by mortality in 
other regions. That was before we had these big mountain pine 
beetle outbreaks starting, in 2000, where between 2000 and 2004 
we lost 9 million trees just on national forestlands.
    So, the question there, in my mind, is a little bit fuzzier 
as to whether or not we're still being a carbon source or a 
carbon sink in that particular region. But, that's specific to 
that region.
    Senator Wyden. OK.
    Mr. Wood, let's hear your thoughts on carbon sequestration, 
from the--excuse me--thinning, from the standpoint of carbon 
sequestration, and then your estimates, in terms of the 
ballpark.
    Mr. Wood. I'm afraid I'm a little bit outgunned, in terms 
of the estimates for the ballpark, so I probably won't----
    Senator Wyden. All right.
    Mr. Wood [continuing]. Won't go there, with your leave.
    I think, as Tom Tidwell--as Chief Tidwell was suggesting, 
it's difficult to segregate out what the--approaches that the 
Forest Service might employ, climate change mitigation 
strategies, and climate change adaptation strategies, because 
they can have complementary benefits. You might thin directly 
adjacent to a community, specifically to protect that 
community, which has an adaptation benefit, but you can then 
utilize the biomass, as you were suggesting, sir, and offset 
your oil and gas demand, which would have a mitigation benefit.
    I will say, though, that, as a matter of priority, the 
strong emphasis for thinning likely should be around human 
communities, what people sometimes refer to as the wildland/
urban interface, because our first priority has to keep 
people--has to be to keep people safe.
    As a general statement, I clearly think, and Trout 
Unlimited supports, the thinning of overdense, overgrown stands 
that have missed fire-return intervals, where thinning can be 
used to help recover forest vigor.
    Two other points that are far less technical than my 
colleagues, here, referred to. I think, one, it's a question of 
funding, the Forest Service having the necessary resources to 
do the kind of thinning they need to do.
    Then, second--and this is perhaps a softer, more of a 
social science issue--and I wanted to commend Senator Risch, 
when he was here earlier--getting people to the table, a 
diversity of interests to the table to talk about appropriate 
kinds of thinning, recognizing that everyone wants forests to 
remain healthy, makes a big difference in the completion of 
successful projects. Senator Risch was intimately involved in 
the development of the Idaho roadless rule, which I think was 
heavily influenced by a diversity of interests that was brought 
together by the previous administration that helped guide and 
inform that rule. I think that--there's probably some lessons 
there for the Forest Service, in terms of if they're going to 
take a more expansive approach to thinning.
    Senator Wyden. OK.
    Let's go to the question of offsets, beginning with you, 
Dr. Law. What's your assessment about including Federal lands 
in a cap-and-trade offsets program? What are some of the policy 
questions that have to be looked at?
    Ms. Law. I suppose that--I mean, it's up to you what you 
decide to do on this, but there--I guess the only concern I 
might have is if there is so much emphasis on revenue that it 
takes us away from the ultimate goal of sustaining ecosystem 
function. So, I think that's my main concern about that idea.
    I think the idea of additionalities was based on, Would you 
do things--are you doing things differently than you had been 
before, on business as usual? If the Federal lands are to be 
managed in the public interest of carbon sequestration, and 
that's saying we are managing for the way we would have 
managed--in other words, we might not qualify for 
additionality. That would need to be sorted out, too.
    Senator Wyden. What would be some examples? Because this 
question of an additional contribution--I've always try to 
explain it in English, and every time I've used the word 
``additionality,'' everybody just kind of falls asleep, because 
I'm trying to get a sense of what is really going--what would 
be some examples, in your view, of an additional contribution 
that would warrant it?
    Ms. Law. I suppose it would be those who have managed lands 
before very actively--say, having a harvest cycle of 40, 50 
years for a forest that could live to 600 years, and they've 
been doing that for a long time, and then they change their 
practices to allow carbon to accumulate there. That's a form of 
additionality.
    Senator Wyden. That's too logical for government.
    [Laughter.]
    Senator Wyden. But, I mean, that's what we're going to be 
looking for, and I'm sure that's going to be the test, so I'm 
going to want to have some further discussions with you on it.
    Same point, Dr. Oneil, the question of including Federal 
lands in cap-and-trade offset program. What are some of the 
policy issues for this committee and the Senate?
    Ms. Oneil. I think if we're looking at baselands 
additionality, we also have to think about permanence and 
leakage. Right now national forests, at least the--for the 
areas that I've looked at--are carrying a lot of volume and, 
therefore, a lot of carbon. They look really good, in terms of 
their baseline. So, how do you improve on that while you're 
facing these catastrophic fires and these mountain pine beetle 
epidemics would suggest that your baseline is going to be 
higher than you might actually be able to accomplish in--when 
you're addressing permanence.
    So, that is--that's going to be a difficult thing to work 
around, in terms of a cap-and-trade. But, I think, in the 
broader context, Should we treat national forestlands 
differently than we do other lands, in terms of accounting for 
the carbon benefit that can accrue for them?--I think we should 
treat them similarly. Obviously, with different--you're going 
to have to apply different kinds of standards, but you're still 
going to have to meet your baseline, your--define your 
baseline. Do you define your baseline net of all the expected 
mortality? Do you define your baseline as what's currently 
occurring, and then, if you increase your treatments to reduce 
fire risk, is that counted as a--additional to the baseline, or 
is it counted as a reduction from the baseline?
    So, it's very complicated when you're looking at these 
Inland West forests. I'll have to think about it a little bit 
more, in terms of what else I could offer there.
    Senator Wyden. OK.
    Mr. Wood.
    Mr. Wood. I would only offer that the overriding objective, 
the goal, has to be to restore healthy, diverse, and more 
resilient forests. If you can manage carbon as a byproduct of 
achieving that ultimate goal, I think, as the Forest Service 
testimony suggested, that's a good and logical thing. I think 
we should be, given the enormous backlog, due to bugkill, due 
to fires, due to hurricanes and other natural disasters, that 
we have on replanting on the national forest system, you know, 
we should be open to good, creative ideas for incentivizing 
that work. I think the way the National Forest Foundation, 
which had a little--I think it was a pilot program, started in 
2007--handled this question of additionality, which, honestly, 
was not a term I had heard of until the other day--was that, 
they defined that as work that wouldn't otherwise be done by 
appropriated dollars.
    Senator Wyden. Said. If I wasn't having to chase healthcare 
and a couple of other crises this afternoon, I would ask, 
particularly you, Dr. Oneil and Dr. Law, about full carbon 
accounting, because I know you both have written on this. We'll 
save that for the next time.
    I will give you all the last word. Anything you'd like to 
add, Dr. Law, Dr. Oneil, Mr. Wood?
    Ms. Law. I can't think of anything.
    Senator Wyden. Very good.
    Ms. Oneil. On this topic of full carbon accounting, what we 
have found is that when you start to account for the forest and 
the ability to maintain the productivity of the forest through 
time, whether or not you're harvesting it, you're--basically, 
your resource is your soil. You want to maintain your soil 
productivity. You can remove the crop and grow another one, and 
you're still continuing to sequester carbon at a relatively 
high rate. You're not storing it there, you're--in this case, 
you're using the forest as a carbon pump, and, instead, you're 
taking your products and you're storing it as solid wood 
products, like you see in this room. You're using the biomass--
the pieces of the log that are not used for solid wood 
products, you're using as biomass to offset fossil fuels. There 
is the opportunity to remove some of the material--not all the 
material, but some of the material that is currently left 
behind because it doesn't have a market--to supplement or to 
try to reach some of our goals, in order to renewable fuels and 
renewable energy.
    What you find, if you consider those benefits in addition 
to comparisons between using wood as a building product, as 
opposed to some other fossil-intensive material, that you can 
actually have a substantial carbon benefit, above and beyond 
the forest, by using it as a carbon pump, as opposed to a 
carbon storage unit.
    Now, that's an opportunity--the Inland West forests--we 
could take advantage of in the inland west forests, because 
they are at such high risk when you have very large amounts of 
wood left in the woods.
    Senator Wyden. Mr. Wood, you're not compelled to say 
anything, but you're welcome to have the last word.
    Mr. Wood. All I'll say is, thank you, Senator, for holding 
this hearing. It's particularly important to TU and its 
members, as research has demonstrated or indicated that up to 
40 percent of salmon populations in the Pacific Northwest could 
be lost by 2050 due to climate change.
    I also want to take a moment just to thank you for your 
leadership on the--and your staff's leadership--for the--for 
passing that copper salmon wilderness bill.
    Senator Wyden. Thanks, to all three of you. We're going to 
be calling on you often.
    With that, the subcommittee's adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

        Responses of Kit Batten to Questions From Senator Wyden
    Question 1. My understanding is that both the Forest Service and 
Department of the Interior have explored marketing tree-planting 
projects to generate funds from private sources based on the trees' 
ability to sequester carbon. Do you have any regulations or formal 
policies on those projects or on participating in existing carbon 
markets in general? If so, please cite them.
    Answer. There has been discussion within the Department of the 
Interior about the ability of our land managing bureaus to sequester 
carbon on the lands managed under their jurisdiction. However, much of 
the discussion has taken place within the context of existing 
authorities. For example, National Park Service laws and policies 
require NPS to maintain naturally functioning ecosystems, which often 
provide a range of services, including but not limited to biological 
carbon sequestration. The Southeast Region of the U.S. Fish and 
Wildlife Service has for the past 12 years been building a program of 
carbon sequestration projects funded through partnerships with energy 
companies, land trusts, and conservation organizations, to bolster the 
bureau's conservation goals.
    Question 2. Across the country, there are countless examples of 
fish and wildlife adaptation projects that have benefitted both the 
ecosystem and the surrounding community. For example, when headwaters 
are protected, drinking water filtration costs are reduced and rivers 
get reconnected to floodplains. Do you prioritize adaptation projects 
based on the ecosystem services they render or have the potential to 
render?
    Answer. Among the Department's land managing bureaus, 
prioritization of adaptation projects is carried out based on the 
specific authorities that the bureaus operate under. Ecosystem services 
are one of many determinants of habitat conservation, restoration, and/
or adaptation priorities. Likewise, adaptation, restoration, and 
conservation projects provide both direct and indirect benefits for a 
multitude of ecosystem services, including, but not limited to: fish 
and wildlife habitat, clean water, pollinator services, biodiversity, 
biological carbon sequestration, recreation, and many more.
    For example, the FWS undertakes specific adaptation actions through 
a variety of programs, including land acquisition through the National 
Wildlife Refuge System, habitat restoration through the Partners for 
Fish and Wildlife Program, and stream restoration through the National 
Fish Passage Program. Within each of these programs, conservations 
actions are prioritized based on the significance of their contribution 
to the conservation of target species or habitats, cost-effectiveness, 
and other considerations that are outlined in program guidance 
documents and strategic plans, which can include important ecosystem 
services including, but not necessarily limited to, the provision of 
fish and wildlife habitat and/or biodiversity. Habitat conservation 
priorities are increasingly being developed in a landscape context, 
through application of our Strategic Habitat Conservation framework.
    The Bureau of Land Management has a long history of prioritizing 
projects that improve land health and ecosystem resilience and 
contribute to achieving multiple beneficial ecosystem objectives across 
all land ownerships. In addition, BLM has initiated a process for 
conducting eco-regional assessments to identify and develop adaptation 
projects and strategies. Finally, NPS policies guide the determination 
of what sorts of resource intervention actions are undertaken in parks 
and most adaptation projects to date have been for ecosystem 
restoration.
       Responses of Kit Batten to Questions From Senator Bingaman
    Question 1. Your testimony mentioned that USGS expects to complete 
the methodology for conducting the carbon sequestration assessments 
required by the 2007 Energy Bill next year. Can you clarify whether 
both the geologic sequestration methodology under section 711 and the 
ecosystem methodology under section 712 are expected to be completed 
next year? When do you expect the assessments themselves to be 
completed under both sections?
    Answer. The process of developing a methodology for a national 
assessment of biologic carbon dioxide sequestration resources was begun 
in FY 2009 and should be completed in 2010. The methodology to assess 
geologic resources for geological carbon dioxide sequestration was 
completed in March 2009 and the U.S. Geological Survey is planning to 
carry out the assessment during this fiscal year (2010).
    Question 2. Managing forests for adaptation and carbon 
sequestration can be complimentary--for example, through forests 
ecosystem restoration projects. But, in other cases, managing to 
maximize sequestration may be counterproductive from an adaptation 
standpoint, and vice versa. Can you explain what your current policies 
are for addressing the latter situation--where managing to maximize 
adaptation and sequestration are competing goals?
    Answer. In those instances where this tension exists--competition 
between managing to maximize for adaptation or sequestration 
activities--it is important to note that the Department and its bureaus 
must carry out those mission-related functions that are required by 
statute. For example, the National Park Service is required to manage 
our national parks to prevent impairment of park resources and values. 
The U.S. Fish and Wildlife Service is required to manage our national 
wildlife refuges to fulfill the mission of the Refuge System, the 
purposes for which the individual refuges were established, and for any 
wildlife dependent recreational uses that are compatible with that 
mission and those purposes.
       Response of Kit Batten to Question From Senator Murkowski
    Question 1. In early 2001, it was reported that several Fish and 
Wildlife Service and Forest Service employees planted the hair of a 
Lynx from a game park on scratch posts in Washington State that were 
designed to check for the presence of Lynx in the area. As a result 
both the Departments of Agriculture and the Interior were forced to 
develop a code of professional ethics for their employees. Was this the 
type of sound science that the Secretary is suggesting be used?
    Answer. Secretary Salazar has made clear his expectation that 
science-based decision-making will to be conducted with scientific 
integrity, in an atmosphere of openness and under the highest ethical 
standards, and without political interference. Science should be used 
as a tool for crafting smart natural resources policies, and tampering 
with science will not be tolerated.
       Responses of Kit Batten to Questions From Senator Barrasso
    Question 1. Dr. Batten, at the hearing, I raised my concerns about 
Secretarial Order 3289, which injects climate change into Department of 
the Interior decision-making. In response, you highlighted Secretary 
Salazar's responsibilities for land and resources management, and 
stated that ``as a result, all of those land management decisions, 
resource management decisions, we need to considering climate change as 
the driving force in making decisions as how best to protect those 
resources and those lands for our communities.'' How can the Secretary 
of Interior make climate change the driving force in land management 
decisions above all others through a Secretarial Order, without any 
Congressional approval or authorization?
    Answer. The Department and its bureaus must carry out those 
mission-related functions that are required by statute, and such 
required statutory obligations cannot be waived by Secretarial Order. 
To the contrary, Secretarial Order 3289 establishes, working within the 
context of existing bureau and Departmental authority, a framework 
through which Interior bureaus will coordinate climate change science 
and resource management strategies. Section 6 of the Order specifically 
notes that the document does not alter or effect any existing duty or 
authority of individual bureaus. Given the unprecedented scope of 
climate change impacts, Secretary Salazar believes it is simply good 
management for scientists, land managers, and policy makers at all 
levels of government to work together with landowners to understand 
climate change impacts and develop landscape-level strategies for 
responding to those impacts.
    Question 2. Dr. Batten, I asked if Secretarial Order 3289 would 
affect existing land management agreements. You stated ``there is 
nothing in the Secretarial Order that discusses anything to do with 
altering existing agreements or arrangements between the Department of 
Interior and any of our partners as a result of this Secretarial 
Order.'' When I asked you again, can you assure me no existing land 
management agreement will be changed because of the Secretarial climate 
change order, you stated ``there is nothing in this Secretarial Order 
that addresses any existing agreements.'' Would the Secretarial Order 
affect the renewal of any permit for any existing land management 
agreement or activity on public lands? Would the Secretarial Order lead 
to the changing of any existing land management agreement or activity 
through the updating of resource management plans? What current 
authorized public land management activities, whether energy extraction 
or recreational use, would be impacted by rules or policies promulgated 
as a result of Secretarial Order 3289?
    Answer. As noted in the response to the previous question, 
Secretarial Order 3289 establishes within the context of existing 
bureau and Departmental authority a framework through which Interior 
bureaus will coordinate climate change science and resource management 
strategies. As I noted at the hearing, the Secretarial Order does not 
address any existing agreements. While the Order lists several general 
examples of actions that the impacts of changing climate could require, 
it is premature at this point to speculate results at the very specific 
level of detail addressed in this question.
    Question 3. Dr. Batten, you are aware that I am concerned about 
Secretarial Order 3289, as well as Secretary Salazar's October 30th 
response to our letter. In that reply Secretary Salazar indicated that 
DOI only wanted to ensure that all bureaus and agencies have access to 
sound science and are in a position to respond to climate changes in a 
coordinated way. Given the history of some decisions that relied on 
questionable science, could you help me better understand who's sound 
science the Secretary wants to rely upon?
    Answer. Secretary Salazar has made clear his expectation that 
science-based decision-making will to be conducted with scientific 
integrity, in an atmosphere of openness and under the highest ethical 
standards, and without political interference. Science should be used 
as a tool for crafting smart natural resources policies, and tampering 
with science will not be tolerated.
    Question 4. Over the last decade the National Park Service has 
worked to close an oyster farm at Point Reyes National Seashore. 
Superintendent Don Neubacher and one of his scientists were accused of 
relying on science that was unrelated to Point Reyes when justifying 
the closure of the Drake's Bay facility. In fact, both the National 
Academy of Science and your own department Office of Inspector General 
reported on this. Was that the type of sound science that the Secretary 
is suggesting be used?
    Answer. As noted in response to the previous question, Secretary 
Salazar has made clear his expectation that science-based decision-
making will be conducted with scientific integrity, in an atmosphere of 
openness and under the highest ethical standards, and without political 
interference.
    Question 5. In early 2001, it was reported that several Fish and 
Wildlife Service and Forest Service employees planted the hair of a 
Lynx from a game park on scratch posts in Washington State that were 
designed to check for the presence of Lynx in the area. As a result 
both the Departments of Agriculture and the Interior were forced to 
develop a code of professional ethics for their employees. Was this the 
type of sound science that the Secretary is suggesting be used?
    Answer. As noted in response to the previous question, Secretary 
Salazar has made clear his expectation that science-based decision-
making will to be conducted with scientific integrity, in an atmosphere 
of openness and under the highest ethical standards, and without 
political interference.
    Question 6. I see from your title that you are the Science Advisor 
to the Deputy Secretary. Can you help me better understand what 
criteria the Department will use to assess just what sound science is 
on climate change vs. what is junk science?
    Answer. President Obama addressed this issue in his March 2009 
memorandum on scientific integrity, which states that ``[w]hen 
scientific or technological information is considered in policy 
decisions, the information should be subject to well-established 
scientific processes, including peer review where appropriate, and each 
agency should appropriately and accurately reflect that information in 
complying with and applying relevant statutory standards. . . .'' 
Secretary Salazar has stated that decisions in the Department will be 
based on sound science and the public interest.
    Question 7. As you well know we currently have hundreds of 
thousands of forested acres that have been killed by the Mountain Bark 
Beetle in Colorado, Wyoming, and Montana. I suspect you also know part 
of the reason is that the age class distribution of our Lodgepole Pine 
stands is completely out of whack. All forest science that I am aware 
of would recommend that the Lodgepole Pine should have been harvested 
over the last 50 years to have avoided the situation we now are 
suffering. But that would have required heavy timber harvesting which 
the federal land management agencies have resisted. Given that science 
and seeing the result of no action, does the Department of the Interior 
now advocate for more clear-cutting of the Lodgepole Pine that has not 
yet been killed by the insects?
    Answer. Current science recognizes that a combination of warmer 
winters over the past decade, drought stress, and a loss of demographic 
diversity at the landscape scale have created conditions that are ideal 
for a proliferation of bark beetles. As the Department has noted in the 
past, no effective treatment for suppression of large-scale pine beetle 
outbreaks currently exists, and the Department's two largest land 
managing bureaus in the west are approaching this problem in a variety 
of ways based upon their missions, policies, laws, and the management 
mandates under which they operate. Selective removal of trees is being 
carried out in our national parks in order to protect visitor safety, 
dependent wildlife, and habitat. However, because commercial timber 
sales are not authorized on park service lands much of the beetle-
killed trees will remain standing and, in accordance with the Organic 
Act and National Park Service Management Policies, natural recovery of 
these areas will be allowed.
    The Bureau of Land Management has management jurisdiction over 
approximately 800,000 acres of lodgepole pine and has approached this 
epidemic by treating, in fiscal year 2009, 9,500 acres to mitigate 
impacts of the mountain pine beetle outbreak. The treatments are 
focused on protecting high-value areas, such as around communities and 
in and near established recreation sites, through placement of 
pheromone traps to prevent tree mortality, and reducing the risk of 
catastrophic wildfire events by reducing fuels through salvage of dead 
and dying trees.
                                 ______
                                 
        Response of Elaine Oneil to Question From Senator Wyden
    Question 1. If I understood your testimony, you both agree that a 
``full-carbon accounting'' should be employed when considering the 
effects of forest management on carbon. But I have the sense that just 
about everybody has a different view of what exactly that means in 
practice. Is my sense on this accurate and, if so, where does that 
leave this Committee in crafting Federal forest management policy? To 
give one example, I wonder if the amount of credit to give wood 
products for carbon sequestration is widely accepted and how that would 
be quantified? Do you have any suggestions for how to standardize full-
carbon accounting?
    Answer. There should not be a significant difference in opinion on 
what is meant by full carbon accounting but there will be differences 
on what the implications are to policy.
    Life Cycle Analysis has been accepted for some time as the best way 
to characterize full accounting which in this case requires tracking 
the carbon in the forest, into product uses (if any), and including how 
the uses may displace other uses such as the use of wood materials to 
displace steel and concrete or the use of biofuel to displace other 
fuels. It also includes issues of changes in land use. International 
Standards (ISO 14040 etc) have been designed specifically to provide a 
protocol for acceptable use of life cycle inventory and assessment 
methods (LCI/LCA).
    Most of what might be considered different views are actually 
deviations and failed transparency in meeting the standards. But the 
standards do leave some room for variation while still requiring full 
disclosure. The EISA 2007 passed by Congress requires Life Cycle 
Analysis of synthetic fuels to compare the emissions of products like 
corn ethanol to common fossil fuels. This LCA requirement exposes the 
minimal carbon benefit that comes from corn-ethanol compared to 
sugarcane-ethanol or other sources and will help place the use of 
biofuels in a full carbon accounting perspective. You can expect that 
the carbon benefits for cellulosic ethanol to be much better as 
research is underway. This LCA requirement was not extended to the 
emissions from construction materials, which have a substantially 
larger leverage for reducing carbon emissions than using wood as a 
biofuel. Certified green buildings could easily be producing more 
emissions than non-certified buildings since there is no science based 
protocol for rating them.
    The science basis for wood's impact on emissions has been studied 
for 15 years by a consortium of 15 research institutions, The 
Consortium for Research on Renewable Industrial Materials (CORRIM) and 
there is peer reviewed life cycle inventory data available on all the 
main structural and non-structural wood products (lumber, plywood, OSB, 
glulams, LVL, particleboard, MDF, trusses). Oregon State University 
provided much of the oversight for the development of these product 
LCIs and University of Idaho and the University of Washington were 
directly involved in harvesting and forest management impacts. CORRIM 
is currently working on LCIs for biofuel collection and processing 
which will be available soon. Comparable data for steel, concrete and 
other materials have also been collected such that all the inputs and 
emission outputs for all commonly used primary products are now 
available in the DOE NREL managed US LCI database for primary products.
    However differences of opinion can easily arise when applying this 
information to policy. For example the tax credit for ethanol 
essentially results in the processor being able to steal the feedstock 
from other processors to make ethanol even though the other alternative 
will likely be reducing carbon emissions more effectively. This is a 
counter-productive policy result. The USDA Biomass Crop Assistance 
Program (BCAP) makes sawdust and other materials that are used to make 
particleboard and MDF eligible for fuel subsidies, which will redirect 
the feedstock away from its highest and best use thereby increasing 
carbon emissions by requiring other substitute products. If the subsidy 
only supported using currently unused feedstock the impact might be 
positive, but if so why not use it for its best use, which may or may 
not be fuel? There are many such counterproductive policies exposed by 
Life Cycle Analysis. The example you use on how much credit to give 
wood products cannot be answered and is probably the wrong question. 
The carbon mitigation objective is to drive out the use of high carbon 
emitting products and processes, which can be done directly by a tax on 
fossil emissions. That way the incentive is highest for those uses of 
wood that drive out the most fossil emissions. Using wood as a fuel 
will get the smallest incentive compared to other uses of wood like 
wood I-Joists which displace 9 times as much carbon as burning the wood 
for fuel. The market could determine the best efficiency by passing on 
the cost of carbon emissions.
    Neither cap and trade, which involves millions of different 
products that cannot be treated separately, or incentives, which can't 
be properly designed for multiple uses, will be as effective as a 
carbon tax on emission that can easily be designed for income 
neutrality. Many proposed policies appear to be counterproductive but 
it is easier to find the flaws than to design a system to avoid them 
all. Perhaps the worst forest carbon policy is carbon exchanges that 
pay tree farmers to not harvest and save the wood in the forest as this 
assures the substitution of other materials, which produce higher 
emissions than any savings in forest carbon.
    There is a wealth of additional information on full carbon 
accounting at the CORRIM website, www.corrim.org.
     Responses of Elaine Oneil to Questions From Senator Murkowski
    Question 1. Ms. Oneil, in your testimony you said: ``No one wants 
to see another `timber war' or extractive industry with little thought 
to long term sustainability of the federal lands in their region.''
    If you look at the clear cuts that occurred over the last 50 years 
and compare that to the amount of dead trees in the Medicine Bow and 
Big Horn National Forests that are the result of the Mountain Pine 
Beetles, The old clear cuts remain green and I have to ask myself if 
harvesting was really that bad.
    I know that it seems to be politically incorrect for anyone in 
academia to admit that management of our federal forests has been a 
good idea. However, what has brought more damage to our forests over 
the last two decades in your mind--timber harvesting or the fires and 
insect epidemics we are currently suffering?
    Answer. It appears that a few clarifying statements about `timber 
wars' are in order. In the statement you quoted from my testimony, I am 
specifically referring to the discussions we had at the Plum Creek 
Conference on Forests and Energy in Missoula Montana in September 2009. 
At that conference participants were discussing the opportunities to 
create their own economic stimulus by biomass removal to reduce fire 
risks and address the mountain pine beetle epidemic. These were people 
working at the grassroots level that were sufficiently savvy to want it 
all: living wage jobs in the location they called home, but also a 
vibrant, healthy forest ecosystem to live near and recreate in. The 
fact that they live surrounded by National Forests that are dying and 
burning because they can't be cut is seen as a travesty but so is the 
idea that we could swing all the way in the opposite direction to 
wholesale biomass utilization without regard for other values on the 
forests. These concerns highlight how sustainability and management 
really have to be approached in the context of scale which is what 
dominated the discussions at the forum on biomass utilization. While 
there is a sense of urgency to get going on biomass removal operations 
before the forests all die and burn around them, there is a need to 
evaluate and determine not only how much can we take, but also how much 
should we leave. The core theme is the idea that the pendulum had swung 
from all out exploitation to essentially complete protection and that 
in this new opportunity for biomass to energy we needed to find a 
middle ground.
    So what is more damaging: timber harvest or insects and disease 
infestations? It depends on two things--the scale of the disturbance 
and the effort made to ensure long term sustainability of forest 
attributes that are hard to replace if lost. If we can harvest in a way 
that leaves behind some big logs, snags, and trees as legacies in the 
regenerating stand, and most importantly soil conditions conducive to 
tree regeneration, then harvest is preferable to losing most of the 
soil horizon in a wildfire. While wildfires produce a lot of big logs 
and snags as legacies, but they also release tremendous amounts of 
greenhouse gases into the atmosphere and we have very little control 
over their eventual outcome. If maintaining forests as carbon sinks as 
well as for other values such as clean water, wildlife habitat and 
scenery is important then using harvesting offers much more control 
over the process of regeneration and renewal than we can ever expect 
from uncontrolled wildfire and insect infestations.
    Question 2. Is forestry carbon neutral? In other words, how does 
sustainable harvest compare to some hot, destructive wildfires we've 
seen recently?
    Answer. Forestry is better than carbon neutral. The Consortium for 
Research on Renewable Industrial Materials (CORRIM) has conducted life 
cycle inventory (LCI) and life cycle analysis (LCA) across 4 US timber 
supply regions and BC Canada which links what is happening in the 
forest through the milling process, to the use of the product and its 
eventual end of life. Results from CORRIM research show that harvesting 
wood for long term wood products generates a carbon benefit to the 
atmosphere that is better than if the forest is just left to grow, even 
if we assume the forest doesn't burn or die from insect infestations. 
In effect, using the forest as a carbon pump rather than a carbon 
storage site generates the maximum carbon storage gain. As part of the 
record I have submitted a 4 page factsheet* that summarizes 13 years 
worth of LCI work on this subject of whether forestry is carbon 
neutral.
---------------------------------------------------------------------------
    * CORRIM Fact Sheet has been retained in subcommittee files.
---------------------------------------------------------------------------
    These carbon neutral results are predicated on management that 
protects the resource and the resource is the soil. We cannot expect to 
see any kind of sustainability when the soils are losing over \1/
2\their carbon and a large percentage of their nitrogen as well during 
a hot wildfire. The sites are compromised as the pictures I showed you 
demonstrate and it may take centuries for them to return to their 
former carbon storage potential. In other cases it may take very little 
time for forest regeneration and soil carbon storage to return to pre-
fire levels if there is limited impact on the soils. For example, after 
the Biscuit fire in Oregon, researchers found that 23 metric tons of 
carbon/hectare (62.5 US tons/acre) were lost from the soil which is 
almost double the estimate of carbon loss for the above ground 
vegetation of the 1 million SUV example I provided in the testimony. 
That means that the carbon emissions from that single wildfire with the 
million SUV impact may have been equivalent to the impact of 3 million 
SUV's driven over a 1 year period when we take into account the losses 
from below ground as well. That is a substantial impact on our forest 
recovery potential, on air quality and atmospheric carbon dioxide, and 
on our ability to meet future greenhouse gas targets.
    Question 3. Will climate change affect National Forests differently 
in different regions of the country and if so, how should we structure 
policy to deal with those differences?
    Answer. Climate change will definitely impact different regions of 
the country differently, and even different areas within a given region 
differently. For example in Washington State we looked at climate 
impacts for the forest sector as part of the Washington State Climate 
Impacts Assessment. Early on we decided to focus on eastern Washington 
as that is where all the action is in terms of climate impacts. While 
climate impacts may occur in coastal regions, they aren't something we 
can model at this time; the corollary is that it is difficult to 
recommend any mitigation actions for those regions either. The opposite 
case is true in the Inland West (Intermountain, Front Range, Southwest 
and eastern Washington) where climate impacts abound including 
increased wildfire activity, the 22 million acre mountain pine beetle 
outbreak across the west, and forest dieback from drought in the 
Southwest. We are anticipating the loss of 1 or more species at the 
lower forest margins in Washington State and when you realize that 
there are often only 1 or 2 species present, that is the same as saying 
we expect a forest dieback there also.
    My experience as a field forester is that prescriptive policies 
that dictate how many trees to leave, how big a harvest unit should be, 
whether a clearcut is permissible or not, and what age, size, or 
species can be cut or must be left behind simply do not work. Policies 
that lead to these kinds of requirements or specifications in lower 
level plans are equally likely to fail. Here is an example to 
illustrate this point. Each site is different so the result of 
implementing the same prescription on two sites that are separated by 
less than a mile can be quite different and neither may meet the 
objective set out in the prescription. Say we have a forest with mostly 
pine that is susceptible to mountain pine beetle outbreaks. Research 
from the 1970's conducted in the Black Hills of South Dakota suggests 
that to increase stand vigor so that the trees are more likely to be 
able to resist attack we need to lower the stocking to less than 150 
square feet of basal area per acre. Overlay on this scenario a 
requirement to maintain the largest 50 trees in the stand that needs to 
be thinned to meet this requirement. Only if the 50 largest trees in 
the stand have an average diameter less than 24 inches per tree and 
they are well distributed across the acre can have meet both criteria; 
if the stand has all those trees clustered in once corner of the acre 
we may be able to meet both policy criteria but would not reduce the 
competitive stress on the trees to improve their ability to resist 
insect attack. In addition we relying on results taken from a single 
study in one region and applying them to the entirety of the west where 
different climates, climate impacts, and site productivities may 
dictate lower stocking levels (or permit higher ones) in order to 
achieve the reduced mountain pine beetle impact.
    Just as important is the fact that there just aren't the physical 
or financial resources, or personnel, to tackle a problem of this 
magnitude by measuring every tree to ensure it is young enough or small 
enough to be removed. Rather than a prescriptive policy, we need a 
results based policy that highlights what we want to see as an outcome, 
not how to get there. The outcomes should be grounded in ecology and 
forest science so the basis of the policy should be ecology and forest 
science. The policy should direct land managers to evaluate the 
carrying capacity of their land base, whether trees, shrubs, soil, or 
animals, and assess how it might change with climate change. Using 
those predictions they should develop plans that describe how they plan 
to accomplish the result of creating (or maintaining) a forest 
ecosystem that has the necessary attributes to be resilient in the face 
of an uncertain climate future specific to their particular land base. 
That plan should be specific, but not prescriptive. The policy should 
direct land managers to describe contingency plans should particular 
aspects of the plan fail to meet its goals and objectives, and 
safeguards to minimize failures. While the plans should be open to 
public scrutiny and input, once they are approved, the mechanics of 
operations should no longer be open for discussion. We can expect to 
fail at least some of the time since we are dealing with many unknowns 
with climate change and land management, so if we want to accomplish 
something on the ground, it will be critical to provide a culture of 
support for managers and operational personnel that are willing to try 
new things to ensure the resilience of their forests.
    Question 4. With all the money we are spending on fighting fires 
and all the news about mountain pine beetle are our national forests a 
carbon sink or a caron source at the present time?
    Answer. The latest available Forest Service reports indicate that 
there is 20 billion board feet (BBF) of growth, 8 BBF mortality and 2 
BBF of harvest on National Forests across all regions. These numbers 
suggest that nationally the forest is still a carbon sink, not a 
source. The questions to ask are whether this latest estimate 
incorporates current mortality events or not and whether substantial 
growth in one region is subsidizing substantial mortality in another. 
For example the most current complete dataset available when we started 
the Washington State timber supply analysis that was finished in 2007 
was from prior to 2000. Using that data we calculated that mortality in 
eastern Washington National Forests was 49% of gross growth (so if 
applied nationally that would be 9.8 BBF of mortality instead of 8 BBF) 
but that did not include the massive spike in mountain pine beetle 
(MPB) mortality culminating in 9 million trees killed across 770,000 
acres by 2004 as well as the wildfires in 2006 that affected over 
400,000 acres of National Forest land. Since 1995 we have lost almost a 
million acres of National Forest land in Washington State to wildfire. 
If we continue at this rate it is equivalent to losing 1.7% of the 
forest area/year to wildfire. Other states will show greater or lesser 
impacts than this example, but the impacts are growing during each 
wildfire season. To highlight this growth rate consider this example. A 
recent study that looked at the relationship between wildfire extent 
and climate (Littell et al 2009b) found that for a region including 
Idaho, Montana, and eastern Washington we had experienced a fire rate 
of approximately 24% during the 20th century (meaning 24% of the 
National Forest lands would have experienced a wildfire during a 100 
year period) or approximately 132,000 acres per year. National 
Interagency Fire Control (NIFC) statistics from 2002-2009 for this same 
area show almost 1 million acres/year of National Forest affected by 
wildfire which is equivalent to a 7.5x increase from the 20th century 
average. Add to these fire impacts, the mountain pine beetle outbreaks 
in all western states that literally dwarf the impact discussed for 
eastern Washington. In these regions with massive MPB outbreaks and 
extremely large wildfires, I would suspect that since 2000 these 
National Forests are carbon sources, not sinks; however, to my 
knowledge no one has done the math on this question because the data in 
their entirety aren't available yet to do so.
    Question 5. You state that ``we should strive to prreserve mature 
and old growth forests to avoid losses of carbon associated with 
harvest''. Mature forests are managed for a variety of reasons and 
objectives, including preventing catastrophic wildfire and improving 
habitat for T&E species. Doesn't stating that we should strive to 
preserve mature forests to avoid losses of carbon associated with 
harvest ignore the carbon sequestration that could be lost through 
other means, such as catastrophic wildfire, insects and disease, etc.?
    Answer. Any loss of carbon associated with harvest can be more than 
offset with carbon storage in products and by using residual material 
not suited for products to replace fossil fuel use as an energy source. 
The Consortium for Research on Renewable Industrial Materials (CORRIM) 
has conducted life cycle inventory (LCI) and life cycle analysis (LCA) 
across 4 US timber supply regions and BC Canada which links what is 
happening in the forest through the milling process, to the use of the 
product and its eventual end of life. Results from CORRIM research show 
that harvesting wood for long term wood products generates a carbon 
benefit to the atmosphere that is better than if the forest is just 
left to grow, even if we assume the forest doesn't burn or die from 
insect infestations. In effect, using the forest as a carbon pump 
rather than a carbon storage site generates the maximum carbon storage 
gain.
    Question 6. You state that most forest biomass is not consumed by 
fire, but isn't the larger issue whether there will be a loss of forest 
cover, loss of sequestration (because trees are dead unless the site is 
replanted), rehabilitation costs and watershed and stream problems? 
Should we consider all of these and other factors when managing forests 
or should we just look at carbon sequestration? Should we also consider 
the short versus long term impact of management?
    Answer. Placing carbon sequestration potential into the context of 
disturbance rate is critical in maximizing carbon storage and offsets 
in both the near and long term. In areas with frequent fires, high fire 
risk, or on sites with high fuel loadings that are likely to burn under 
an altered fire regime brought on by climate change, harvesting can 
reduce the risk of leaving biomass in the forest with the co-benefit of 
using the harvested biomass to offset some other fossil fuel use that 
would have produced source emissions that still impact the atmosphere.
    If the choice is to opt for maintaining the forests as carbon 
storage units, according to analysis by Weidinmyer et al (2006) for 
Inland Northwest forests we can calculate that about 30% of the tree 
biomass and about 90% of the shrubbery and duff layers (duff = decaying 
vegetation on top of the soil) are consumed during the actual fires. 
That which is not consumed by fire immediately begins to decay so 
emissions are either rapid during the fire or slow after the fire. 
Recent research on soil carbon suggests that there is always some 
component of the charred wood that remains for 100's if not 1000's of 
years but it is a small fraction compared to the total biomass on site 
prior to the fire. So fires do generate substantial greenhouse gas 
emissions at the outset and continue to do so as the vegetation 
continues to decay. As long as there is minimal soil damage and a seed 
source for regeneration the emissions can be offset in a relatively 
short period of time with new growth in both the shrub and canopy 
layers. The problem arises when the fire impacts on soil are severe, 
when there is no seed source, or where there is some other condition 
such as invasive weeds that prevent tree regeneration as is the case 
for a large portion of the Federal lands in California according to the 
latest fire analysis by Bonnicksen (2009). These factors should be 
taken into consideration when evaluating options for managing forests 
for carbon sequestration.
    Question 7. You state that`` fuel reduction techniques, especially 
those that remove half or more of the larger trees, could lead to 
increases in fire severity because of additional logging debris.'' 
Science shows that leaving the larger trees is best from a fire/fuel 
perspective and most fuels reduction work is needed on federal and 
public lands. What fuels reduction techniques recommend removing half 
or more of the larger trees?--this statement seems to be inconsistent 
with federal land management efforts to reduce hazardous fuels. 
Further, most hazardous fuels projects also include a prescribed fire 
component to reduce fire risk. Is your statement consistent with most 
hazardous fuels reduction projects?
    Answer. Hazardous fuels reduction projects that remove over half 
the large trees are possible if the site was severely overstocked and/
or if the largest diameter trees on site were not well suited to meet 
restoration goals. For example, some sites that were historically 
ponderosa pine forests may now have an overstory of white fir or grand 
fir that is fire intolerant. These overstory trees are sometimes the 
largest ones in the forest but they will not survive the re-
introduction of fire and are often experiencing substantial stress as 
the sites are too dry for optimal growth. In these cases, harvest could 
include removal of these large diameter specimens for processing along 
with concomitant fuels management of the residual material using either 
burning, grinding, or removal as a biomass feedstock. If logging debris 
is managed as part of the fuels reduction project, the risk of 
increasing fire severity is minimized or eliminated altogether.
    Question 8. You also state that ``fuel reduction can be effective 
to reduce fire severity but it results in decreased long-term carbon 
storage''. If thinning helps prevent tree losses (and carbon) to bark 
beetles and fire, which will help the carbon-sequestration potential 
for the long term, should we not thin because of the short-term carbon 
loss?
    Answer. If we only measure carbon stored on the forest without 
considering the carbon storage in wood products and carbon offsets by 
using wood to replace fossil fuel energy sources, there are probably 
some instances where this scenario of decreased long term storage might 
be true. For example in old growth PNW coastal forests with very long 
fire return intervals (over 250 years) it has been shown that fire risk 
reduction treatments that take only understory vegetation decrease long 
term carbon storage because the baseline of fire risk is so minimal and 
the product pools do not include solid wood products and their carbon 
offset values (Mitchell et al 2009). However examination of the full 
suite of stands from fire prone forests of the Inland Northwest shows 
that thinning these forests to reduce fire risks is both appropriate 
and it will not result in the loss of long term carbon storage (Oneil 
and Lippke, publish date 2010). If anything we need to be more 
aggressive in reducing forest stocking below carrying capacity when 
conducting forest thinnings. If we do so, the remaining trees will be 
able to regain vigor and resilience quickly, and then respond by 
growing up to that land carrying capacity which will sequester more 
carbon per tree while reducing the mortality risk.
    Question 9. Should we manage forests with an ecosystem focus, to 
meet a multitude of objectives, including carbon sequestration, but by 
not maximizing one at the expense of another?
    Answer. Given the multiple mandates that National Forests are 
expected to fill it only makes sense to manage them with an ecosystem 
focus that is designed to meet as many objectives simultaneously as 
possible while keeping in mind the constraints of the land base. It is 
important to recognize that while we can have it all, we can't have it 
all at the same place and at the same time and perhaps not at all on 
any given acre or forest. For example we can't have maximum forest 
stocking and low fire risk unless we are in areas that are too cold or 
wet to burn during fire season. The idea that we can force a particular 
outcome such as old forest habitat in a landscape with frequent stand 
altering (or now stand replacing) fires using aggressive wildfire 
suppression tactics has been demonstrated as an unworkable and 
expensive solution in recent years. Returning to an ecosystem focus 
would suggest that we do not insist on maintaining any particular 
forest condition where the incremental costs of keeping it as it is in 
the face of ecological processes escalate each and every year with 
concomitant diminishing returns.
    Question 10. You mention that federal lands should be managed for 
the public interest of carbon sequestration and that `if federal lands 
are managed for revenue from carbon credits, it will likely impact 
ecosystem functioning and other ecosystem services'--how? Are there any 
published papers on this topic?
    Answer. Carbon credits are a double edged sword that should be 
approached very carefully, if at all. Credits in their current form 
rely on the concepts of baselines, additionality, permanence, and 
leakage. Currently they do not consider what happens to the products 
that leave the forest at harvest and they do not consider how those 
products might be better used to maximize the carbon benefit to the 
atmosphere. Perhaps the greatest difficulty with carbon credits is when 
they form part of a carbon exchange that pays the forest owner to not 
harvest and save the wood in the forest. This approach raises the 
demand of wood relative to supply, raises wood product price, and 
promotes the substitution of other materials for wood products which 
produce higher emissions than any savings in forest carbon. And if 
there isn't material substitution the demand for wood products that 
could have been met by that forest is met from some other wood 
producing region which means that the atmosphere experiences the 
perceived carbon consequences of harvesting anyway. In this case the 
landowner loses twice--first because they have limited their management 
options for a perceived benefit that doesn't actually provide a benefit 
to the atmosphere, and second because the incremental gain in carbon 
storage from a mature forest is small and therefore unless huge tracts 
are involved and the credit value is high, the costs of maintaining the 
forest in the face of disturbance may well outweigh the carbon credit 
value. A more viable approach to carbon mitigation objective that would 
promote the use of carbon efficient products and processes would be to 
directly tax fossil fuel emissions. That way the incentive is highest 
for those uses of wood that drive out the most fossil emissions.
    Difficulties in establishing baselines in the face of climate 
change, identifying how additionality and permanence would incorporate 
the huge uncertainties surrounding wildfire and insect outbreaks, and 
accounting for leakage from the system suggest that while carbon credit 
systems might be a way to obtain payment for ecosystem services, they 
need a lot of improvements before they can be implemented in a way that 
doesn't create perverse incentives.
    Question 11. Currently, Germany exports 20% of its wood to the 
United States. Does it make sense to import wood products from other 
nations or would it be preferable to produce wood products sustainably 
in the United States? Considering the light carbon footprint of wood as 
compared to other non-renewable building materials and the abundance of 
heavily stocked (stocked beyond carrying capacity) federal and public 
lands in the west, should we sustainably harvest wood from public 
lands?
    Answer. We could sustainably harvest wood from public lands, but a 
bigger question is how to do so within the current framework. Our 
analysis of Inland Northwest Forests, including Idaho, Montana and 
Eastern Washington state suggests that even if we only treated the 
forests with low and mixed severity fire regime and the dead and dying 
lodgepole forests, we would have to harvest 4 times more acres that we 
currently harvest in Eastern Washington and 5 times more than we 
currently harvest in Idaho and Montana (Oneil and Lippke, publish date 
2010). Even increasing the harvest rate to this level would just treat 
the at risk forests on National Forest lands by remove only those trees 
less than 12 inches in diameter. In many cases these trees are too 
small to make into wood products used as building materials. This 
particular approach would reduce fire risk, but to implement such a 
strategy without economic return from marketable products would be 
economically prohibitive. In order to address the wood import issue it 
would be necessary to remove some larger diameter trees that can be 
processed into long-lived products which would have the co-benefit of 
subsidizing the removal of more non-merchantable material. Addressing 
wood imports and fire risk reduction requires re-thinking of our 
current focus of only taking young or small diameter material. 
Technologies are available to produce smaller dimension building 
products from smaller diameter wood (4-12 inches), but those 
technologies require substantial private investment that is only likely 
with a guaranteed wood supply. In many regions of the interior west we 
are losing mills, not gaining them because there is no guaranteed wood 
supply and the wood supply from federal lands is not considered as a 
viable guaranteed source. This suggests that it would be necessary to 
provide long term supply agreements to support the development of small 
diameter milling infrastructure. This option would serve a dual purpose 
of producing more wood products and removing the material that is 
currently placing these forests at high risk of loss to wildfire and 
insect and disease outbreaks.
    Question 12. Is biomass harvest sustainable and renewable? What 
kinds of rules would we have to invoke to make it sustainable and/or 
renewable?
    Answer. The same rules that apply to current harvesting could also 
apply to biomass-to-energy harvesting as in essence we are doing the 
same thing: entering a forest stand to remove some products while 
leaving others intact. It is important to realize the economics of 
biomass production can have an impact on the production of other wood 
products. As long as the price renewable fuel producers are willing to 
pay for biomass feedstocks is less than the market price for other wood 
products there is no competition between the sectors and in fact the 
wood harvesting can help offset some costs of the biomass feedstock 
acquisition. If the cost of bioenergy feedstock increases beyond the 
price for say wood chips for making pulp and paper then there is a 
direct competition which bids feedstocks away from a sector that is 
more efficient at turning wood into carbon offsets. At that point 
biomass harvest for energy becomes a counterproductive activity from a 
carbon emissions standpoint.
    This suggests that biomass harvest is sustainable and renewable 
with certain caveats. First, we need to be intelligent about connecting 
feedstock availability to the scale of facility. If a facility requires 
600,000 BDT/year (BDT = bone dry tons) and the forests within 50 miles 
can only provide 300,000 BDT without compromising existing 
manufacturing operations and ecological function, then we need the 
rethink the scale of the facility or the kind of facility to integrate 
the ecological and energy needs. The travel distance (i.e. 50 miles) is 
critical because economic viability is contingent on obtaining a 
feedstock at a reasonable price and haul distance is the most critical 
factor in feedstock price for most studies that have been done on this 
topic. Probably more critical is the need to offer long term supply 
agreements if we expect to attract sufficient private investment for 
implementing biomass production from woody residues. In the west this 
is particularly critical because in many instances any logical 
processing location has to include a substantial percentage of federal 
lands within the 50 mile radius in order to obtain sufficient feedstock 
supply for economically viable operations. There has been a tremendous 
amount of research on this question of sustainable biomass harvesting. 
A thorough synthesis of this research has recently been conducted by 
University of Washington researchers (Mason et al 2009). It is 
available at http://www.ruraltech.org/pubs/reports/2009/wood_to_energy/
index.asp
                                 ______
                                 
     Response of Christopher A. Wood to Question From Senator Wyden
    Question 1. Mr. Wood, you highlight the Elk River watershed along 
the Oregon coast as an example of how the protection of intact habitat 
and reconnection of migration routes can help improve the resiliency of 
a watershed. Do you believe the Federal agencies are prepared to do the 
scale and level of protection across the country that you discuss in 
this example? If not, what more is needed? Do you see opportunities for 
public/private partnership and/or coordination with states?
    Answer. In the Elk River watershed, a culvert on Blackberry Creek 
(an Elk River tributary) impedes fish passage. The Forest Service 
identified the need to replace the culvert and completed the 
Environmental Assessment years ago, yet has been unable to do so 
because of inadequate funding. Such examples abound across the nation's 
forests and grasslands. Climate change legislation such as S. 1733 and 
S. 1933, which would provide revenue from the carbon market to fund 
natural resources adaptation, and could enable federal agencies to 
complete adaptation projects at the scale and level needed to safeguard 
fish and wildlife. Furthermore, these climate change bills call for the 
development of adaptation strategies that can help prioritize actions 
and focus state and federal agencies and private partners on high 
priority projects in a coordinated fashion. Trout Unlimited has long 
worked with state and federal agencies and private partners such as 
timber companies to replace culverts and improve fish passage, from New 
Hampshire to the coast of California. We believe that partnerships to 
capitalize on the strengths and resources of public and private 
entities will be essential to completing adaptation projects on the 
scale necessary to enable fish and wildlife to cope with changes in 
climate.
 Responses of Christopher A. Wood to Questions From Senator Murkowski 
                         (and Senator Barrasso)
    Question 1. Your suggestions generally fall into the categories of 
protecting or rehabilitating terrestrial and aquatic ecosystems on 
public lands from the impacts of climate change. I am interested in 
exploring ideas about how the management of public lands can be used to 
reduce greenhouse gasses and abate climate change.
    Should public lands have a role in the growth of wind and solar 
power? If so, how should this be done, and how should any public land 
impacts be mitigated?
    Answer. Trout Unlimited supports the responsible development of 
energy resources on public lands. In order to ensure that development 
is done right, we must learn from our experiences in developing 
traditional energy resources on public lands. Mistakes in the 
management of traditional energy development, such as the extensive use 
of categorical exclusions, failure to adhere to protective 
stipulations, and inadequate monitoring and mitigation to name a few, 
should not be repeated in developing renewable energy.
    Among the policy changes needed to ensure that fish and wildlife 
are not unduly harmed by renewable energy development are changing 
renewable energy permitting from a system of special use permits and 
rights-of-way to a leasing program. This would enable the generation of 
a revenue stream that could be used for fish and wildlife habitat 
mitigation and enhancement, monitoring, and restoration. In addition, 
the agencies should delineate important migration routes, streamside 
corridors, and other areas where development should and should not 
occur, and where transmission should be sited.
    The useful life of a solar or wind facility is likely to be much 
more than 30 years. With this in mind, renewable energy lessees and 
operators should be required to complete interim reclamation. We also 
believe that no onsite mitigation alone will be adequate to sustain the 
ecological function of public lands on which many renewable energy 
facilities are located. Unlike oil, gas, and coal, the wind and sun are 
renewable sources of energy which will not be exhausted. The landscapes 
impacted by renewable energy facilities will not be restored to their 
current condition for the foreseeable future. Therefore, the only way 
to mitigate the impact of these facilities is to require the 
restoration or acquisition and preservation of comparable ecological 
resources elsewhere along with on-site actions to minimize the severity 
of impacts to natural resources.
    It is vital that state and federal agencies have the resources 
necessary to properly manage energy development. Thousands of miles of 
transmission lines may be needed to move renewable energy to market. 
Funding must be made available to avoid fish and wildlife damage and 
for mitigation and restoration.
    The federal government should collect royalties for renewable 
energy development and establish a Renewables Mitigation Fund. The fund 
could include federal and state accounts to support mitigation, 
monitoring, inventory, and management associated with conserving fish, 
wildlife, and water resources affected by renewable energy development; 
help local communities to mitigate the effects of renewable energy 
development; and enable non-profit entities to mitigate and restore 
areas affected by renewable energy development.
    Question 2. What role should public lands play in the creation of 
carbon credits and in the functioning of carbon markets?
    Question 3. Could carbon credits generated by planting to reduce 
the reforestation backlog on public lands be used to insure private 
carbon credits generated by planting trees on private lands?
    Question 4. Could the insurance premium (which allows the private 
credits to be sold at full value) be used to help reduce the public 
land reforestation backlog?
    Answer. The challenge in allowing public lands to play a role in 
the carbon markets is one of additionality. That is, how can you credit 
sequestration that is already occurring? Similarly, care should be 
given so that public land sequestration activities should occur in the 
context of managing for healthy, diverse, and productive landscapes so 
as to be consistent with the agency's underlying legal mandates. Using 
carbon credits generated by planting to reduce the reforestation 
backlog on public lands as a hedge or to insure private carbon credits 
generated by planting trees on private lands is an idea that Congress, 
industry, the agency, and conservationists should carefully explore. We 
should be open to trying a diversity of approaches and ideas in 
managing for healthy, diverse, and productive forest landscapes.
    Question 5. In your testimony you indicate that fiber from fuels 
reduction on public lands should be used to generate biomass. Does this 
mean that you would oppose any definition of biomass that would exclude 
all fiber from public lands?
    Answer. Fiber from fuels reduction on public lands should be used 
to generate biomass where it is generated in an ecologically 
sustainable fashion. We must avoid creating incentives to generate 
biomass from federal forests in ways that may be ecologically unsound. 
With that in mind, the proper definition of biomass will be influenced 
by the context in which it is placed.
    Mr. Wood in your testimony you mention protecting the Copper-Salmon 
area in wilderness. In 2002, the Biscuit fire raged in the Kalmiopsis 
Wilderness for over two months burning almost every acre in that 
wilderness along with another 350,000 plus other acres. I believe that 
occurred during your time at the Forest Service.
    Efforts to fight that fire were hampered by a lack of access and 
initial indecision on whether or not to fight the fire, since it was 
close to the Wilderness.
    Question 6. In hindsight, did the Wilderness designation help 
maintain and improve the conditions of those watersheds when the 
Biscuit fire ravaged them?
    Answer. The 500,000 acre Biscuit Fire burned at varying 
intensities. The Forest Service estimated that 63 percent burned at low 
or very low intensity; 23 percent at moderate intensity; and 14 percent 
at high intensity. Although nearly all of the Kalmiopsis Wilderness was 
within the Biscuit Fire Boundary, much of the wilderness itself 
actually did not burn, and much of what did burn burned at low 
intensity. As a result, the impacts to watersheds within the wilderness 
were varied. The areas that did burn at higher intensities were mostly 
very minor long-term impacts because of the good condition of the 
watershed. Other impacts occurred later as a result of salvage logging.
    The remoteness of the area, including wilderness designation, 
influenced the early decision by the Forest Service not to suppress the 
fire, but the major rationale not to attack the fire immediately 
stemmed from the large number of other high priority fires burning 
across the West at the time. In its early stages, the fires that were 
to combine to form the Biscuit fire simply were very low priority 
compared to other big fires that were immediately threatening 
communities in other parts of Oregon and elsewhere in the West.
    Question 7. When fire or insects and disease kill most of the trees 
in a National Forest have we improved the headwaters of the streams 
that flow from those lands?
    Answer. No. Impacts such as fire, insects and disease are expected 
to intensify as the climate changes. In order to enable trout and 
salmon to cope with changes in climate, we must protect, reconnect and 
restore habitat. This comprehensive approach helps ensure that there 
are intact habitats to serve as strongholds for fish and enough 
connectivity that fish can move about a watershed to escape localized 
impacts or recolonize impacted habitat after a catastrophic event.
    Question 8. Understanding your strong desire to improve the 
watersheds and the streams as well as fishing in the forest, why is it 
acceptable to stand by and refuse to mechanically thin these forests 
when the potential for wildfire carries such risk to these lands and 
waters?
    Answer. ``Standing by'' is not acceptable. Neither should we 
approach these problems with a willy-nilly, drop the blades and let the 
chain-saws rip approach. Thinning overly dense forest stands in order 
to reintroduce fire and rebalance fire return intervals is logical, and 
sorely needed across many national forests. The first priority for such 
treatments should be where forests and human communities intersect.
    You also pushed for protecting roadless areas.
    Question 9. When a roadless area burns and the A and B horizons of 
the soil are destroyed is that better or worse than building roads into 
an area so the fire fighters can access the area when fires start?
    Answer. Native trout and salmon across the West, and the ecosystems 
of which they are part, have evolved with fire. Trout and salmon 
thrived for thousands of years in these natural ecosystems without the 
intervening hand of man. Furthermore, it has been demonstrated that 
roadless areas comprise a disproportionately high percentage of native 
trout habitat. On many western landscapes, native trout have been 
eliminated from most roaded areas and persist only in roadless 
headwater areas. These lands harbor sensitive native species precisely 
because they are free of roads and the attendant impacts such as 
habitat degredation and non-native species introduction. The protection 
of roadless areas is an important component in a comprehensive approach 
to conserving trout and salmon.
    Question 10. After an area burns and then the area is hit by a rain 
storm that washes thousands of cubic yards of soil and rock into the 
streams is that better or worse for the streams and fish than those 
plugged culverts that you discussed at the hearing?
    Answer. Events such as those described in the question above 
underscore the importance of restoring fish passage at blocked 
culverts. By restoring connectivity, we enable fish to move when faced 
with such habitat impairments. Watersheds with adequate habitat 
connectivity are more resilient to the effects of fire and flood.
                                 ______
                                 
         Response of Beverly Law to Question From Senator Wyden
    Question 1. If I understood your testimony, you both agree that a 
``full carbon accounting'' should be employed when considering the 
effects of forest management on carbon. But I have the sense that just 
about everybody has a different view of what exactly that means in 
practice. Is my sense on this accurate and, if so, where does that 
leave this Committee in crafting Federal forest management policy? To 
give one example, I wonder if the amount of credit to give wood 
products for C sequestration is widely accepted and how that would be 
quantified? Do you have any suggestions for how to standardize full 
carbon accounting?
    Answer. I am involved in methods development and providing 
recommendations for improving national and international estimates of 
forest carbon sources and sinks (NRC committee report on Verifying 
Greenhouse Gas Emissions for a Climate Treaty (in review), Group on 
Earth Observations (GEO) Carbon Report, Law et al. 2008 Terrestrial 
Carbon Observations: Protocols for Vegetation Sampling and Data 
Submission). Forest carbon accounting includes the land-based net of 
carbon uptake by photosynthesis and losses from respiration by plants 
and microbes, and decomposition. This portion of the budget is best 
measured by the eddy covariance method (an atmospheric measurement 
representing an area of <1 square kilometer), but it is attempted 
partially through summing up inventory data on changes in carbon stocks 
in soil and in live and dead biomass above and belowground between two 
measurement periods (e.g. 5 years, which needs to be reduced to annual; 
Law et al. 2008). Other carbon losses must be accounted for, including 
that from land use (thinning, complete harvest) and emissions from 
fire. When a forest is thinned, more debris is typically added to the 
surface (decomposition ensues) or an underburn treatment is applied and 
most of the small dead material on the surface is emitted to the 
atmosphere (pulse emission loss). When a forest is harvested, about 25-
50% of the harvested amount of carbon is released to the atmosphere 
during the manufacturing process (the value within this range depends 
on the type of wood product). Long-lived harvested wood products are a 
potential CO<INF>2</INF> sink, although the average lifetime of wood 
products is relatively short (20 years) and the UNFCCC accounting rules 
for them have not yet been agreed upon. In addition, there are carbon 
costs of burning fossil fuel to harvest material, transport it to mills 
and in manufacturing. This must be included in evaluating the merits of 
biofuels harvesting (Jaeger et al. 2009. Biofuels in Oregon from an 
Economic and Policy Perspective). In addition, there is a time factor--
it takes about 20-50 years to grow the wood that is harvested for 
biofuels, and it may take only a few years for that carbon to be 
released to the atmosphere. So, the net of both biological processes on 
site, and transport and manufacturing carbon costs should be included 
in the analysis. Again, these accounting methods are being recommended 
internationally (see citations).
    International assessments should include reporting of emissions and 
sinks should include all lands, not just managed lands, which would 
allow credit for maintaining carbon in mature and old forests (NRC 
2009).
       Response of Beverly Law to Question From Senator Bingaman
    Question 1. Dr. Oneil's testimony discussesd the C emissions 
produced by wildfires, specifically articles published by Mason (2006), 
Wiedinmyer & Neff (2007), and Bonnicksen (2009). It is my understanding 
that you have studied and published on this issue.
    Can you briefly discuss the best available science on carbon 
emissions produced by wildfires?
    Answer. The best available science on carbon emissions from 
wildfires is field observations of changes in live and dead pools, 
surface litter and soil after wildfires of different severities (low to 
high). We conducted such a study and quantified combustion of the pools 
in the different severities. These data are desperately needed for the 
calibration of remote sensing data and models that are used to produce 
estimates for landscapes, states, regions, the U.S., and globally. 
Unfortunately, our data were not published or used by the references 
cited by Dr Oneil. Those references have large uncertainties associated 
with them, and I had contacted one of the authors to let them know 
their estimates were large overestimates. Our emissions estimates from 
measurements before and after fire showed that emissions from litter 
and duff ranged from 70-100% depending on fire severity (the high value 
is for high severity), whereas Wiedeinmyer & Neff (2007) used values of 
80-90% over N America. Our emissions estimates for tree stems were <1% 
to 3% for stems less than 7.6cm in diameter (3 inches), depending on 
fire severity. Our measured values are somewhat lower than those used 
by modelers. Wiedinmyer & Neff (2007) used 30% for tree stems (compared 
to our measured 3% for high severity fire) when modelling high severity 
combustion across N America (Campbell et al. 2007). If we applied those 
percentages to one of the fires on which we made these measurements, it 
would lead to a large overestimation of pyrogenic emissions, in part 
because a significant portion of the biomass in large trees experience 
very little wood combustion. On the Biscuit Fire, we found that 57% of 
the total pyrogenic emissions were from the litter layer plus duff and 
mineral soils. The next largest source was dead wood (19% of total 
emissions). For Oregon, our estimate of fire emissions based on our 
observations were used to calibrate a carbon cycle model and we used 
Landsat remote sensing date that identified fire area and severity 
annually over the state. Our estimate of wildfire emissions averaged 
1.07 Tg carbon per year over 10 years, which averaged 7% of the 
equivalent of Oregon's fossil fuel emissions.
    We are currently working on an analysis and publication that 
provides new estimates of fire emissions and the effects of fire on the 
North American carbon budget. This is a synthesis activity that is part 
of the North American Carbon Program, and it will be submitted to a 
peer reviewed journal and likely will be included in the next State of 
the Carbon cycle report.
                                 ______
                                 
        Responses of Tom Tidwell to Questions From Senator Wyden
    Question 1. What is the Forest Service doing to promote biomass 
utilization?
    Answer. Our Nation's forests are a sustainable, strategic asset in 
achieving and enhancing U.S. energy security, economic opportunity, 
environmental quality, and global competitiveness. A sustainable 
renewable bioenergy and biobased products sector is a growing source of 
jobs in the U.S. economy that contributes to energy security and 
greenhouse gas emissions reduction. Biomass has the potential to supply 
an increasing proportion of U.S. liquid transportation fuels, 
chemicals, and substitutes for fossil fuel-intensive products.
    One of the greatest challenges facing forest landowners and 
managers in the United States is restoring, maintaining, and enhancing 
the health and productivity of forest systems. Restoring forests to 
increase resiliency and reduce the risk of loss from fire, insect or 
disease, often entails the use of thinning and prescribe fire which 
involves the removal of large quantities of small-diameter and low-
quality wood that currently has little or no commercial value. This 
woody biomass is a potential feedstock for bioenergy and biobased 
products.
    The Forest Service has developed a strategy to promote woody 
biomass utilization. The strategy was developed in 2006 and 2007 with 
national effort to look at how to utilize woody biomass at all levels 
of the agency. We gathered employees from all levels of the agency to 
ensure this was a grass roots effort to provide a realistic strategy on 
the key components field units needed:

  <bullet> This strategy is focused on:

    --Ensuring a reliable and sustainable biomass supply;
    --Helping develop new and expanded markets for bioenergy and 
            biobased products; and
    --Providing the science and technology for: sustainable and 
            economical forest biomass management and production 
            systems, competitive biofuels and biopower conversion 
            technologies and high-value bioproducts, and information 
            and tools for decision-making and policy analysis.

  <bullet> Forest Service accomplishments in wood-based bioenergy and 
        biobased products include:

    --A Woody Biomass Utilization grants program targeted toward small 
            businesses to help build capacity for biomass utilization 
            in support of fuel reduction and restoration. Since its 
            inception in 2005, the program has provided over $26.3 
            million (110 grants) towards projects ranging from biomass 
            boilers for schools and prisons, to helping businesses 
            acquire equipment that improves processing efficiencies. 
            These grants have been awarded to small businesses, non-
            profits, tribes and local state agencies to improve forest 
            health, while creating jobs, green energy and healthy 
            communities.
    --A system of Coordinated Resource Offering Protocol (CROP) 
            studies, including 10 sites across the US, which makes 
            biomass supply information available to potential 
            investors. (http://forestsandrangelands.com)
    --A multi-partner consortium (Consortium for Research on Renewable 
            Industrial Materials) conducting life cycle analysis of 
            wood products and forest biomass-based fuel products 
            (http://www.corrim.org/).
    --Proposed innovation platform for multi-feedstock bioenergy pilot 
            plant to investigate biorefinery concept at the Forest 
            Products Laboratory (FPL). This facility would be the 
            central source for the building's heating and electrical 
            system along with producing a liquied bio-fuel as a 
            byproduct. Excess power produced by the facility could be 
            sold back to the community's power grid. This is currently 
            in the planning stages.
    --Cooperation with DOE on BioMax, a small scale combined heat and 
            power system for supplying heat and electricity from wood 
            for localized applications and sole source supply in remote 
            areas.
    --Report: Increasing Feedstock Production for Biofuels: Economic 
            Drivers, Environmental Implications, and the Role of 
            Research, an economic assessment encompassing feedstock 
            production from agriculture and forestry sources. (http://
            www.usbiomassboard.gov/pdfs/
            8_Increasing_Biofuels_Feedstock_Production.pdf).
    --Report: Economics of Biomass Feedstocks in the US: Review of the 
            Literature. (http://www.usbiomassboard.gov/pdfs/
            7_Feedstocks_Literature_Review.pdf)
    --Fuel Reduction Cost Simulator, a tool that simulates the cost of 
            forest operations that are undertaken to reduce fuel loads 
            by cutting and removing trees for solid wood products or 
            chips (http://www.fs.fed.us/pnw/data/frcs/frcs_home.htm)
    --Life cycle analysis of woody biomass to energy systems as part of 
            a wildfire and climate mitigation strategy (``Biomass to 
            Energy: Forest management for wildfire reduction, energy 
            production and other benefits,'' http://www.energy.ca.gov/
            2009publications/CEC-500-2009-080/CEC-500-2009-080.PDF)

  <bullet> Examples of turning biomass into energy include:

    --Fuels for Schools (Montana, Vermont, Pennsylvania)
    --Use of wood fuel at power generating plants of 10 MW to >50 MW 
            capacity (California, New Hampshire, Vermont, Michigan, 
            South Carolina)
    --Historical and continuing use of surplus wood, bark, and black 
            liquor for heat and electricity at primary wood 
            manufacturing plants (Nationwide)

  <bullet> MOU between ARS and FS R&D to cooperate on research and 
        development that focuses on synergistic applied research, 
        development, and deployment of forest and agricultural biomass-
        to-bioenergy technologies.
  <bullet> Biofacilities Initiative: An interagency working partnership 
        between DOI, DOE, and FS to complete feasibility studies on 113 
        potential sites on Federal, State and Tribal facilities. The 
        Biomass technology included in the potential sites range from 
        thermal applications, combined heat and power to large scale 
        power projects. Each site analysis will include a resource 
        assessment, market evaluation, environmental planning steps 
        required, technology evaluation, and financing options. This 
        project is scheduled for completed by October, 2010.

    Question 2. My understanding is that both the Forest Service and 
Department of the Interior have explored marketing tree-planting 
projects to generate funds from private sources based on the trees' 
ability to sequester carbon. Do you have any regulations or formal 
policies on those projects or on participating in existing carbon 
markets in general? If so, please cite them.
    Answer. We currently do not have regulations or formal policies 
specific to participation in carbon markets for tree-planting carbon 
sequestration projects. In May of 2008 the Chief of the Forest Service 
sent a letter to the regional foresters stating that at this time, the 
Forest Service is not engaging in partnerships that involve the selling 
and trading of carbon credits in the market. The letter also discusses 
the Memorandum of Understanding between the Forest Service and the 
National Forest Foundation to work together to develop demonstration 
projects that quantify biological carbon sequestration through targeted 
reforestation projects. Donations to the NFF's Carbon Capital Fund are 
used to replant areas on National Forests that have been so severely 
altered by wildfire that these formerly forested areas will be 
difficult to regenerate naturally. These reforestation demonstration 
projects are projected over the next decades to sequester a measurable 
and verifiable amount of carbon beyond what would occur without the 
planting. Donors may voluntarily report the expected carbon uptake and 
storage associated with the specific reforestation project.
    Question 3. Across the country, there are countless examples of 
fish and wildlife adaptation projects that have benefited both the 
ecosystem and the surrounding community. For example, when headwaters 
are protected, drinking water filtration costs are reduced and rivers 
get reconnected to floodplains. Do you prioritize adaptation projects 
based on the ecosystem services they render or have the potential to 
render?
    Answer. The Forest Service has a long history of implementing 
watershed and ecosystem restoration projects. Adaptation projects are 
prioritized through a variety of modeling and valuations. They 
generally consider the ecosystem services/ecological values in a given 
area, the existing condition of those resources, the scale of threats 
to them, and the technical, legal, political, social, and institutional 
opportunities and limitations for addressing those threats. We are 
currently assessing methods to prioritize watershed restoration in a 
more consistent way across the Nation. This Watershed Condition 
Framework Assessment has been tested and reviewed. Each Forest will 
complete these assessments this fiscal year. Region Five (California 
and Pacific Islands) is currently developing an ecosystem services 
framework that will inform program design, national forest plan 
revisions and cooperative forestry activities.
    Question 4. America's forests, farms and ranches provide a 
significant supply of drinking water for our country. I understand that 
protecting water resources is a top priority for the Forest Service, 
especially in light of climate change and the need to manage natural 
resources so that they can withstand the ongoing and expected impacts. 
Given the already existing stresses on our water resources, how do you 
plan to prioritize the protection of clean sources of water on National 
Forest lands in the face of climate change?
    Answer. Climate change and its effects on water are expected to 
intensify freshwater scarcity. The Forest Service developed is a 
Watershed Condition Assessment. This identifies vulnerable watersheds 
at risk from hydrologic changes due primarily to climate change and 
will provide a method of prioritization for restoration.
    In addition, we have a variety of prioritization models for our 
watershed restoration program and we have efforts underway to do that 
in a more consistent manner across the country. Some administrative 
units have begun efforts to evaluate their existing strategies to 
incorporate metrics for climate change risk. For example, the Pacific 
Northwest (PNW) Region is working with scientists at PNW Station and 
University of Washington to conduct a regional-scale vulnerability 
assessment for water and aquatic resources. Other vulnerability 
assessments have been initiated on the Shasta Trinity, Ouachita, White 
River, and Apache-Sitgreaves National Forests.
    Our more recent Land Management Plans include ecosystem restoration 
as a key outcome. As we continue to implement those plans we will make 
strides toward ecosystem health and resiliency that will be more 
adaptable to changing climate. The National Forest Management Act 
requires the Forest Service to revise its management plans for each 
national forest on a regular basis, using the Planning Rule as a 
consistent guide. We are currently working on a new Planning Rule that 
will allow National Forest and Grasslands to produce updated Plans that 
address today's demands and conditions, as well as anticipate future 
conditions due to climate and other changes. Ecosystem services will 
play an important role in helping the national forests to set 
priorities, strengthen their stewardship relationships with adjacent 
communities and ensure the sustainable provision of environmental 
benefits.
    The Forest Legacy Program, in State and Private Forestry, uses 
conservation easements to prevent the development of high value forests 
that are critical for watershed and wildlife habitat protection and is 
a prime tool for climate change adaptation through connectivity of 
protected lands for species movement across the landscape. Tracts of 
land are selected based on a State Assessment of Need that evaluates 
important ecosystem services and critical habitats. Since 1991, Forest 
Legacy has protected almost 1.6 million acres in 46 states and 
territories.
    Question 5. In a Forest Service Environmental Analysis from 2001, 
the agency stated that it could potentially decommission as many as 
120,000 to 186,000 miles of unneeded roads and unauthorized routes. Has 
the Forest Service ever studied how much carbon could potentially be 
sequestered if these unneeded roads and unauthorized routes were re-
vegetated?
    Answer. This issue has not been studied.
    Question 6. Congress has appropriated $90 million in FY 2010 for 
the Forest Service Legacy Roads and Trails Remediation Program. Can the 
road decommissioning and storm-proofing work accomplished under this 
program help to ameliorate flooding and other impacts of climate change 
on national forest watersheds and on downstream communities?
    Answer. The Legacy Roads and Trails Program is playing an essential 
role in achieving the Secretary's vision of managing our forests to 
protect and restore the Nation's water resources and make them more 
resilient to climate change. This program is funding many critical 
activities, including road decommissioning, stormproofing, relocation, 
critical maintenance, and restoration of fish passage at road-stream 
crossings. Strategic and large-scale implementation of these activities 
can, over time, provide numerous benefits.
    Perhaps the greatest benefits of road restoration will result from 
reducing the consequences of floods, fire, and other disturbances 
likely to be exacerbated by climate change.<SUP>1 2</SUP> For example, 
relocating roads away from floodplains and improving road drainage 
systems can reduce damage to infrastructure.\3\ Road treatments can 
also reduce storm-driven delivery of fine sediment to streams, which 
can lower treatment costs and improve the reliability of some water 
supplies. Road restoration can also improve the health and resiliency 
of aquatic habitats, which are already stressed and will be adversely 
impacted by climate change.<SUP>4 5</SUP> For example, reconnecting 
aquatic habitats at road-stream crossings and reducing existing 
sediment and temperature impacts, are perhaps among the most important 
things we can do to protect our fisheries in light of climate change.
---------------------------------------------------------------------------
    \1\ Gucinski, H., M.H. Brookes, M.J. Furniss and R.R. Ziemer. 2001. 
Forest Roads: A synthesis of scientific information. PNW-GTR-509. 
Portland, OR: USDA Forest Service Pacific Northwest Research Station. 
120 p.
    \2\ Rhee, J., W. Chung, J.A. Efta, W.J. Elliot and R.B. Foltz. 
Under Review. Assessing the Impacts of Future Climate Changes on Forest 
Road Erosion using the Water Erosion Prediction Project (WEPP) Model: 
Case Studies in Lake Tahoe, NV and Mica Creek, ID. Pullman, WA: 
Washington State University.
    \3\ Elliot, W. J. and L. M. Tysdal: 1999. Understanding and 
reducing erosion from insloping roads. Journal of Forestry. 97(8): 30-
34.
    \4\ Gucinski, H., M.H. Brookes, M.J. Furniss and R.R. Ziemer. 2001. 
Forest Roads: A synthesis of scientific information. PNW-GTR-509. 
Portland, OR: USDA Forest Service Pacific Northwest Research Station. 
120 p.
    \5\ Foltz, R.B., K.A. Yanosek, and T.M. Brown. 2008. Sediment 
concnetration and turbidity changes during culvert removals. Jour. of 
Environmental Mgt 87:329-340.
---------------------------------------------------------------------------
       Response of Tom Tidwell to Question From Senator Bingaman
    Question 1. Managing forests for adaptation and carbon 
sequestration can be complimentary-for example, through forest 
ecosystem restoration projects. But, in other cases, managing to 
maximize sequestration may be counterproductive from an adaptation 
standpoint, and vice versa.
    Can you explain what your current policies are for addressing the 
latter situation-where managing to maximize adaptation and 
sequestration are competing goals?
    Answer. Carbon management is a complex issue and the amount of 
carbon stored on a given site is only part of the picture. A ``one-
size-fits-all'' approach cannot be successful in this increasingly 
complex and dynamic management environment. Instead, our strategy for 
the National Forest System focuses on sustaining ecosystem processes 
and functions, which are the foundation of ecosystems. This involves 
restoring and maintaining the resilience and adaptive capacity of 
terrestrial and aquatic ecosystems. Thinning overly dense stands and 
reintroducing controlled use of fires are examples of tools to restore 
ecosystem processes and functions.<SUP>6 7 8</SUP> This strategy 
requires actively managing resources and infrastructure so that 
stressors, threats, and vulnerabilities are reduced or eliminated. 
Examples of stressors and vulnerabilities include non-native invasive 
species, lack of disturbance or management causing overly dense 
forests, and undersized road culverts and bridges too small to handle 
increasing storm flows caused by winter precipitation falling as rain 
rather than snow.
---------------------------------------------------------------------------
    \6\ Fettig, Christopher J.; Klepzig, Kier D.; Billings, Ronald F.; 
Munson, A. Steven; Nebeker, T. Evan; Negron, Jose F.; Nowak, John T. 
2007. The effectiveness of vegetation management practices for 
prevention and control of bark beetle infestations in coniferous 
forests of the western and southern United States. Forest Ecology and 
Management, Vol. 238: 24-53.
    \7\ Johnson, Morris C.; Peterson, David L.; Raymond, Crystal L. 
2007. Guide to fuel treatments in dry forests of the Western United 
States: assessing forest structure and fire hazard. Gen. Tech. Rep. 
PNW-GTR-686. Portland, OR: U.S. Department of Agriculture, Forest 
Service, Pacific Northwest Research Station. 322 p.
    \8\ Graham, Russell T.; McCaffrey, Sarah; Jain, Theresa B. 2004. 
Science basis for changing forest structure to modify wildfire behavior 
and severity. Gen. Tech. Rep. RMRS-GTR-120. Fort Collins, CO: U.S. 
Department of Agriculture, Forest Service, Rocky Mountain Research 
Station. 43 p.
---------------------------------------------------------------------------
      Responses of Tom Tidwell to Questions From Senator Barrasso
    Question 1. Chief Tidwell, welcome to our Committee and 
congratulations on being selected to serve as the Chief of the Forest 
Service. We welcome you and thank you for your service.
    Do you agree that higher concentrations of carbon dioxide in our 
atmosphere will likely increase plant growth, provided the soil and 
water conditions are right?
    Answer. Some studies suggest that rising CO<INF>2</INF> increases 
net primary productivity by 12-23% over all species studied, but it is 
uncertain whether this is a lasting effect\9\. Studies also suggest 
that rising CO<INF>2</INF> will very likely increase photosynthesis for 
forests, but this increase will likely only enhance wood production in 
young forests on fertile soils.\10\ The response of forest ecosystems 
to elevated CO<INF>2</INF> is complex with variation across systems, 
and it is an active area of research.
---------------------------------------------------------------------------
    \9\ Birdsey, R. A.; Jenkins, J. C.; Johnston, M.; Huber-Sannwald, 
E.; Amiro, B.; de Jong, B.; Etchevers Barra, J. D.; French, Na.; 
Garcia-Oliva, F.; Harmon, M.; Heath, L. S.; Jaramillo, V. J.; Johnsen, 
K.t; Law, B. E.; Marin-Spiotta, E.; Masera, O.; Neilson, R.; Pan, Y.; 
Pregitzer, K. S. 2007. North American forests. In: King, A.W.; Dilling, 
L.; Zimmerman, G.P.; Fairman, D.M.; Houghton, R.A.; Marland, G.; Rose, 
A.Z.; Wilbanks, T.J., eds. The First State of the Carbon Cycle Report 
(SOCCR): The North American Carbon Budget and Implications for the 
Global Carbon Cycle. National Oceanic and Atmospheric Administration, 
National Climatic Data Center, Asheville, NC: 117-126, 173-176.
    \10\ CCSP. May 2008. Synthesis and Assessment Product 4.3 (SAP 
4.3): The Effects of Climate Change on Agriculture, Land Resources, 
Water Resources, and Biodiversity in the United States, P. Backlund, A. 
Janetos, and D. Schimel, lead authors. A report by the U.S. Climate 
Change Science Program (CCSP). Executive Summary.
---------------------------------------------------------------------------
    Question 2. Do you agree that for some shorter lived species like 
Lodgepole Pine and Aspen that there needs to be some management to 
avoid catastrophic collapse of those species in some areas?
    Answer. In some specific cases, active vegetation management 
programs are important not only for species such as lodgepole pine and 
aspen, but for a vast array other species found in forest ecosystems on 
the national forests. We need to manage these stands to aid in 
adaptation. We have had extensive research and practical application of 
knowledge regarding this type of active management. However, even as we 
apply what we know, we still encounter areas of uncertainty and will 
continue our efforts to address ecosystem complexities. Below is a 
summary of our knowledge regarding management in lodgepole and aspen 
forests:
                        lodgepole pine research
    Forest Service Research and Development on has been putting 
research emphasis on developing and evaluating ecosystem-based 
treatments for sustaining productivity and biodiversity of lodgepole 
pine forests and watersheds since 1961. The research topics covered 
are:

          1. Evaluate and quantify the ecological and biological 
        effects of alternative silvicultural treatments and prescribed 
        fire in lodgepole pine forests by creating reserve stand 
        structures that emulate those created by natural disturbances.
          2. Evaluate damage to reserve trees relative to alternative 
        stand densities and structures and examine regeneration and 
        understory vegetation changes associated with alternative 
        silvicultural treatments.
          3. Develop linkages between vegetation management activities 
        and hydrologic responses at the sub-watershed level.
          4. Manage and integrate the knowledge gained from the variety 
        of studies to improve ecosystem-based management in lodgepole 
        pine forests.
          5. Develop demonstration sites for education of the general 
        public, students, professional, and researchers.
          6. Test and verify hydrologic and vegetation models and 
        evaluate harvest costs and product recovery values associated 
        with alternative silvicultural prescriptions and harvest 
        systems.
          7. Contribute to the scientific knowledge through publication 
        of results in appropriate outlets.
          8. Integrate knowledge gained from these studies into 
        ecosystem management guidelines that enhance the function and 
        sustainability of lodgepole pine forests in the Northern 
        Rockies through a variety of technology transfer products.
                             aspen research
    The development of aspen forests is closely linked to fire or 
disturbance. After a stand-replacing disturbance by fire, the root 
systems of aspen usually survive and send up new stems to regenerate 
the forest. One of the restoration strategies forest researchers and 
managers have pursued is modifying the fire cycles, such as determining 
the frequency of fire required to sustain aspen in areas where fire has 
been suppressed in the past.
    Aside from regeneration following fire events, aspen stands 
sometimes regenerate following a massive die-off of mature trees. But 
in some cases the root system is completely dead, which results in a 
complete die-off of the aspen stands, a phenomenon called Sudden Aspen 
Decline (SAD) that is currently pronounced in western Colorado, 
southern Utah, and southwest Wyoming. Researchers are looking at the 
impact that insects and diseases have on regeneration associated with 
SAD as well as the effect of drought. Researchers and managers are 
focused on finding ways to restore aspen throughout the West.
    Question 3. The President recently signed an executive order that 
all management will be undertaken with climate change in mind. Can you 
give me a couple of examples of the specific changes your agency will 
make to respond to that Executive Order?
    Answer. President Obama recently issued Executive Order 13514, 
Federal Leadership in Environmental, Energy and Economic Performance. 
This executive order focuses on improving energy efficiency, water use, 
waste streams and related environmental footprint parameters associated 
with federal buildings, motor vehicle fleets and federal contractors/ 
permit holders. Section nine of the executive order also requires 
agencies that manage federal lands to ``consider and account for 
sequestration and emissions of greenhouse gases resulting from Federal 
land management practices.'' The executive order tasks the Department 
of Energy with recommending the reporting and accounting procedures 
under Section Nine. The Forest Service is currently working with the 
Department of Energy and other land management agencies on implementing 
the executive order.
    Question 4. In January Chief Gail Kimbell released direction on how 
to deal with climate change in forest planning and project NEPA 
documentation development. Within that direction I found a table that 
says:

          Forest stands are at stand densities and of species 
        composition such that they wille resilient under a variety of 
        potential future climates. Lower densities are moreikely to 
        survive future drought stress, fire, and insect and disease 
        problems.he following residual stand densities should be used 
        for thinning stands ofifferent forest types and seral stages. 
        These residual densities are based onossible annual 
        precipitation reductions of 10-20 percent and possible 
        increasesn evapotranspiration during peak periods of 5-10 
        percent.

      Residual Density Ranges (TPA) by Forest Type and Seral Stage
------------------------------------------------------------------------

------------------------------------------------------------------------
Forest Type                    Young Stage      Mid-Stage    Old Stage
Ponderosa Pine                 100-200          70-90        30-50
------------------------------------------------------------------------
Douglas-fir                    150-250          100-125      50-80
Lodgepole Pine                 200-300          60-150       20-60
------------------------------------------------------------------------

    I want to focus on the two predominant species in my State, 
Ponderosa Pine and Lodgepole Pine.
    Understanding that the guidelines reflect a desired future 
condition, of having 20 to 60 old Lodgepole Pines per acre can you give 
me a ballpark figure of how many Lodgepole Pines there currently are 
per acre on the Routt and Medicine Bow National Forests?
    Answer. This hypothetical table was included in the document for 
illustrative purposes only to assist planners in visualizing how this 
information could be presented in plan revisions. To actually construct 
this table for use in forest planning would require data collection and 
careful analysis to ascertain appropriate levels of residual stand 
density for a given species under specified conditions. The number of 
live lodgepole pine per acre presently found on the two forests varies 
from zero to in excess of one thousand trees per acre depending on 
location and stand age.
    Question 5. Can you tell me how much mature timber would have to be 
removed, if those trees were still alive to meet that guideline?
    Question 6. Can you tell me if the projected funding for FY 2010 in 
the Region Two timber program will allow your Regional Forester to meet 
that goal and if so on how many acres of treatments have you tasked him 
with?
    Question 7. How about Nationally? How much funding would you need 
to reduce stand stocking to the levels called for in the January 
direction?

          a) And, How much combined timber, vegetation management and 
        hazardous fuels funding do you have in FY 2010 to implement 
        these guidelines?
          b) Can you provide us with a table that displays the 
        approximate number of acres in the National Forests that do not 
        meet these guidelines and how much funding it will take to 
        bring those acres into compliance with the guidelines?

    Question 8. Could you provide me the same information (in Wyoming) 
for all species listed in the table and respond to each of the 
questions I asked on Lodgepole Pine?
    Question 9. Could you provide me the same information for all 
National Forests (collectively)?
    Answer. Question 5 through 9 all reference implementation of the 
example data intended for illustration only. The residual stand 
densities shown in the example table were not intended to be used as 
guidelines and doing so would lead to erroneous information and 
conclusions.
    Question 10. In your testimony you expressed the need to undertake 
all landownership restoration. Given the conditions on the federal land 
and the apparent difficulty the agency is having even putting out fires 
on the federal land, can you explain why you would think most rational 
private land owners would be willing to listen to the Forest Service or 
the federal government about how to best manage their forest lands?
    Answer. The Forest Service respects the diverse range of objectives 
and values for which private forest lands are managed. Threats to those 
objectives and loss of values from wildfires, insect and disease 
epidemics, invasive species, and climate change are being experienced 
by all landowners.
    To make measurable and effective progress in addressing the 
vulnerability of forests and water resources to these threats, 
Secretary Vilsack's ``all-lands'' approach to restoration requires the 
involvement and support of many partners, including States, tribes, and 
willing private forest land owners. Examples of this approach already 
in place are the many Community Wildfire Protection Plans 
collaboratively developed and implemented across all ownerships 
throughout the country.
    The Forest Service leadership is developing a response to implement 
Secretary Vilsack's all-lands approach to restoring priority 
landscapes. The Forest Service's State and Private Forestry and 
Research and Development programs have been providing valuable support 
to private landowners since the 1920s. Both programs offer to 
landowners the best available science and technology in silviculture, 
forest pest management, fire and fuels management, wood technology and 
marketing, and other key information and support services, including 
funding of land management activities through the States.
    Many of the issues related to wildland restoration, like climate 
change, are not bounded by who owns the land. We engage our partners to 
address common conservation goals. There are numerous ongoing efforts 
at both national and local levels:

  <bullet> The Congress has provided the Forest Service with many 
        tools, like the Collaborative Forest Landscape Restoration 
        Program and the Healthy Forests Restoration Act, that will help 
        us work more effectively across boundaries to achieve common 
        objectives. The Food, Conservation, and Energy Act of 2008 
        (Farm Bill) also provides programs like the Forest Stewardship 
        Program which helps private landowners achieve their objectives 
        to sustain the health of private forested lands.
  <bullet> Through our State and Private Forestry programs, and new 
        authorities provided in the Farm Bill we are currently working 
        with state partners to assess the condition and health of 
        forest lands. These assessments will help the Forest Service 
        and our partners identify landscapes that have priority 
        restoration and conservation needs. These State Forest Resource 
        Assessment and Strategies will be completed and submitted to 
        the Secretary of Agriculture by June, 2010 We also engage in 
        active partnerships to offer technical and financial assistance 
        to rural forest landowners and private conservation groups, and 
        to communities concerned about forests and open space in urban 
        areas.
  <bullet> The Forest Service is developing a strategic framework to 
        guide the integration of climate change into the programs, 
        policies, processes, and partnerships of the agency. I have 
        asked our field leadership to apply this guidance in 
        development of broad level, integrated landscape conservation 
        strategies that focus on water and water-related services in 
        light of climate change. Concurrently, we will work with state 
        and local partners to assure that our approach is effective in 
        achieving partner objectives on landscapes that cross multiple 
        ownerships.

    The cross-boundary coalitions that we build through these efforts 
will help us restore our wildlands in ways that achieve national broad-
scale restoration objectives.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

Statement of H. Sterling Burnett, Ph.D., Senior Fellow, National Center 
                          for Policy Analysis
    Chairman Wyden, Ranking Member Barrasso, and other members of the 
subcommittee thank you for allowing me the opportunity to testify 
today. I represent the National Center for Policy Analysis (NCPA) a 
nonprofit, nonpartisan public policy research organization dedicated to 
developing and promoting private alternatives to government regulation 
and control, solving problems by relying on the strength of a 
competitive, entrepreneurial private sector.
    Global warming is a reality. But whether it is a serious problem--
and whether emissions of carbon dioxide (CO<INF>2</INF>) and other 
greenhouse gases from human fossil fuel use are the principal cause--
are uncertain. The current debate over the U. S. response to climate 
change centers around greenhouse gas emissions reduction policies, 
which are likely to impose substantially higher costs to society than 
global warming might.
    The question remains; what should be done about the threat of 
global warming? Unfortunately, many proposals--including mandatory 
limits on CO<INF>2</INF> emissions--would be much more costly to 
society than the danger it seeks to avert. Fortunately, there are 
policies that could be adopted that are desirable in their own right 
and are commendable, even if there were no threat of global warming. I 
outlined several of these policies in a report called 10 Cool Global 
Warming Policies that was published by the NCPA this past June. These 
policies would reduce greenhouse gas emissions, increase energy 
efficiency, reduce harms associated with global warming or increase the 
world's capabilities to deal with climate-change-associated problems. 
One of these policies is an alternative forest management strategy 
that, among other things, can reduce wildfires and increase forest 
health.
    Forests are carbon sinks: As trees grow they remove carbon dioxide 
from the atmosphere and store it in their trunks, limbs and roots. In 
addition, forest soils, made up of dead organic matter built up over 
time, store a large amount of carbon. The canopy provided by densely 
packed tropical and temperate forests slow the decay of fallen leaves 
and other organic matter, slowing the release of carbon and 
facilitating its incorporation into the soil.
    A 40-year study of African, Asian and South American tropical 
forests found that each year tropical forests absorb as much as 18 
percent of all the CO<INF>2</INF> emitted by burning fossil fuels. 
Temperate forests in the United States also absorb and store carbon. In 
2004, the Environmental Protection Agency (EPA) estimated that forests 
sequestered 10.6 percent of the CO<INF>2</INF> released by the 
combustion of fossil fuels, with urban trees absorbing another 1.5 
percent. Other research indicates that U.S. forests may sequester as 
much as 40 percent of U.S. human greenhouse gas emissions.
               forest fires are a growing climate concern
    Unfortunately, poor forest management in the United States and 
other countries contributes to wildfires, which directly add carbon to 
the atmosphere and reduce the amount of CO<INF>2</INF> absorbed by 
forests. For instance:

  <bullet> Wildfires in the United States release about 290 million 
        metric tons of CO<INF>2</INF> into the atmosphere every year--
        equaling as much as 6 percent of the nation's annual emissions 
        from burning fossil fuels.
  <bullet> Pine beetle infestations have killed so many trees in 
        Western Canada that they have contributed to a rise in large 
        wildfires, turning Canadian forests from a net carbon sink that 
        absorbs 55 million tons of CO<INF>2</INF> per year into a net 
        emitter of up to 245 million tons annually.
  <bullet> The Australian government calculated that wildfires in 2003 
        released more than 190 million tons of CO<INF>2</INF>; 
        accounting for one-third of the country's total emissions, and 
        it found that fires in 2006 and 2007 released an additional 360 
        million tons of CO<INF>2</INF>.
  <bullet> In terms of total CO<INF>2</INF> emissions, Indonesia is the 
        third-largest emitter worldwide due largely to its annual 
        wildfires--which emit nearly five times as much as its energy, 
        agriculture and waste sectors combined.
          how government ownership contributes to forest fires
    Large-scale forest fires are primarily the result of poor 
management of publicly owned forests. Federal mismanagement of U.S. 
forests has increased the number, size and cost of wildfires over the 
past decade. Historically, the national forests have been logged to 
provide lumber for commercial activities, to prevent wildfires and to 
promote forest recreation, species protection and land management. In 
recent decades, political pressure and lawsuits from environmental 
lobbyists prevented or delayed both commercial and salvage logging, 
turning much of our national forests into tinderboxes.
                         policy recommendations
    Changing the management structure of national forests could enhance 
the quality and value of these lands.
Privatizing the forests
    The private sector currently preserves, protects and promotes many 
historically important properties and manages the majority of the 
country's forests and rangelands in ways that promote environmental 
quality and benefit the owners and the public. The United States can 
safely and perhaps profitably sell some of the hundreds of millions of 
acres of national forests for market value, giving the owners of 
adjacent properties priority for ownership.
    Possible buyers include forest product companies, sportsmen's clubs 
and environmental groups. While these lands will no longer be public 
forests, many and perhaps most will be managed sustainably, in ways 
that protect their natural character and enhance their environmental 
and economic value because of the incentives of private ownership. 
Private companies do not have the general treasury to bail out money-
losing operations and therefore seek to maintain the value of their 
lands. Furthermore, privatizing public lands would increase the tax 
base in rural areas and reduce the strain on the federal budget.
Public versus Private Management
    Private property owners have flexibility in managing their lands, 
whereas federal forest management is too often hampered by rigidity. 
For instance, when a wildfire struck near Storrie, Calif., in August 
2000, more than 55,000 acres burned, mostly in the Plumas National 
Forest (28,000 acres) and Lassen National Forest (27,000 acres). About 
3,200 acres of private forestland managed by W.M. Beaty and Associates 
also burned. However, the Forest Service and Beaty's responses couldn't 
have been more different. By 2001, Beaty foresters had:

  <bullet> Reduced the chance of a future catastrophic wildfire by 
        removing smaller dead trees and woody material--generating 
        enough clean biomass to fuel 3,600 homes for a year.
  <bullet> Harvested larger dead trees suitable for lumber processing--
        amounting to 64.5 million board feet, enough to build 4,300 
        homes.
  <bullet> Spent millions of dollars to reforest the burned land, 
        planting nearly one million seedlings of seven different tree 
        species.

    By contrast:

  <bullet> The Forest Service removed dead trees and other fuels from 
        only 1,206 acres and replanted 230 acres in the Lassen National 
        Forest.
  <bullet> In the Plumas National Forest, the Forest Service was 
        prevented from removing dead trees and reforested only 181 
        acres.

    Private forest owners are not hindered by bureaucratic federal 
rules requiring multiple studies, public hearings, comment periods and 
court challenges. Thus, they are better able to prevent infestations 
and respond quickly to disease outbreaks. Promptly removing dead and 
dying timber can prevent infestations from spreading to other areas and 
prevent potentially catastrophic fires. Private companies keep the 
number of trees per acre at an optimal level. This reduces fire hazards 
and lets sunlight reach the forest floor, which helps re-growth and 
biodiversity.
Alternatives to Outright Privatization
    For political reasons, it may be impossible to sell certain 
national forests, but there are various mechanisms or institutional 
arrangements that would confer many of the benefits of ownership 
without removing land entirely from public control.
    For instance, following a suggestion by economists Richard Stroup 
and John Baden, Congress could establish Wilderness Endowment Boards to 
own and manage national forests lands. These government-chartered, 
nonprofit entities, whose board members would be approved by Congress, 
would have a narrowly defined fiduciary duty to protect and enhance the 
natural values of the land under their charge. Activities such as oil 
and gas production, commercial hunting and other resource production 
could enhance forests without hurting the environment; such is the case 
with properties managed by the Audubon Society and the Nature 
Conservancy.
    Each individual board would decide how to balance use, recreational 
access and strict ``off-limits'' preservation, bound only by their 
understanding of what is necessary to preserve and enhance the land 
while generating the revenues necessary to manage it.

Reintroducing Competition
    Public lands retained by the federal government could still receive 
some of the environmental benefits of private ownership if federal, 
state and local governments competed for control of these lands within 
the public system. For example, teams of experts from federal and state 
agencies, environmental organizations and the timber industry in 
Montana and Minnesota compared the environmental effects of state and 
federal forest management practices. They all concluded that state 
foresters better protected watersheds and waterways from the impacts of 
logging and other activities:

  <bullet> In Minnesota, 90 percent of county lands had the highest 
        compliance rate with ``best management practices'' for 
        protecting water quality; federal forests had a slightly lower 
        compliance rate at 87 percent.
  <bullet> In Montana, 99 percent of the watersheds in state forests 
        were protected from all impacts from logging, compared to 92 
        percent in federal forests.

    Congress could allow any state or county that demonstrates superior 
economic and environmental performance to take over the management of 
the national forests within their state or area. Congress could give 
fixed but declining block grants during a transition period to the 
forestry agencies that apply and allow them to retain any revenues 
generated. The program should be allowed to run for several years so 
state and county foresters could counteract the effects of federal 
mismanagement.
    At the end of the trial, states and counties that have improved a 
forest's economic and environmental performance could be granted the 
forests outright and federal payments ended. If forests have not 
improved, they could be returned to federal control and new management 
experiments implemented. This program would provide Forest Service 
managers with an incentive to improve performance or risk losing 
control over the lands.
                    why is this a no-regrets policy?
    Any of the management regimes suggested above should decrease the 
size, intensity and frequency of wildfires, meaning less CO<INF>2</INF> 
will be pumped into the atmosphere each year and more carbon stored. 
Also, where there are currently more dead or dying trees or in burnt-
over areas, trees will be replanted at a more rapid rate, increasing 
the carbon uptake of the nation's forests.
    When pest infestations and fires do occur, the incentives for the 
new ``owners'' will be to help the forest recover as soon as possible 
in order to help wildlife recover, reduce soil erosion and stream 
destruction, restart natural ecological cycle and/ or make a profit.
    Lastly, what about international forests? Despite the various legal 
systems and property rights regimes around the world, all forests 
should benefit from a no-regrets solution suggested in the paper 
mentioned previously: the widespread adoption of agricultural 
biotechnological innovations. Scientists are genetically engineering 
trees that grow faster and can store carbon at a higher rate than 
existing varieties. Such trees can be planted in forests where 
commercial timber producers are operating and in tropical forests 
previously lost to slash-and-burn agriculture. In addition, the 
adoption of new biotech crops that increase yields, improve nutrition 
and/or reduce the need for such inputs as fertilizers should also 
reduce stress on tropical forests by reducing the need of farmers to 
move from one forest plot to the next to maintain annual production.
                                 ______
                                 
           Statement of David Moulton, The Wilderness Society
    Thank you Chairman Wyden and Ranking Member Barrasso for this 
opportunity to address our concerns regarding the use of offsets on 
public lands. The Wilderness Society shares your concern for 
maintaining the health of our public lands in the face of global 
warming. America's public lands--some 635 million acres of land and 
150,000 square miles of protected waters--are a legacy we hold in trust 
for generations to come. Global warming poses an unprecedented threat 
to the nation's iconic landscapes--our national parks, forests, 
wilderness areas, desert lands managed by the Bureau of Land 
Management, and wildlife refuges. At the same time, our country's parks 
and other public lands offer one of our best hopes for sustaining the 
plants, animals, birds, clean water and air, and recreational 
opportunities that are important to our heritage. They store carbon and 
provide large core protected areas that will be essential in adapting 
to a changing climate. These lands also provide critical services for 
our communities, including filtering the air we breathe and the water 
we drink, and play important roles in our nation's economy. Protecting 
these natural places is more important now than ever.
    You have asked about the advisability of authorizing private carbon 
offset projects on land owned by the American public.
    The Wilderness Society is not opposed to offsets in principle. 
Private offsets markets, if well-designed and well-regulated, could 
become a powerful tool for steering resources into land protection. 
However, we believe that extending this powerful tool into the arena of 
federal land management raises numerous unexamined issues that need to 
be thoroughly vetted and understood before moving aggressively in such 
a direction.
    We are aware of the limited offset experiments that have already 
been undertaken by the Fish and Wildlife Service and the Forest 
Service. It is important to understand that this experience has been 
gained in the unregulated voluntary carbon market. Much of what has 
enabled those projects to go forward would not be allowed in a 
regulated carbon market because it would not meet standards of 
additionality, permanence or measurement rigor that will be needed to 
keep offsets from undermining emissions targets.
    At the same time, these early experiments have demonstrated the 
willingness of private parties to supplement public appropriations in 
return for the right to carbon credits hosted on public lands. It is 
apparent that if offsets on public lands are allowed, they could become 
major sources of new revenue for resource-starved public agencies. It 
is also apparent that they could entangle public land managers and 
agencies in potential liability associated with enforcement intended to 
maintain the integrity of a regulated carbon offsets market.
    Here is a list of the issues that we believe your subcommittee 
would benefit from examining in detail:

          1. Effect on the cap on emissions.--Offsets on public lands 
        expand the availability of offsets generally. Offsets are seen 
        as an economically efficient method of accomplishing what 
        otherwise might be a direct reduction in emissions. But their 
        viability in a mandatory cap-and-trade regime remains to be 
        demonstrated. We believe that the Subcommittee should seek an 
        analysis from EPA regarding the pros and cons of expanding the 
        offsets playing field in this unprecedented way to assure 
        itself that it is not undermining the emissions caps.
          2. Effect on private land protection.--Offsets undertaken on 
        public lands could become a substitute for offsets on private 
        lands, especially if having a public agency on one side of the 
        deal is seen as providing an imprimatur in the marketplace. 
        This raises the prospect of reducing the incentive to protect 
        vulnerable private parcels. Adjacent private land might have 
        been saved from conversion by a carbon offset project, but now 
        is not.
          3. Effect on the private carbon offsets market.--Flooding the 
        market with offsets on public lands could impact the price of 
        offsets generally, leading to less private land protection 
        overall.
          4. Lack of additionality.--Our public lands are already 
        managed under laws that require that their health be 
        maintained. Thus it seems difficult to meet the requirement of 
        a regulated offsets market that the carbon sequestered through 
        reforestation of certain acres, for example, would not have 
        occurred anyway under prudent public land management. Indeed, 
        to the extent that the project occurs on land already 
        prioritized by land managers for reforestation, it would seem 
        that many offset projects would be sited where the next dollar 
        of appropriations would have been spent anyway. This lack of 
        additionality has not seemed to matter in the voluntary market, 
        but it will matter a great deal in the mandatory market.
          5. Lack of permanence.--Most of the contracts undertaken in 
        the voluntary market to date by the Fish and Wildlife Service 
        have involved durations of 50 years or less. In the mandatory 
        market, this is insufficient to achieve the level of 
        ``permanence'' that justifies allowing a polluter to buy an 
        offset.
          6. Impact on appropriations.--The perceived increase in 
        resources available for reforestation or wetlands restoration 
        from these contracts could become illusory if the 
        appropriations committees simply reduce public appropriations 
        by the amount attributable to this new private source. The 
        financial benefit to the agency would be wiped out.
          7. Impact on Management Flexibility.--Forest Service Chief 
        Tidwell has stressed in his testimony the inadvisability of 
        managing a public forest only for carbon. Instead, carbon 
        storage should be the natural byproduct of managing for the 
        longterm health of the forest. Offsets contracts with private 
        parties run directly counter to this prudent approach. Climate 
        change implies the need to change management techniques over 
        time. Offset contracts lock in the preservation of a carbon 
        sequestration in a particular place as part of a mandatory 
        compliance regime. The potential for these two tensions to 
        become irreconcilable over time seems obvious. As your public 
        witness, Dr. Beverly Law, has stated ``Federal lands should be 
        managed for the public interest of carbon sequestration, not 
        revenue from carbon credits.''
          8. Legal concerns.--Various solicitors' offices have issued 
        varied legal interpretations regarding proposals to have the 
        managers of our public lands bind themselves to a contract with 
        a private sequestration project developer in the voluntary 
        carbon market. In any event, these opinions will have to be 
        rewritten once the compliance market begins because the 
        compliance market will create liability, enforcement and 
        management issues not present in the voluntary market.
          9. Use of offsets contract revenues.--Should revenues flowing 
        from efforts to mitigate climate change emissions be spent only 
        on mitigating climate change emissions? The agencies have huge 
        climate adaptation needs which would be directly related to the 
        purposes of climate legislation. On the other hand, diverting 
        the money to non-climate related activities within the relevant 
        agency, such as regular operations and maintenance, or outside 
        the agency itself, would potentially undermine the climate 
        purposes of the revenues.

    For all these reasons, The Wilderness Society believes that it 
would be preferable to provide direct funding for carbon sequestration 
activities on the public lands through non-offset mechanisms. The 
pending climate bills include a Natural Resources Adaptation title 
which would supplement agency budgets to accomplish adaptation 
purposes, much of which will have major sequestration benefits even if 
not undertaken solely for that purpose. In addition, Senator Stabenow 
has proposed a Carbon Conservation Program outside of the offsets 
market that could provide resources to public land managers to protect 
sequestration value without becoming entangled in long-term contracts 
with individual private carbon projects. As Dr. Beverly Law has 
testified ``To manage federal lands in the public interest of carbon 
sequestration, we should strive to preserve mature and old forests to 
avoid losses of carbon associated with harvest. Many of the mature and 
old forests are on public lands, so they are uniquely positioned to act 
as carbon reserves.'' Non-offsets funding from the climate bill could 
and should be used to support this type of carbon storage on public 
lands.
    Finally, let me suggest that one model for taking advantage of the 
offsets market that could be viewed as a middle ground was developed by 
the Fish and Wildlife Service and The Conservation Fund for the 
Theodore Roosevelt NWR in Mississippi. Agricultural land was reforested 
adjacent to the refuge according to native species specifications 
provided by the FWS. The carbon credits were sold into the voluntary 
market. The proceeds were used to facilitate not just the project 
itself, but also the conveyance of title to the USFWS after the 
restoration work is complete. Note that the offsets were done on 
private land, not public. The carbon encumbrance was ultimately 
conveyed with the land, so many of the concerns expressed above would 
still apply, but the critical new element of this model is that the 
taxpayer received an expansion of protected acreage. In contrast, most 
of the other experiments with offsets on public lands have involved no 
such addition to the amount of acreage protected from conversion.
    Thank you for this opportunity to place this information in the 
record of your hearing.

                                    

      

</pre></body></html>
